No. 20-____
IN THE

Supreme Court of the United States
————
JANE DOE,
Petitioner,

v.
UNITED STATES,

Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
MICHAEL J. WISHNIE
Counsel of Record
DANA MONTALTO
VETERANS LEGAL
SERVICES CLINIC
JEROME N. FRANK
LEGAL SERVICES ORG.
P.O. Box 209090
New Haven, CT 06520-9090
(203) 432-4800
michael.wishnie@yale.edu
Counsel for Petitioner
October 26, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
After years of deliberation, in 1946 Congress waived
the United States’ sovereign immunity from tort liability through the Federal Tort Claims Act (“FTCA”),
including for injuries involving “members of the military or naval forces.” 28 U.S.C. §§ 1346(b), 2671.
Congress limited that waiver with enumerated exceptions, for instance preserving sovereign immunity
against claims arising from “combatant activities . . .
during time of war.” Id. § 2680(k). Despite the plain
text of the statute, just four years later this Court held
that the FTCA broadly precludes claims for injuries
“incident to service.” Feres v. United States, 340 U.S.
135, 146 (1950). For seventy years, Feres has deprived
servicemembers of the statutory remedy Congress
provided. Members of this Court have criticized this
radical departure from statutory text, see United
States v. Johnson, 481 U.S. 681, 702-03 (1987) (Scalia,
J., dissenting) (Feres “ignor[ed] what Congress wrote
and imagin[ed] what it should have written”), and
voted to grant certiorari in cases seeking to correct this
error. See, e.g., Daniel v. United States, 139 S. Ct. 1713,
1713 (2019) (Mem.) (“Justice Ginsburg would grant
the petition for a writ of certiorari”); id. (Thomas, J.,
dissenting from denial of certiorari).
While a cadet at the United States Military Academy,
Petitioner Jane Doe was subject to pervasive sexual harassment and raped by a fellow cadet. Later, she brought
tort claims under the FTCA. The Second Circuit, applying Feres, held that her claims were “incident to service”
and therefore barred. The questions presented are:
1. Was Feres wrongly decided and should it be
overruled?
2. Alternatively, should Feres be limited so as not to
bar tort claims brought by servicemembers injured by
violations of military regulations, during recreational
activities, or while attending a service academy?
(i)

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

TABLE OF AUTHORITIES ................................

v

INTRODUCTION ................................................

1

OPINIONS BELOW ............................................

3

JURISDICTION ..................................................

3

STATUTORY PROVISIONS INVOLVED ..........

3

STATEMENT ......................................................

3

REASONS FOR GRANTING THE PETITION..

7

I. The Feres Doctrine’s Departure from the
Plain Text of the FTCA is a Recurring
Issue of Great National Importance ........

7

A. Contrary to the Plain Text of the
FTCA, Feres Closes the Courthouse
Doors to Jane Doe and Countless
Other Servicemembers ........................

8

1. The Feres Doctrine Contravenes
the Plain Text of the FTCA............

8

2. Courts Have Applied Feres to
Preclude Suit in a Variety of
Circumstances Not Intended by
Congress .........................................

11

B. Members of This and Other Courts
Have Urged This Court to Revisit
Feres .....................................................

14

C. The Feres Doctrine Lacks a Single
Coherent Rationale..............................

17

(iii)

iv
TABLE OF CONTENTS—Continued
Page
II. The Feres Doctrine Generates Inconsistent Results Across the Circuit Courts ....

25

III. This Case Presents an Appropriate
Vehicle to Reconsider Feres ......................

30

CONCLUSION ....................................................

32

APPENDIX
APPENDIX A: ORDER AFFIRMING DISTRICT COURT ORDER, Second Circuit
Court of Appeals (May 29, 2020) .....................

1a

APPENDIX B: ORDER, Second Circuit
Court of Appeals (June 26, 2019) ....................

11a

APPENDIX C: ORDER, Federal Circuit
Court of Appeals (January 18, 2018) ..............

13a

APPENDIX D: OPINION, Second Circuit
Court of Appeals (August 30, 2017) ................

16a

APPENDIX E: ORDER, Second Circuit
Court of Appeals (September 10, 2015) ..........

67a

APPENDIX F: ORDER AND OPINION,
District Court for the Southern District of
New York (April 13, 2015) ...............................

69a

APPENDIX G: AMENDED COMPLAINT,
District Court for the Southern District of
New York (August 30, 2013)............................ 103a
APPENDIX H: STATUTORY PROVISIONS
INVOLVED ...................................................... 132a
28 U.S.C. § 1346(b)(1)...................................
28 U.S.C. § 2671 ...........................................
28 U.S.C. § 2674 ...........................................
28 U.S.C. § 2680 ...........................................

132a
132a
133a
134a

v
TABLE OF AUTHORITIES
CASES

Page(s)

Bivens v. Six Unknown Named Agents of
Federal Bureau of Narcotics,
403 U.S. 388 (1971) ...................................

5, 6

Bon v. United States,
802 F.2d 1092 (9th Cir. 1986) ................... 13, 25
Bork v. Carroll,
449 Fed. Appx. 719 (10th Cir. 2015) ........

16

Bostock v. Clayton Cty.,
140 S. Ct. 1731 (2020) ............................. 1, 2, 29
Bowers v. Wynne,
615 F.3d 455 (6th Cir. 2010) .....................

28

Bozeman v. United States,
780 F.2d 198 (2d Cir. 1985) ...................... 13, 15
Brooks v. United States,
337 U.S. 49 (1949) ............................. 8, 9, 10, 19
Brown v. United States,
462 F.3d 609 (6th Cir. 2006) .....................

28

Brown v. United States,
739 F.2d 362 (8th Cir. 1984) ................. 2, 13, 28
Commissioner v. Clark,
489 U.S. 726 (1989) ...................................

9

Costo v. United States,
248 F.3d 863 (9th Cir. 2001) ....................passim
Daniel v. United States,
139 S. Ct. 1713 (2019) ..................... 7, 15, 24, 29
Daniel v. United States,
889 F.3d 978 (9th Cir. 2018) .....................

24

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Day v. Mass. Air. Nat’l Guard,
167 F.3d 678 (1st Cir. 1999) .....................

15

Doe v. Hagenbeck,
98 F. Supp. 3d 672 (S.D.N.Y. 2015)..........

3

Doe v. Hagenbeck,
870 F.3d 36 (2d Cir. 2017) ........................

3

Doe v. United States,
815 Fed.App’x. 592 (2d Cir. 2020) ............

3

Dreier v. United States,
106 F.3d 844 (9th Cir. 1996),
as amended (Feb. 4, 1997) ........................

27

Elliott v. United States,
13 F.3d 1555 (11th Cir. 1994), vacated
for reh’g en banc, 28 F.3d 1076 (11th
Cir. 1994), aff’d by equally divided court,
37 F.3d 617 (11th Cir. 1994) .....................

20

Feres v. United States,
340 U.S. 135 (1950) ..................................passim
Gonzalez v. United States Air Force,
88 F. App’x 371 (10th Cir. 2004) ..............

12

Hall v. United States,
451 F.2d 353 (1st Cir. 1971) .....................

20

Hass v. United States,
518 F.2d 1138 (4th Cir. 1975) ................... 14, 25
Hunt v. United States,
636 F.2d 580 (D.C. Cir. 1980) ...................

20

Indian Towing Co. v. United States,
350 U.S. 61 (1955) ..................................... 17, 31

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Jentoft v. United States,
450 F.3d 1342 (Fed. Cir. 2006) .................

28

Johnson v. United States,
576 U.S. 591 (2015) ..................................

31

Johnson v. United States,
704 F.2d 1431 (9th Cir. 1983) ................... 26, 27
Jones v. United States,
139 S. Ct. 2615 (2019) ...............................

15

Kimble v. Marvel Entm’t, LLC,
135 S. Ct. 2401 (2015) ...............................

31

Lanus v. United States,
570 U.S. 932 (2013) ..................................passim
Lombard v. United States,
690 F.2d 215 (D.C. Cir. 1982) ...................

20

Loritts v. United States,
489 F. Supp. 1030 (D. Mass. 1980)........... 11, 26
Major v. United States,
835 F.2d 641 (6th Cir. 1987) .....................

26

Matreale v. State Dep’t of Military & VA,
487 F.3d 150 (3d Cir. 2007) ......................

15

Mercado Del Valle v. United States,
856 F.2d 406 (1st Cir. 1988) .....................

23

Mills v. Tucker,
499 F.2d 866 (9th Cir. 1974) .....................

27

Mondelli v. United States,
711 F.2d 567 (3d Cir. 1983) ...................... 2, 14

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Mossow v. United States,
987 F.2d 1365 (8th Cir. 1993) ...................

29

O’Neill v. United States,
140 F.3d 564 (3d Cir. 1998) ...................... 12, 28
Ortiz v. United States,
786 F.3d 817 (10th Cir. 2015) ............. 14, 16, 29
Parker v. United States,
611 F.2d 1007 (5th Cir. 1980) ...................

27

Persons v. United States,
925 F.2d 292 (9th Cir. 1991) ..................... 11, 16
Pringle v. United States,
208 F.3d 1220 (10th Cir. 2000) ........... 11, 27, 28
Rayonier v. United States,
352 U.S. 315 (1957) ................................... 10, 17
Regan v. Starcraft Marine, LLC,
524 F.3d 627 (5th Cir. 2008) ..................... 25, 26
Richards v. United States,
176 F.3d 652 (3d Cir. 1999), reh’g denied,
180 F.3d 564 (3d Cir. 1999) ................ 11, 15, 28
Romero v. United States,
954 F.2d 223 (4th Cir. 1992) .....................

29

Scales v. United States,
685 F.2d 970 (5th Cir. 1982) .....................

16

Schoenfeld v. Quamme,
492 F.3d 1016 (9th Cir. 2007) ...................

27

Siddiqui v. United States,
783 Fed. App’x. 484 (6th Cir. 2019)..........

13

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Smith v. United States,
196 F.3d 774 (7th Cir. 1999) .....................

22

Stencel Aero Eng’g Corp. v. United States,
431 U.S. 666 (1977) ................................... 17, 18
Stubbs v. United States,
744 F.2d 58 (8th Cir. 1984) .......................

12

Taber v. Maine,
67 F.3d 1029 (2d Cir. 1995) ................ 10, 15, 20
Uhl v. Swanstrom,
79 F.3d 751 (8th Cir. 1996) .......................

16

United States v. Brown,
348 U.S. 110 (1954) ............................. 17, 19, 20
United States v. Johnson,
481 U.S. 681 (1987) ..................................passim
United States v. Muniz,
374 U.S. 150 (1963) ................................... 8, 18
United States v. Shearer,
473 U.S. 52 (1985) ..................................... 17, 18
Webb v. Wilkie,
32 Vet. App. 309 (2020) ............................

19

Williams v. Wynne,
533 F.3d 360 (5th Cir. 2008) .....................

28

Zuress v. Donley,
606 F.3d 1249 (9th Cir. 2010) ...................

28

CONSTITUTION
U.S. Const. amend. V ...................................

5, 6

x
TABLE OF AUTHORITIES—Continued
STATUTES

Page(s)

10 U.S.C. § 10216(a) .....................................

28

28 U.S.C. § 1254(l) ........................................

3

28 U.S.C. § 1295(a)(2)...................................

6

28 U.S.C. § 2671 ........................................... 8, 10
28 U.S.C. § 2674 ........................................... 8, 12
28 U.S.C. § 2680(a) ................................... 8, 23, 30
28 U.S.C. § 2680(b) ....................................... 17, 18
28 U.S.C. § 2680(c) .......................................

17

28 U.S.C. § 2680(f) ........................................

17

28 U.S.C. § 2680(i) ........................................

18

28 U.S.C. § 2680(j) .............................. 8, 18, 23, 30
28 U.S.C. § 2680(k) ......................................passim
Federal Tort Claims Act, 28 U.S.C. § 1346
et seq. ........................................................passim
Little Tucker Act, 28 U.S.C. § 1346(a)(2) ....

6

COURT FILINGS
Brief for Petitioner, United States v. Briggs,
argued, No. 19-108 (Oct. 13, 2020) ........... 21, 22
OTHER AUTHORITIES
Barry Bennett, The Feres Doctrine,
Discipline, and the Weapons of War, 29
St. Louis U. L.J. 383 (1985) ......................

21

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Defense Manpower Data Center, 2010
Service Academy Gender Relations
Survey, U.S. Dep’t of Def. (2010),
available
at
https://sapr.mil/public/
docs/research/FINAL_SAGR_2010_Over
view_Report.pdf [https://perma.cc/W5P4BYW3] ....................................................... 4, 23
Gregory C. Sisk, The Peculiar Obstacles to
Justice Facing Federal Employees Who
Survive Sexual Violence, 2019 U. Ill. L.
Rev. 269 (2019)..........................................

19

Jonathan Turley, Pax Militaris: The Feres
Doctrine and the Retention of Sovereign
Immunity in the Military System of
Governance, 71 Geo. Wash. L. Rev. 1
(2003) .........................................................

24

Memorandum from James N. Mattis,
Secretary of Defense, to All Members of
the Department of Defense: Sexual
Assault Prevention and Awareness
(Apr. 18, 2018), available at https://
dod.defense.gov/portals/1/features/2018/
0418_sapr/saap-osd004331-18-res.pdf
[https://perma.cc/TGC4-VXWA] ...............

21

Sexual Assault Prevention and Response
Office, U.S. Dep’t of Defense, Department
of Defense Fiscal Year 2009 Annual
Report on Sexual Assault in the Military
(2010), available at https://www.sapr.
mil/public/docs/reports/fy09_annual_rep
ort.pdf [https://per ma.cc/C43R-HV98] ....

22

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Sexual Assault Prevention and Response
Office, U.S. Dep’t of Defense, Department
of Defense Fiscal Year 2019 Annual
Report on Sexual Assault in the Military
(2020), available at https://www.sapr.
mil/sites/default/files/1_Department_of_
Defense_Fiscal_Year_2019_Annual_Rep
ort_on_Sexual_Assault_in_the_Military.
pdf [https://perma .cc/76UL-QK7W].........

23

U.S. Dep’t of Defense, Directive 6495.01:
Sexual Assault Prevention and Response
Program (Nov. 7, 2008) .............................

5

U.S. Dep’t of Defense, Sex Crimes and the
UCMJ: A Report for the Joint Service
Committee on Military Justice (Jan. 16,
2015), available at https://jpp.whs.mil
/public/docs/03_Topic-Areas/02-Article_
120/20150116/58_Report_SexCrimes_U
CMJ.pdf [https://perma.cc/264Y-D7TA] ...

22

INTRODUCTION
Petitioner Jane Doe grew up in a military family,
and as a senior in high school she was thrilled to
receive her offer of admission to the United States
Military Academy at West Point (“West Point”). Ms.
Doe entered West Point in 2008 and excelled as a
cadet. However, West Point subjected her to pervasive
sexual harassment. In her second year, Ms. Doe was
raped on campus by a fellow cadet during a recreational walk late one evening. When she reported the
assault, West Point failed to adhere to mandatory
Department of Defense (“DOD”) regulations governing
sexual violence response. In 2010, Ms. Doe withdrew
from the school. She later brought suit, including
claims under the FTCA. The district court and court of
appeals dismissed her FTCA claims on the pleadings,
as Feres and its progeny have obliged courts to dismiss
the claims of many other servicemembers.
In Feres v. United States, this Court dramatically
curtailed Congress’s waiver of sovereign immunity
under the FTCA, holding that servicemembers cannot
bring claims for injuries that “arise out of or are in the
course of activity incident to service.” 340 U.S. at 146.
This interpretation is incompatible with the plain text
of the FTCA. “As written,” the FTCA’s broad waiver of
sovereign immunity “renders the United States liable
to all persons, including servicemen, injured by the
negligence of Government employees.” Lanus v. United
States, 570 U.S. 932, 932 (2013) (Thomas, J., dissenting from denial of certiorari) (internal quotation marks
omitted). And “when the meaning of the statute’s
terms is plain, [the Court’s] job is at an end.” Bostock
v. Clayton Cty., 140 S. Ct. 1731, 1749 (2020). “The
people are entitled to rely on the law as written,
without fearing that courts might disregard its plain

2
terms based on some extratextual consideration.” Id.
Nonetheless, since 1950, the Feres doctrine has nullified the FTCA’s plain-text promise to servicemembers
injured by tortious government conduct.
The national importance of Feres and its progeny
cannot be overstated. In recent decades, civilians injured
by government actions have gained greater access to
recovery under the FTCA. Meanwhile, Feres and its
progeny have denied servicemembers—and sometimes
even their children—access to the very system of
justice they have pledged to defend. See, e.g., Brown v.
United States, 739 F.2d 362, 368-69 (8th Cir. 1984)
(rejecting as Feres-barred claims against the United
States and superior officers for failing to prevent mock
lynching of a Black servicemember, despite finding no
relevant relationship between his injuries and military
service); Mondelli v. United States, 711 F.2d 567, 568
(3d Cir. 1983) (rejecting as Feres-barred claims of a
civilian child born with a genetically transferred form
of cancer caused by her servicemember father’s exposure to radiation). Feres has wrongfully deprived
injured servicemembers of the remedies Congress
established for them in the FTCA.
Unmoored from the text of the FTCA and lacking a
coherent rationale, the Feres doctrine has also generated confusion among the lower courts. Circuit courts
have come to conflicting conclusions about the scope of
Feres’s “incident to service” bar, likely because some
judges seek to avoid the injustice at the heart of the
doctrine.
Over time, the Feres exception has swallowed the
FTCA’s rule. As members of this Court have concluded, “Feres was wrongly decided and heartily
deserves the widespread, almost universal criticism it
has received.” United States v. Johnson, 481 U.S. 681,

3
700 (1987) (Scalia, J., dissenting, joined by Brennan,
Marshall, and Stevens, JJ.). Feres has unjustly closed
the courthouse doors to too many injured servicemembers and for too long has left tortious government
conduct unchecked. The time to revisit Feres is now.
OPINIONS BELOW
The court of appeals opinion is reported at 815 Fed.
App’x. 592 (2d Cir. 2020). That opinion relied on and
incorporated the Feres analysis from a prior published
decision on the government’s earlier interlocutory
appeal. 870 F.3d 36 (2d Cir. 2017); see also id. at 50
(Chin, J., dissenting). The district court’s opinion is
reported at 98 F. Supp. 3d 672 (S.D.N.Y. 2015).
JURISDICTION
The court of appeals entered its judgment on May
29, 2020. This Court’s jurisdiction is invoked under 28
U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
This case involves a judicially created exception to
the Federal Tort Claims Act (FTCA), 28 U.S.C. § 1346
et seq. The pertinent provisions of the FTCA are
included at Pet.App.132a.
STATEMENT
Since childhood, Jane Doe dreamed of following in
the footsteps of her relatives by serving in the U.S.
Armed Forces. Pet.App.104a. Ms. Doe was a conscientious and motivated student in high school, and after
securing the necessary congressional nomination, she
was thrilled to receive an offer of admission from West
Point in 2008. Id. at 105a. Ms. Doe thrived at West
Point, ranking high in her class and garnering praise
from her professors. Id. at 106a-07a. One professor

4
described Ms. Doe as “one of the most professional and
internally motivated” students at West Point, id. at
107a, a young woman who was likely to “excel as an
Army officer” and whom he “would gladly recruit . . .
to serve on [his] team, regardless of the mission.” Id.
However, Ms. Doe achieved this success in spite of,
not because of, the culture she found at West Point.
During Ms. Doe’s time at West Point, school administrators failed to take necessary steps to protect female
cadets from a pervasive and well-known culture of
sexual violence. West Point and its leaders fostered a
sexually aggressive and misogynistic environment,1
failed to punish rapists and other sexual assailants,2
1

For instance, during team-building exercises, male cadets
would march and sing sexually violent cadences, e.g., “I wish that
all the ladies / were statues of Venus/ and I was a sculptor / I’d
break’em with my penis,” and “I wish that all the ladies / were
holes in the road / and I was a dump truck / I’d fill’em with my
load” Pet.App.108a. This was done in full view of West Point
officials, who did nothing to stop them. Id. West Point professors
and staff openly joked with male cadets about sexual exploits,
encouraged male cadets to seize any opportunity for sex, and
claimed heavy drinking was an understandable response to the
lack of sexual opportunities on campus. Id. at 109a.
2

In 2010, during Ms. Doe’s time of attendance, nearly 10% of
female cadets indicated they had been subject to sexual assault
at West Point that year. Defense Manpower Data Center, 2010
Service Academy Gender Relations Survey, U.S. Dep’t of Def. iv-v
(2010), available at https://sapr.mil/public/docs/research/FINAL_
SAGR_2010_Overview_Report.pdf [https://perma.cc/W5P4-BYW3].
More than half said they had been sexually harassed. Id at v. In
academic year 2009-2010, West Point received eleven official
reports of sexual assault. These reports were a small fraction of
the assaults at West Point that year. Pet.App.110a. Of these
eleven reports, five were “unrestricted” (informing the perpetrator’s superiors and initiating an investigation) and six were
“restricted” (meaning no action was to be taken). Only one
perpetrator was dismissed from West Point. Id. at 110a-111a.

5
and failed to implement mandatory DOD directives
and instructions to protect victims.3
Ms. Doe suffered the full consequences of West
Point’s blatant disregard of DOD policies on May 8,
2010, when she was raped by a fellow cadet. Id. at
115a-116a. Ms. Doe was attacked in an academic building, after-hours, during the course of a recreational
nighttime walk. Id. She sought immediate medical
care from West Point, which once again failed to comply
with mandatory military directives or to provide
appropriate medical and emotional support.4 Three
months later, she resigned and left the school. Id. at
118a. Ms. Doe’s departure was a bitter loss to a young
woman who had dreamed of serving her country. It
was also a tragic loss to the nation of a promising
future soldier.
After exhausting her administrative remedies, Ms.
Doe filed an action in the Southern District of New
York in 2013, pleading four causes of action: FTCA
claims, a Bivens Fifth Amendment Due Process claim,

3

In 2011, West Point was not in compliance with DOD sexual
harassment and assault policies and was employing a “deficient”
prevention training program that failed to meet minimum
standards. Pet.App.113a. DOD found that the quality of West
Point’s sexual harassment and assault prevention programs had
declined since 2008. Id.
4

West Point did not provide Ms. Doe with timely access to
comprehensive medical and psychological treatment. In the two
weeks following the rape, she received no counseling or support,
aside from a single email. Pet.App.118a. Nor did she receive a
forensic examination despite visiting a health clinic twice in the
days after the rape. Id. at 116a-17a. These omissions directly
contravened mandatory DOD regulations. Pet.App.62a; see also
U.S. Dep’t of Def., Directive 6495.01: Sexual Assault Prevention
and Response Program, at 2, 13 (Nov. 7, 2008).

6
a Bivens Fifth Amendment equal protection claim, and
a Little Tucker Act claim. Id. at 77a-78a. The district
court (Hellerstein, J.) granted the defendants’ motion
to dismiss all claims with the exception of the Bivens
equal protection claim. Id. at 101a.
The government filed an interlocutory appeal to the
Second Circuit. Ms. Doe made a motion to transfer to
the Federal Circuit, pursuant to 28 U.S.C. § 1295(a)(2),
which a motions panel denied. Id. at 67a-68a. A divided
Second Circuit merits panel then reversed the district
court on Ms. Doe’s equal protection claim, holding that
“no Bivens remedy is available for injuries that arise
out of or are in the course of activity incident to
service.” Id. at 32a (internal quotation marks omitted).
In dissent, Judge Chin noted that Jane Doe “was not
in military combat or acting as a soldier or performing
military service,” but instead was merely a student,
and “her injuries were incident only to her status as a
student.” Id. at 43a (Chin, J., dissenting). Ms. Doe
subsequently appealed the dismissal of her statutory
claims to the Federal Circuit, which transferred the
case to the Second Circuit. Id. at 15a. Relying on and
incorporating the Feres analysis from its prior equal
protection decision, the Second Circuit affirmed, holding
that “Doe’s FTCA claims are incident to service, and
are therefore barred under Feres.” Id. at 5a-6a.
Jane Doe petitions for a writ of certiorari only as to
the dismissal of her FTCA claims. At the time of the
harassment, rape, and subsequent negligent handling
of her rape by the West Point administration, Ms. Doe
had incurred no active service obligation; she was
“taking classes, participating in extracurricular activities, and learning to grow up and to be a self-sufficient
and healthy individual.” Id. at 59a (Chin, J., dissenting). “There was nothing characteristically military

7
about what she was doing.” Id. (internal quotation
marks omitted). Ms. Doe simply seeks to have her
claims—and those of other injured servicemembers
not subject to a textual limitation to the FTCA’s waiver
of sovereign immunity—heard on the merits.
REASONS FOR GRANTING THE PETITION
I. The Feres Doctrine’s Departure from the
Plain Text of the FTCA is a Recurring
Issue of Great National Importance.
In Feres v. United States, this Court vitiated the
ability of servicemembers to bring claims under the
FTCA, barring tort claims against the government
for injuries “incident to service.” 340 U.S. at 146. This
judicially created exception contravenes the plain text
of the FTCA and dramatically restricts Congress’s
express waiver of sovereign immunity. The Feres
doctrine wrongly deprives servicemembers of the
remedies Congress created for them under the FTCA.
If the Feres doctrine ever was a defensible interpretation of Congress’s intent, it has since outgrown
every rationale. Rather than create “a workable,
consistent and equitable whole,” Feres, 340 U.S. at
139, for seventy years the “incident to service” bar has
undermined Congress’s statutory scheme, erroneously
denied redress to servicemembers, and insulated
tortious government conduct from liability. It has also
led to “distortions” in other areas of law. Daniel, 139
S. Ct. at 1713-14 (Thomas, J., dissenting from denial
of certiorari). This Court should grant certiorari to
restore a faithful and just interpretation of the FTCA.

8
A. Contrary to the Plain Text of the
FTCA, Feres Closes the Courthouse
Doors to Jane Doe and Countless Other
Servicemembers.
When Congress gave the district courts jurisdiction
to hear “any claim” of negligence against the United
States, it did not mean “any claim but that of servicemen.” Brooks v. United States, 337 U.S. 49, 51 (1949).
The Feres doctrine is an indefensible interpretation
of the plain text of the statute and a gross injustice
to servicemembers denied remedy for injuries not
precluded by the FTCA’s enumerated exceptions.
1. The Feres Doctrine Contravenes the
Plain Text of the FTCA.
The FTCA’s “terms are clear.” Brooks, 337 U.S. at
51. The statute provides that the United States “shall
be liable . . . in the same manner and to the same
extent as a private individual under like circumstances . . . .” 28 U.S.C. § 2674. The Act uses “neither
intricate nor restrictive language in waiving . . .
immunity.” United States v. Muniz, 374 U.S. 150, 152
(1963). Critically, the FTCA expressly waives sovereign immunity for torts involving “members of the
military or naval forces” and “the military departments.”
28 U.S.C. § 2671. This broad waiver of sovereign
immunity is qualified by several enumerated exceptions,
at least three of which indicate Congress specifically
considered and provided for the needs of the military.
Id. § 2680(j) (excepting “[a]ny claim arising out of the
combatant activities of the military or naval forces, or
the Coast Guard, during time of war”); id. § 2680(k)
(excepting “[a]ny claim arising in a foreign country”);
id. § 2680(a) (excepting “[a]ny claim based upon . . . the
exercise or performance or the failure to exercise or
perform a discretionary function.”). But these limited

9
statutory exclusions do not encompass all claims
incident to military service.
In the first years after its adoption, this Court
recognized that servicemembers were eligible for
recovery under the FTCA. In 1949, this Court allowed
servicemembers to bring claims for the actions of a
civilian Army employee who struck their car with an
Army truck. Brooks, 337 U.S. at 51. The Brooks Court
was persuaded by the plain language of the statute, its
structure, and its legislative history. Id. Observing the
FTCA’s numerous exceptions are “lengthy, specific,
and close to the present problem,” the Court noted
“such exceptions make it clear to us that Congress
knew what it was about when it used the term ‘any
claim’ [to describe the scope of government liability for
servicemember claims].” Id. The Brooks Court thus
read the FTCA to permit servicemember claims not
barred by a statutory exclusion. And rightly so. As this
Court has repeatedly emphasized: “In construing
provisions . . . in which a general statement of policy
is qualified by an exception, we usually read the
exception narrowly in order to preserve the primary
operation of the provision.” Commissioner v. Clark,
489 U.S. 726, 727 (1989).
Moreover, Congress considered—and rejected—a
servicemember bar. Lanus, 570 U.S. at 932 (Thomas,
J., dissenting from denial of certiorari) (“Congress
contemplated such an exception . . . but codified
language that is far more limited.”) (citations omitted).
Indeed, “[t]here were eighteen tort claims bills
introduced in Congress between 1925 and 1935,” and
“[a]ll but two contained exceptions denying recovery to
members of the armed forces.” Brooks, 337 U.S. at 51.
Yet, the final text of the FTCA contained no such
exception. Id. at 51-52. Accordingly, as this Court

10
observed, “[i]t would be absurd to believe that
Congress did not have the servicemen in mind in 1946,
when [the FTCA] was passed.” Id. at 51.
Yet, just one year after Brooks, and despite the plain
language and legislative history of the FTCA, the
Feres Court negated the FTCA’s waiver of sovereign
immunity for servicemembers, creating an additional
broad exception barring claims for injuries incurred
“incident to service[,]” 340 U.S. at 146—a phrase that
appears nowhere in the statute. In so doing, the Feres
Court neglected the definition of servicemember employment in Section 2671 and rendered superfluous the
combatant activities exception, 28 U.S.C. § 2680(k).
“There is no support for [the incident to service bar]
in the text of the statute . . . .” Lanus, 570 U.S. at 933
(Thomas, J. dissenting from denial of certiorari). As
Judge Calabresi has likewise explained, the Feres
Court’s interpretation of the FTCA “flew directly in
the face of a relatively recent statute’s language,” and
“its willingness to ignore language, history, and the
process of incremental law making . . . was . . .
remarkable.” Taber v. Maine, 67 F.3d 1029, 1038-39
(2d Cir. 1995). In fact, just seven years after Feres, this
Court acknowledged—in a case not brought by a
servicemember—that “[t]here is no justification . . . to
read exemptions into the [FTCA] beyond those
provided by Congress.” Rayonier v. United States, 352
U.S. 315, 320 (1957). “If the Act is to be altered that is
a function for the same body that adopted it.” Id.
Nonetheless, for seventy years the judicially created
Feres doctrine has wrongfully closed the courthouse
doors to injured servicemembers.

11
2. Courts Have Applied Feres to Preclude Suit in a Variety of Circumstances Not Intended by Congress.
The Feres doctrine “now ‘encompasses, at a minimum, all injuries suffered by military personnel that
are even remotely related to the individual’s status as
a member of the military.’” Pringle v. United States,
208 F.3d 1220, 1223-24 (10th Cir. 2000) (quoting
Persons v. United States, 925 F.2d 292, 296 n.7 (9th
Cir. 1991)). This “has the unfortunate consequence of
depriving servicemen of any remedy when they are
injured by the negligence of the Government . . . .”
Lanus, 570 U.S. at 932 (Thomas, J., dissenting from
denial of certiorari); see also Richards v. United States,
180 F.3d 564, 564-65 (3d Cir. 1999) (Rendell, J.,
dissenting from denial of rehearing en banc) (“Feres . .
. is being employed by many courts on a regular basis
to deny a military employee’s recovery, and to prevent
the government’s accountability, for injuries sustained
in connection with essentially civilian activities wholly
unrelated to military service.”) (citations omitted).
Ms. Doe’s case is but one of many examples that
illustrate how Feres unjustly deprives injured servicemembers from any opportunity to be heard in court.
Jane Doe, then a cadet studying at West Point, was
raped by a fellow student during a social walk after
hours. Had Ms. Doe chosen to attend a “private college
receiving federal funding or another public educational institution,” rather than choosing to serve her
country, “she could seek recourse for her injuries.”
Pet.App.43a (Chin, J., dissenting). Moreover, if Ms.
Doe was a civilian raped on the West Point campus by
a cadet, she would be allowed to bring suit. See Loritts
v. United States, 489 F. Supp. 1030, 1031 (D. Mass.
1980) (holding civilian may bring FTCA claims against

12
West Point for negligence when she was raped by
cadet while visiting campus). As these cases demonstrate, Feres’s overbroad application has irrationally
denied servicemembers a remedy for injuries for which
“private individual[s] under like circumstances” would
be liable. 28 U.S.C. § 2674.
It may seem anomalous that Ms. Doe’s injury could
be found “incident to service.” But her case is not
an outlier. The rape of an underage servicemember,
plied with alcohol and assaulted at a party, was held
“incident” to her military employment. Gonzalez v.
United States Air Force, 88 F. App’x 371, 375 (10th Cir.
2004); id. at 379 (Lucero, J., concurring) (“Surely, no
one should suggest that when young Americans sign
up for military service, they can expect that potential
sexual assaults upon them will be routinely considered
‘incident’ to that service. . . It is my hope that the
expansive reach of Feres will be revisited.”). The
murder of a female naval officer, shot to death while
watching a movie at home with a friend, was determined to be “incident to service” because the assailant,
her ex-fiancé, was also a naval officer. O’Neill v.
United States, 140 F.3d 564, 564-65 (3d Cir. 1998); id.
at 565 (Becker, C.J., dissenting) (“[I]t is difficult . . . to
imagine anything less incident to service than being
attacked by an ex-lover while sitting at home watching
a movie with a friend.”).When a drill sergeant ordered
a recruit into a latrine and raped her—causing such
extreme mental anguish to the recruit that she killed
herself rather than face his continued abuse—the
drill sergeant’s conduct was also deemed “incident to
service” because he threatened her with military discipline if she refused to submit to his advances. Stubbs
v. United States, 744 F.2d 58, 59 (8th Cir. 1984).

13
Malicious religious discrimination and race discrimination within the military have no connection to
military goals, yet here too, the Feres doctrine has
immunized the United States from liability. For instance,
a drill sergeant targeted a Muslim Marine Corps
recruit on the basis of his faith, allegedly subjecting
him to physical abuse so extraordinary that the recruit
committed suicide. Siddiqui v. United States, 783 Fed.
App’x. 484, 486 (6th Cir. 2019). The Feres doctrine
barred his grieving parents’ suit that claimed inter
alia a pattern of religious discrimination against
Muslims at their son’s base. Id. at 488. In a similarly
appalling circumstance, a group of servicemembers
attempted to hang a Black servicemember in a mock
lynching. Brown, 739 F.2d at 364. The court acknowledged the servicemember’s assault took place at a
“drinking party on a long holiday weekend” that was
“not sponsored by the military base” nor was, in any
way, “related to the military mission.” Id. at 368. Yet,
the court still held that his claim against the United
States was barred by the Feres doctrine. Id. at 369.
The servicemember later attempted suicide. Id. at 363.
The Feres doctrine’s sweeping preclusive effect has
barred FTCA claims of servicemembers for injuries
wholly unrelated to any military duties. See, e.g., Costo
v. United States, 248 F.3d 863, 866 (9th Cir. 2001)
(holding the deaths of two off-duty servicemembers,
who drowned during a civilian-led, off-base, recreational rafting trip were incident to service); Bon v.
United States, 802 F.2d 1092, 1093 (9th Cir. 1986)
(holding servicemember’s injuries caused when a
government-owned motorboat collided with her canoe
were barred, although the accident occurred during
the servicemember’s off-duty recreational time); Bozeman
v. United States, 780 F.2d 198, 201 (2d Cir. 1985)
(rejecting as Feres-barred a widow’s FTCA claims for

14
the death of her servicemember husband who was
killed in a drunk-driving accident after the Army
continued to serve the visibly inebriated driver at one
of its clubs); Hass v. United States, 518 F.2d 1138,
1139 (4th Cir. 1975) (barring claims by servicemember
injured while recreationally riding a horse rented from
civilian employees of a government-owned stable).
The Feres doctrine has also wrongly precluded
third-party claims that have their “genesis” in the
servicemember’s injury. For example, medical negligence caused a servicemember’s child to be born with
permanent brain injury and physical disfigurement.
See Ortiz v. United States, 786 F.3d 817, 818 (10th Cir.
2015). Yet, the Feres doctrine left the family without
any legal remedy, unable to recover costs to help with
physicians, hospitalizations, medications, and other
treatments necessary to support their child’s life. Id.
at 831; see also Mondelli, 711 F.2d at 568 (rejecting
as Feres-barred claims of a civilian child born with a
genetically transferred form of cancer, because her
condition was a consequence of her servicemember
father’s exposure to radiation during nuclear device
testing).
The legal claims of servicemembers victimized by
conduct far removed from the scope of their military
employment and duties have long crumpled against
the steel wall of the Feres doctrine. Until this Court
revisits Feres, servicemembers will continue to be injured
without the possibility of legal redress provided by
Congress and the plain text of the FTCA.
B. Members of This and Other Courts
Have Urged This Court to Revisit Feres.
Perhaps no other contemporary doctrine has provoked more lament, nor calls for reconsideration from

15
the bench, than Feres—including from members of this
Court. See, e.g., Johnson, 481 U.S. at 700-01 (1987)
(Scalia, J., dissenting, joined by Brennan, Marshall,
and Stevens, JJ.) (“Feres was wrongly decided and
heartily deserves the ‘widespread, almost universal
criticism’ it has received.”) (citation omitted). In recent
years, members of this Court have voted to grant
certiorari in cases seeking to revisit Feres. See, e.g.,
Daniel, 139 S. Ct. at 1713 (Mem.) (“Justice Ginsburg
would grant the petition for a writ of certiorari”); id.
(Thomas, J., dissenting from denial of certiorari);
Lanus, 570 U.S. at 932 (Thomas, J., dissenting from
denial of certiorari); Jones v. United States, 139 S. Ct.
2615, 2615 (2019) (Thomas, J., dissenting from denial
of certiorari).
Lower courts, too, have frequently called for this
Court to revisit Feres. See, e.g., Day v. Mass. Air. Nat’l
Guard, 167 F.3d 678, 683 (1st Cir. 1999) (Boudin, J.)
(“Possibly Feres . . . deserves reexamination by the
Supreme Court.”); Bozeman v. United States, 780 F.2d
198, 200 (2d Cir. 1985) (Meskill, J.) (“The Feres doctrine is a blunt instrument; courts and commentators
have often been critical of it.”); Taber, 67 F.3d at 1044
n.11 (Calabresi, J.) (“The fact that the doctrine can be
made workable does not suggest that the Supreme
Court ought not abandon the doctrine completely for
reasons akin to those given by Justice Scalia in his
Johnson dissent.”); Richards, 180 F.3d at 564-65
(Rendell, J., dissenting from denial of rehearing en
banc) (“Feres represents more than a ‘bad estimation[]’
of what Congress intended to do (but did not do), in
the [FTCA] . . . I urge the Supreme Court to grant
certiorari and revisit what we have wrought during
the nearly fifty years since the Court’s pronouncement
in Feres.”) (citations omitted); Matreale v. State Dep’t
of Military & VA, 487 F.3d 150, 159 (3d Cir. 2007)

16
(Smith, J. concurring) (“The doctrine of intra-military
immunity remains ripe for reconsideration by the
Supreme Court in light of the questionable foundation
upon which it stands . . . Feres and its progeny ought
to be reexamined.”); Scales v. United States, 685 F.2d
970, 974 (5th Cir. 1982) (Thornberry, J.) (“[W]e are
compelled, however reluctantly, to reverse the judgment of the district court and dismiss the claim as
barred by Feres. We are not blind to the tragedy . . .
and we regret the effects of our conclusion.”); Uhl v.
Swanstrom, 79 F.3d 751, 755 (8th Cir. 1996) (McMillian,
J.) (“[W]e find ourselves equally reluctant, yet legally
bound, to hold that plaintiff’s claims in the present
case are nonjusticiable under the Feres doctrine.”);
Costo v. United States, 248 F.3d 863, 869 (9th Cir.
2001) (McKeown, J.) (“[W]e apply the Feres doctrine
here without relish . . . in determining this suit to
be barred, we join the many panels of this Court
that have criticized the inequitable extension of this
doctrine to a range of situations that seem far removed
from the doctrine’s original purposes.”) (citations
omitted); Persons v. United States, 925 F.2d 292, 299
(9th Cir. 1991) (Nelson, J.) (“It would be tedious to
recite, once again, the countless reasons for feeling
discomfort with Feres.”); Ortiz, 786 F.3d at 818
(Tymkovich, J.) (“[T]he facts here exemplify the
overbreadth (and unfairness) of the doctrine, but Feres
is not ours to overrule.”); see also Bork v. Carroll, 449
Fed. Appx. 719, 721 (10th Cir. 2015) (Gorsuch, J.)
(“Feres proceeded to hold—despite the FTCA’s language suggesting a waiver of immunity—that FTCA
suits for injuries ‘aris[ing] out of or . . . in the course of
activity incident to service’” are barred).
It is time for this Court to revisit Feres.

17
C. The Feres Doctrine Lacks a Single
Coherent Rationale.
Over time, this Court has identified four purported
justifications for Feres’s rewriting of the FTCA. Those
rationales are: (1) a lack of “parallel [private] liability,”
Feres, 340 U.S. at 141-142; (2) the “distinctively federal
in character” relationship between the Government
and members of the armed forces, id. at 143; (3) the
existence of an alternative compensation scheme, id.
at 145; and (4) the importance of preserving military
discipline. Stencel Aero Eng’g Corp. v. United States,
431 U.S. 666, 672 (1977); United States v. Brown, 348
U.S. 110, 112 (1954). If ever these rationales were
persuasive, the doctrine has far outlived them. This
Court itself has abandoned the first three rationales—
those originally articulated in Feres. Indian Towing
Co. v. United States, 350 U.S. 61, 66-69 (1955) (holding
that the United States could be liable for negligently
operating a lighthouse despite the lack of parallel
private liability); United States v. Shearer, 473 U.S.
52, 58 n.4 (1985) (noting that the second, distinctively
federal relationship, rationale and the third, alternative compensation, rationale no longer control). And
for good reason.
This Court rejected Feres’s “parallel private liability” rationale a mere five years after Feres. Indian
Towing, 350 U.S. at 66-69; see also Rayonier, 352 U.S.
at 319. Dispensing with the “parallel private liability”
rationale was appropriate, as several of the FTCA’s
exceptions would be rendered superfluous if uniquely
governmental conduct did not fall within the FTCA’s
reach. For example, “private individuals typically do
not . . . transmit postal matter, 28 U.S.C. § 2680(b),
collect taxes or customs duties, § 2680(c), impose quarantines, § 2680(f), or regulate the monetary system,

18
§ 2680(i).” Johnson, 481 U.S. at 694-95 (Scalia, J.,
dissenting).
Next, in 1963, this Court set aside Feres’s “distinctively federal relationship” rationale in United States
v. Muniz, 374 U.S. 150, 162 (1963), and later confirmed the rationale is no longer controlling. Shearer,
473 U.S. at 58 n.4. The Feres Court had reasoned that
the relationship between the government and members of the armed forces necessitated uniform recovery
for servicemembers. 340 U.S. at 143 (“It would hardly
be a rational plan of providing for those disabled in
service by others in service to leave them dependent
upon geographic considerations over which they have
no control and to laws which fluctuate in existence
and value.”).5 But in Muniz, the Court “abandoned
this peculiar rule of solicitude” by “allowing federal
prisoners (who have no more control over their geographical location than servicemen) to recover under
the FTCA for injuries caused by the negligence of
prison authorities.” Johnson, 481 U.S. at 696 (Scalia,
J., dissenting). Moreover, “[t]he unfairness to servicemen
5

In Feres, the “distinctively federal relationship” rationale
rested on the notion that fairness to servicemembers required
uniform recovery. In Stencel Aero Engineering Corp. v. United
States, this Court suggested the rationale is directed toward
uniformity for the Government. 431 U.S. at 672. But, “[t]o the
extent that the rationale rests upon the military’s need for
uniformity, it is equally unpersuasive.” Johnson, 481 U.S. at 696
(Scalia, J., dissenting). Several FTCA exemptions “show that
Congress considered the uniformity problem, see, e.g., 28 U.S.C.
§§ 2680(b), 2680(i), 2680(k), yet it chose to retain sovereign
immunity for only some claims affecting the military. § 2680(j).”
Id. Furthermore, as civilian claims against the military are not
barred by the Feres doctrine, and servicemembers may recover
for injuries not incident to service, the military desire for
uniformity has been decidedly rejected by this Court. Id.

19
of geographically varied recovery is, to speak bluntly,
an absurd justification, given that . . . nonuniform
recovery cannot possibly be worse than (what Feres
provides) uniform nonrecovery.” Id. at 695-96; see also
Lanus, 570 U.S. at 933 (Thomas, J., dissenting from
denial of certiorari) (emphasizing that, contrary to the
FTCA’s text, Feres deprives servicemembers of any
remedy for tortious government conduct.).
Feres’s “alternative compensation” rationale was
rejected by this Court before Feres was even decided.
Brooks, 337 U.S. at 53 (“[N]othing in the [FTCA] or
the veterans’ laws . . . provides for exclusiveness of
remedy.”). And it was again rejected by this Court just
four years after Feres. Brown, 348 U.S. at 113 (noting
“Congress had given no indication that it made the
right to compensation the veteran’s exclusive remedy,”
and “the receipt of disability payments . . . did not
preclude recovery under the [FTCA] but only reduced
the amount of any judgment” thereunder). Moreover,
Feres has been applied to bar recovery for injuries, like
sexual assault, where no alternative compensation—
from the Department of Veterans Affairs or elsewhere—
exists. Gregory C. Sisk, The Peculiar Obstacles to Justice
Facing Federal Employees Who Survive Sexual Violence, 2019
U. Ill. L. Rev. 269, 280-81 (2019) (explaining survivors
of military sexual trauma receive “no benefit from
the [Veterans Benefits Administration] unless they
suffered a physical injury or have become psychologically disabled as a result”); see also Webb v. Wilkie,
32 Vet. App. 309, 313 (2020) (explaining entitlement
to compensation under the veterans benefits scheme
requires evidence of current disability). “In sum, ‘the
presence of an alternative compensation system [neither]
explains [n]or justifies the Feres doctrine; it only makes
the effect of the doctrine more palatable.’” Johnson,

20
481 U.S. at 698 (Scalia, J., dissenting) (quoting Hunt
v. United States, 636 F.2d 580, 598 (D.C. Cir. 1980)).
It was only “[s]everal years after Feres [that the
Court] thought of a fourth rationale: Congress could
not have intended to permit suits for service-related
injuries because they would unduly interfere with
military discipline.” Johnson, 481 U.S. at 694 (Scalia,
J., dissenting) (citing Brown, 348 U.S. at 112). Over
time, lower courts increasingly relied on this post hoc
rationale. See, e.g., Taber, 67 F.3d at 1043 (“Because
the lower courts have found the rationales other than
discipline extremely difficult to apply in a coherent
manner . . . it is not surprising that Johnson—a
decision that we are bound to follow—left both the
doctrine and the lower courts more at loose ends than
ever.” (citation omitted)); Elliott v. United States, 13
F.3d 1555, 1559 (11th Cir. 1994) (stating that Feres’s
other rationales “provide no help in determining when
an injury occurs ‘incident to service’”), vacated for reh’g
en banc, 28 F.3d 1076 (11th Cir. 1994) (en banc),
affirming district court judgment by equally divided
court, 37 F.3d 617 (11th Cir. 1994); see also Lombard
v. United States, 690 F.2d 215, 233 (D.C. Cir. 1982)
(Ginsburg, J., concurring in part and dissenting in
part) (noting application of the military discipline
rationale to bar claims for civilian family of servicemember “follows no legislative direction but instead
enlarges a problematic court precedent”).
But preserving military discipline cannot coherently
justify the Feres doctrine’s broad “incident to service”
bar. In fact, precisely because military discipline
serves as a post hoc rationale for Feres, courts have
applied the doctrine to cases that have no military
discipline implications whatsoever. Hall v. United
States, 451 F.2d 353, 354 (1st Cir. 1971) (“Even though

21
there may have been no disciplinary element in this
case . . . Feres required no nexus between discipline
and injury.”). Moreover, in Jane Doe’s case, Feres was
applied to shield not military order but rather violations of mandatory DOD directives and instructions.
Broadly immunizing the government from suit for
servicemembers’ injuries—whether incident to service
or not—undermines military discipline rather than
preserves it.6
What is more, “[p]erhaps . . . Congress thought that
barring recovery by servicemen might adversely affect
military discipline.” Johnson, 481 U.S. at 700 (Scalia,
J., dissenting). As the government itself recently told
this Court, “[s]exual assault ‘is one of the most destructive factors in building a mission-focused military.’”7
Not only is intra-military sexual assault “difficult to
uncover, but [also] devastating to the morale, discipline,

6

Empirical evidence also suggests military order and efficiency
are undermined by prioritizing deference to hierarchy over
accountability to one’s comrades. Barry Bennett, The Feres
Doctrine, Discipline, and the Weapons of War, 29 St. Louis U. L.J.
383, 408-09 (1985) (“Studies conducted during the Korean and
Vietnam Wars confirmed the ‘seeming irrelevance’ of traditional
concepts of discipline . . . [finding] that the basic drive to return
home safely and the intimacy of the group were the primary
motivations under fire. . . . Although blind obedience may have
been necessary ‘when armies had to be forced into open fire in
mass infantry lines,’ it is harmful in modern armies requiring
individual responsibility.”).
7

Brief for Petitioner at 5, United States v. Briggs, argued, No.
19-108 (Oct. 13, 2020) (quoting Memorandum from James N.
Mattis, Secretary of Defense, to All Members of the Department
of Defense: Sexual Assault Prevention and Awareness (Apr. 18,
2018), available at https://dod.defense.gov/portals/1/features/2018/
0418_sapr/saap-osd004331-18-res.pdf [https://perma.cc/TGC4VXWA]).

22
and effectiveness of our Armed Forces.”8 “And the
destruction of ‘morale, good order and discipline’ is
only exacerbated by a failure to bring assailants to
justice.”9 Yet the Feres doctrine has been consistently
applied to bar recovery for intra-military sexual
assault. See, e.g., Smith v. United States, 196 F.3d 774,
777 (7th Cir. 1999) (dismissing servicemember’s FTCA
claims that while off-duty, her drill sergeant repeatedly forced her into his private vehicle and took her
off-post to rape her, because the assaults “were made
possible by his status as her military superior” and
thus “incident to service” under Feres).
Undermining the FTCA’s deterrent effect is of
particular concern in the military context. Taking
sexual assault as an example, “[t]he Pentagon has
identified military sexual trauma as a major deployment and readiness issue.” Brief for Petitioner at 5,
United States v. Briggs, argued, No. 19-108 (Oct. 13,
2020) (citing UCMJ Sex Crimes Report at 117 n.457).
Which is why “the ‘deterrence of sexual offenses in the
military is especially critical.’” Id. (quoting UCMJ Sex
Crimes Report at 117 n.456). Simply put, “[a]n effective fighting force cannot tolerate sexual assault
within its ranks.”10 And yet, in 2010, the year Ms. Doe
8

Id. at 23.
Id. at 7 (quoting U.S. Dep’t of Defense, Sex Crimes and the
UCMJ: A Report for the Joint Service Committee on Military
Justice 2 ("UCMJ Sex Crimes Report") (Jan. 16, 2015), available
at https://jpp.whs.mil/public/docs/03_Topic-Areas/02-Article_120/
20150116/58_Report_SexCrimes_UCMJ.pdf [https://perma.cc/264YD7TA]).
10
Id. (quoting Sexual Assault Prevention and Response Office,
U.S. Dep’t of Defense, Department of Defense Fiscal Year 2009
Annual Report on Sexual Assault in the Military 5 (2010),
available at https://www.sapr.mil/public/docs/reports/fy09_annual
_report.pdf [https://perma.cc/C43R-HV98]).
9

23
resigned from West Point, DOD’s own data revealed
that staggering numbers of West Point students were
subject to sexual assault and harassment on campus.11
More recently, in 2018, DOD found that, despite
its efforts, female servicemembers were experiencing
increased rates of sexual assault and male servicemembers’ rates of sexual assault had not improved at
all.12
The Feres doctrine still further disrupts military
discipline by limiting recoveries for servicemembers
and their families: “After all, the morale of Lieutenant
Commander Johnson’s comrades-in-arms will not likely
be boosted by news that his widow and children will
receive only a fraction of the amount they might have
recovered had he been piloting a commercial helicopter
at the time of his death.” Johnson, 481 U.S. at 700
(Scalia, J., dissenting). And to the extent that the
potential effects of tort liability on military discipline
is an appropriate consideration, Congress itself
took account of this concern by preserving sovereign
immunity against claims arising out of combatant
activities during times of war, 28 U.S.C. § 2680(j), in
foreign countries, id. § 2680(k), and as a result of
discretionary actions. Id. § 2680(a). These statutory
provisions have been sufficient to shield the military
from liability when Congress intended. See, e.g.,
Mercado Del Valle v. United States, 856 F.2d 406, 409
(1st Cir. 1988) (Breyer, J.) (holding discretionary
11
12

Defense Manpower Data Center, supra note 2, at 12, 64.

Sexual Assault Prevention and Response Office, U.S. Dep’t
of Defense, Department of Defense Fiscal Year 2019 Annual
Report on Sexual Assault in the Military 3 (2020), available at
https://www.sapr.mil/sites/default/files/1_Department_of_Defense_
Fiscal_Year_2019_Annual_Report_on_Sexual_Assault_in_the_Mi
litary.pdf [https://perma.cc/76UL-QK7W].

24
function exception bars FTCA claims arising from
death of student in hazing incident related to Air Force
ROTC program and declining to reach separate
contention that Feres precluded suit).
The Feres rationales are now so disconnected from
justifying the “incident to service” bar that some
courts simply refuse to interpret the bar in light of
those purported rationales. Daniel v. United States, 889
F.3d 978, 981 (9th Cir. 2018) (“Because of extensive
criticism of the doctrine and its underlying justifications, we have ‘shied away from attempts to apply
these policy rationales.’”) (quoting Costo, 248 F.3d at
867); see also Daniel, 139 S. Ct. at 1713-14 (Thomas,
J., dissenting from denial of certiorari).
Moreover, absent a coherent rationale, the Feres
doctrine has created pressure to offset the government’s windfall by warping other areas of law in order
to provide servicemembers some relief. Id. at 1714
(“[D]enial of relief to military personnel and distortions of other areas of law to compensate will continue
to ripple through our jurisprudence as long as the
Court refuses to reconsider Feres.”). These distortions
mitigate the injustice of Feres in marginal cases but
are unsustainable and insufficient substitutes for the
statutory scheme Congress created in tort.13 The Court

13

In fact, there is evidence that reduced liability under Feres
has encouraged collateral expansion of the government into
essentially civilian activities, disconnected from any distinctively
military mission. See Jonathan Turley, Pax Militaris: The Feres
Doctrine and the Retention of Sovereign Immunity in the Military
System of Governance, 71 Geo. Wash. L. Rev. 1, 4 (2003) (arguing
reduced liability under Feres has encouraged collateral expansion
of the military to displace private sector competitors, e.g., in
recreation for servicemembers).

25
must step in to restore a reasoned approach to
remedying servicemembers’ injuries.
II. The Feres Doctrine Generates Inconsistent
Results Across the Circuit Courts.
In an apparent effort to avoid the manifest injustice
of the doctrine, some courts have sought ways to evade
the harsh preclusive effect of Feres. These efforts have
largely failed given the sweeping scope of Feres, but to
the extent they have succeeded, they have resulted in
a series of circuit splits.
The circuits are divided over whether injuries
incurred during recreational activities—such as the
rape of Ms. Doe on an after-hours walk—are barred
by Feres. Compare Costo, 248 F.3d at 864 (holding
off-duty servicemember’s injuries from recreational
rafting trip were incident to service), and Bon v.
United States, 802 F.2d 1092, 1093 (9th Cir. 1986)
(same, concerning recreational canoe rented from
naval facility), and Hass, 518 F.2d at 1139 (same,
regarding recreational horseback riding on military
base), with Regan v. Starcraft Marine, LLC, 524 F.3d
627, 645-46 (5th Cir. 2008) (holding FTCA claim by
servicemember injured on boat rented from civilian
company licensed to operate at Army’s facility was not
incident to service, because connection to plaintiff’s
military status was “largely coincidental”).
The Second Circuit held that Ms. Doe’s injuries were
Feres-barred because as a West Point cadet she was
subject to military discipline “at all times” and review
of her claims would implicate military decision-making.
Pet.App.6a-7a. But in Regan, the Fifth Circuit explained
that, according to that circuit’s precedent, whether a
servicemember “is at that time subject to military
discipline . . . would be the wrong focus,” and rather

26
“what is relevant . . . is where that status is on a
continuum between performing the tasks of an assigned
mission to being on extended leave from duty.” 524
F.3d at 637. Like the injury in Regan, Ms. Doe’s rape
did not occur while she was performing a military
mission, nor did it serve any military purpose. And
insofar as civilians may bring claims against West
Point under the FTCA arising from sexual assault on
campus, see Loritts, 489 F. Supp. at 1031, Ms. Doe’s
status was similarly “coincidental to [her] injuries and
not necessary to them.” Regan, 524 F.3d at 643. But as
the Ninth Circuit reasoned in Costo, “whatever the
original scope of the Feres doctrine, it is clear that it
has been interpreted throughout the lower courts—
and, specifically, by [the Ninth Circuit]—to include[,]”
injuries incurred during recreational activities at
military-controlled facilities. 248 F.3d at 869.
Circuit courts have also come to conflicting conclusions as to whether tortious violations of DOD
regulations—such as Ms. Doe’s injuries—fall within
the scope of the Feres bar. In Johnson v. United States,
the Ninth Circuit explained that injuries incurred
because of the government’s “fail[ure] to follow established military rules and procedures” simply “do not
involve the sort of close military judgment calls that
the Feres doctrine was designed to insulate from
judicial review.” 704 F.2d 1431, 1440 (9th Cir. 1983);
see also Pet.App.62a (Chin, J., dissenting) (“The concern identified in Feres and its progeny that courts not
interfere with military discipline and structure carries
little weight when the military is violating its own
rules and regulations.”). But in holding that Ms. Doe’s
claims were barred by the Feres doctrine, the Second
Circuit came to the opposite conclusion. Pet.App.5a-6a;
see also Major v. United States, 835 F.2d 641, 645 (6th
Cir. 1987) (rejecting as Feres-barred claims arising

27
from the death a servicemember, and injury of another,
struck by a drunk driver who consumed alcohol at an
on-base party in violation of military regulations).
There is further division across the circuits as to
whether FTCA claims by off-duty servicemembers
involving conduct unrelated to military orders or
training are barred. The Ninth Circuit has held that
personal activities are not related to military function
and discipline and allows these FTCA suits to
proceed.14 Johnson, 704 F.2d at 1440. This conduct is
“subject to military discipline only in the very remotest
sense . . . [and] purely personal.” Id. The Fifth Circuit
has reached a similar result. See Parker v. United
States, 611 F.2d 1007, 1013 (5th Cir. 1980) (holding
that Feres did not bar suit by family of servicemember
killed when hit by a military vehicle while driving on
an Army-maintained road within Fort Hood because
“a suit by one leaving the base to attend to his personal
affairs, while under no military supervision, will not
interfere with military discipline”).
Other circuits, however, disagree and bar liability in
cases involving off-duty servicemembers. The Tenth
Circuit has rejected as Feres-barred claims by an offduty servicemember against the United States for
negligent operation of an officer’s club that led to his
beating by gang members in the parking lot. Pringle,
208 F.3d at 1222. Despite the nearly identical factual
circumstances to Johnson, the Pringle court interpreted Feres’ “incident to service” language to apply to
“all injuries suffered by military personnel that are
14

The Ninth Circuit has applied this interpretation with some
frequency. See, e.g., Mills v. Tucker, 499 F.2d 866, 867 (9th Cir.
1974) (per curiam); Dreier v. United States, 106 F.3d 844, 853 (9th
Cir. 1996), as amended (Feb. 4, 1997); Schoenfeld v. Quamme, 492
F.3d 1016, 1017 (9th Cir. 2007).

28
even remotely related to the individual’s status as a
member of the military.” 208 F.3d at 1223-24. Other
circuits following this approach have barred recovery
for horrific off-duty injuries unrelated to any plausible
military objective or training. See, e.g., Brown, 739
F.2d at 368-69 (barring claims arising from mock
lynching of a Black servicemember, despite finding no
relevant relationship between his injuries and military
service); Richards v. United States, 176 F.3d 652, 656
(3d Cir. 1999), reh’g denied (barring recovery when
servicemember was killed while driving home from work
when his private vehicle was broadsided by military
truck on a public highway that runs through Fort Knox
Army Base); O’Neill, 140 F.3d at 564-565 (denying petition for rehearing en banc after concluding murder of
servicemember watching a movie in her home, committed by a servicemember ex-fiancé, was incident to service).
The courts of appeals also disagree whether Feres
applies to “dual status” technicians in the military,
and if so, how. Compare Jentoft v. United States, 450
F.3d 1342, 1348-49 (Fed. Cir. 2006) (holding that “the
plain language of [10 U.S.C.] § 10216(a) makes clear
that” dual-status technicians are civilians) with
Zuress v. Donley, 606 F.3d 1249, 1253 (9th Cir. 2010)
(holding [10 U.S.C.] § 10216(a) has no bearing on the
Feres analysis), and Bowers v. Wynne, 615 F.3d 455,
467 (6th Cir. 2010) (same), and Williams v. Wynne, 533
F.3d 360, 366-67 (5th Cir. 2008) (same).
Finally, the courts of appeals have diverged over
whether Feres bars claims brought on behalf of servicemembers’ civilian children, when the genesis of the
injury involves negligent treatment of the servicemember parent. Compare Brown v. United States, 462
F.3d 609, 614 (6th Cir. 2006) (allowing father to bring
suit under FTCA on behalf of his infant daughter who

29
was injured as a result of negligent prenatal care
provided to her servicemember mother) with Ortiz,
786 F.3d at 818 (rejecting father’s claims on behalf of
his infant daughter who was injured as a result of
negligent care provided to her servicemember mother
preceding and during delivery). In some circuits, a
servicemember mother cannot bring a claim due to
Feres if she is injured by negligent prenatal care, but
she “may recover consequential damages for nonphysical injury [she] sustain[ed] as a result of injury”
to her unborn civilian child. Romero v. United States,
954 F.2d 223, 227 (4th Cir. 1992) (holding FTCA
claims not barred regarding civilian child injured in
childbirth because hospital’s negligent actions did not
harm mother at all and thus had no genesis in
mother’s injury). Cf. Mossow v. United States, 987 F.2d
1365, 1369-70 (8th Cir. 1993) (holding FTCA claims
not barred because hospital’s negligent administration
of medicine was intended to benefit only third-party
child and not the mother).
Just as the Feres doctrine’s evident error and injustice has led courts to distort other areas of the law, see
Daniel, 139 S. Ct. at 1713-14 (Thomas, J., dissenting
from denial of certiorari), so too has it prompted some
courts to try to pry open the courthouse door for at
least some injured servicemembers. These irreconcilable results across the circuits are the inevitable
consequence. Though these circuit splits may be
modest, the national stakes of their collective incoherence could not be higher. Servicemembers injured by
tortious government conduct should be “entitled to
rely on the law as written.” Bostock, 140 S. Ct. at 1749.
They likewise deserve consistency across the circuits.
And only a reconsideration of Feres can make it so.

30
III. This Case Presents an Appropriate Vehicle
to Reconsider Feres.
While this Court need not overturn Feres to resolve
this case in favor of the Petitioner,15 Ms. Doe’s case
provides this Court an excellent opportunity to revisit
the Feres doctrine.
This case squarely presents the Feres question. The
Second Circuit held Ms. Doe's FTCA claims were
“incident to service, and are therefore barred under
Feres.” Pet.App.6a. The allegations of Ms. Doe’s complaint illuminate the tension between the FTCA’s
textual promise of a remedy and Feres’s bar to servicemembers’ relief. Ms. Doe’s injuries were not incurred
abroad or in connection with combat activities. See 28
U.S.C. §§ 2680(j)-(k). She was injured on a college
campus thousands of miles from any active battlefield.
She was not attacked by an enemy combatant but a
fellow cadet. She was raped not while performing
military duties but after-hours on a recreational walk.
That her injuries are deemed “incident to service” and
15

This Court could hold that, while Feres bars claims that
“unduly interfere with military discipline,” Johnson, 481 U.S. at
694 (Scalia, J., dissenting), Feres is not controlling where military
employees violate the military’s own mandatory rules. In such cases,
servicemembers would not fall within the scope of the FTCA’s
discretionary function exception, 28 U.S.C. § 2680(a), and the Court
would be in the position of reinforcing, rather than interfering
with, military discipline. See Pet.App.62a (Chin, J,. dissenting) (“The
concern identified in Feres and its progeny that courts not interfere with military discipline and structure carries little weight
when the military is violating its own rules and regulations.”).
Additionally, or in the alternative, this Court could hold that Feres
is not controlling where injuries arise during recreational activities
or while attending a service academy. "[T]he special factors counseling hesitation . . . are simply not implicated" in such circumstances.
Id. at 60a (Chin, J., dissenting) (internal quotation marks omitted).

31
therefore that her claims must be dismissed demonstrates just how far the Feres doctrine has departed
from the plain text of the FTCA.
This Court does not lightly reconsider its past
decisions, even ones as unjust and rightly condemned
as Feres. Nevertheless, “[r]evisiting precedent is
particularly appropriate where, as here, a departure
would not upset expectations, the precedent consists
of a judge-made rule . . . and experience has pointed
up the precedent’s shortcomings.” Kimble v. Marvel
Entm’t, LLC, 135 S. Ct. 2401, 2417 (2015) (Alito, J.,
dissenting) (citations and internal quotation marks
omitted). See also Johnson v. United States, 576
U.S. 591 (2015) (Scalia, J., joined by Roberts, C.J.
and Ginsburg, Breyer, Kagan, JJ.) (“Decisions . . .
proved to be anything but evenhanded, predictable, or
consistent . . . undermine, rather than promote, the
goals that stare decisis is meant to serve.”). While the
Court has abandoned its three original justifications,
see, e.g., Indian Towing Co., 350 U.S. at 66-69, and the
fourth has been inconsistently applied and widely
criticized in recent decades, see, e.g., Johnson, 481 U.S.
at 700 (Scalia, J., dissenting), the doctrine has persisted in denying justice to countless servicemembers.
Ms. Doe’s case presents an opportunity for this Court
to restore the balance.

32
CONCLUSION
The Court should grant the petition for a writ of
certiorari.
Respectfully submitted,
MICHAEL J. WISHNIE
Counsel of Record
DANA MONTALTO
VETERANS LEGAL
SERVICES CLINIC
JEROME N. FRANK
LEGAL SERVICES ORG.
P.O. Box 209090
New Haven, CT 06520-9090
(203) 432-4800
michael.wishnie@yale.edu
Counsel for Petitioner
October 26, 2020

APPENDIX

1a
APPENDIX A
Second Circuit Order
Affirming District Court Order
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
18-185
————
JANE DOE,
Plaintiff-Appellant,
v.
UNITED STATES OF AMERICA,
Defendant-Appellee,
LIEUTENANT GENERAL FRANKLIN LEE HAGENBECK,
BRIGADIER GENERAL WILLIAM E. RAPP,
Defendants.1
————
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1,
2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR AN
1

The Clerk of Court is directed to amend the caption as set
forth above.

2a
ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING TO A
SUMMARY ORDER MUST SERVE A COPY OF
IT ON ANY PARTY NOT REPRESENTED BY
COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 29th day of May, two
thousand twenty.
PRESENT: RALPH K. WINTER,
RICHARD C. WESLEY,
RICHARD J. SULLIVAN,
Circuit Judges.
FOR PLAINTIFF-APPELLANT:
KATHRYN POGIN, JADE FORD
(Chandini Jha, Kath Xu, Michael J.
Wishnie, Shikha Garg, Abigail Olson,
Samantha Schnell, on the brief), Veterans
Legal Services Clinic, Jerome N. Frank
Legal Services Organization, Yale Law
School, New Haven, CT.
FOR DEFENDANT-APPELLEE:
CHRISTOPHER CONNOLLY (Benjamin
H. Torrance, on the brief), Assistant
United States Attorneys, for Geoffrey S.
Berman, United States Attorney for the
Southern District of New York, New
York, NY.
Appeal from a judgment of the United States
District Court for the Southern District of New York
(Alvin K. Hellerstein, J.).

3a
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Plaintiff-Appellant “Jane Doe” appeals a decision of
the district court (Hellerstein, J.) dismissing her
claims under the Federal Tort Claims Act (“FTCA”)
and Little Tucker Act (“LTA”) against the United
States. Doe, a former cadet at the United States Military Academy (“West Point”), alleges that she was
sexually assaulted by a fellow cadet in 2010. In 2013,
Doe brought claims under Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403
U.S. 388 (1971), against two high-ranking military
officials based on their roles in developing and overseeing West Point’s allegedly inadequate sexual assault
policies; FTCA claims against the United States based
on those same allegedly inadequate policies; and a
contract claim under the LTA on the theory that by
implementing the allegedly inadequate sexual assault
policies, the United States breached the “agreement”
it entered into with Doe when she joined West Point
as a cadet. The district court dismissed all claims
except for Doe’s Bivens equal protection claim. Doe
v. Hagenbeck, 98 F. Supp. 3d 672 (S.D.N.Y. 2015).
Lieutenant General Hagenbeck and Brigadier General
Rapp filed a notice of interlocutory appeal regarding
Doe’s Bivens equal protection claim, and on appeal, a
panel of this Court concluded that her Bivens claim
was barred by the doctrine of intramilitary immunity
established in Feres v. United States, 340 U.S. 135
(1950). Doe v. Hagenbeck (“Doe I”), 870 F.3d 36 (2d Cir.
2017). Accordingly, we remanded to the district court
with instructions to dismiss that claim.
Now before the Court are Doe’s FTCA and LTA
claims. Principally, Doe argues that (1) her FTCA

4a
claims are not barred by intramilitary immunity because her rape was not “incident to service;” and (2)
the district court erred in dismissing her LTA claims,
and a previous motions panel of this Court erred in
concluding that those claims did not present a federal
question. We assume the parties’ familiarity with the
underlying facts and the record of prior proceedings, a
detailed recitation of which is provided in Doe I, and
refer to them only as necessary to explain our decision
to affirm.
I. Standard of Review
In considering a dismissal for lack of subject matter
jurisdiction under Rule 12(b)(1), we “review factual
findings for clear error and legal conclusions de novo.”
Makarova v. United States, 201 F.3d 110, 113 (2d Cir.
2000) (internal quotation marks omitted). “A plaintiff
asserting subject matter jurisdiction has the burden of
proving by a preponderance of the evidence that it
exists.” Id.
II. Doe’s FTCA Claims
Doe brings a number of claims under the FTCA,
arguing that Defendants Hagenbeck, Rapp, and other
West Point officials negligently trained and supervised West Point cadets and staff concerning sexual
assault; implemented inadequate sexual assault policies; “created an unreasonable risk of causing [Doe]
emotional distress” by creating and maintaining
inadequate policies concerning sexual assault, failing
to discipline assailants, and tolerating sexually aggressive conduct, J. App’x 62–63; and failed to investigate
and punish instances of sexual assault in order “to
conceal the true extent of the sexual violence at West
Point,” J. App’x 63. The government argues that these

5a
claims are foreclosed by our decision in Doe I. We
agree.
Under Feres v. United States, “the Government is
not liable under the [FTCA] for injuries to servicemen
where the injuries arise out of or are in the course of
activity incident to service.” 340 U.S. at 146. Feres
requires dismissal of a suit in which “commanding
officers would have to stand prepared to convince a
civilian court of the wisdom of a wide range of military
and disciplinary decisions; for example, whether to
overlook a particular incident or episode, whether to
discharge a serviceman, and whether and how to place
restraints on a soldier’s off-base conduct.” United
States v. Shearer, 473 U.S. 52, 58 (1985).
In Doe I, we concluded that Doe’s Bivens claims were
barred by the doctrine of intramilitary immunity
because her injuries occurred “incident to service.” 870
F.3d at 45. In doing so, we concluded that her allegations “center on the implementation and supervision
of allegedly inadequate and harmful training and education programs relating to sexual assault and harassment;” “the alleged failure to provide properly . . . for
the report and investigation of sexual assault claims,
and for the support of cadets who are assaulted;” “the
alleged lack of sufficient numbers of female faculty
and administrators at West Point and on the failure to
recruit female cadets;” “the allegedly inadequate punishment meted out not only to perpetrators of sexual
violence but also to those who engage in misogynistic
chants, slurs and comments;” and, “most broadly, on
the assertedly culpable tolerance of a hostile culture
toward women at West Point.” Id. at 46. We determined that “[a]djudicating such a money damages
claim would require a civilian court to engage
in searching fact-finding about Lieutenant General

6a
Hagenbeck and Brigadier General Rapp’s ‘basic
choices about the discipline, supervision, and control’
of the cadets that they were responsible for training as
future officers.” Id. (quoting Shearer, 473 U.S. at 58).
Doe’s FTCA claims involve the same purportedly
wrongful conduct and the same injuries. Accordingly,
Doe’s FTCA claims are incident to service, and are
therefore barred under Feres.
Doe’s remaining arguments are similarly foreclosed
by Doe I. For instance, Doe contends that, under Taber
v. Maine, 67 F.3d 1029 (2d Cir. 1995), her injuries were
not within the scope of her military employment. But
as the Court explained in Doe I, Taber did not create a
new test for immunity, and Feres remains good law.
Doe I, 870 F.3d at 47 n.9 (noting that “Taber could not
be read to alter the reach of Feres, which was then and
remains binding precedent”). And as we also noted in
Doe I, “in the FTCA context, Taber itself noted . . . that
the incident-to-service rule (regardless of workers’
compensation considerations) is properly invoked when
adjudicating the claim of a service member would
require ‘commanding officers . . . to stand prepared to
convince a civilian court of the wisdom of a wide range
of military and disciplinary decisions.’” Id. at 48 (quoting Taber, 67 F.3d at 1049). “This is precisely the
problem with Doe’s claim here.” Id.
Put simply, although Doe frames her suit as related
to her role as a student and not her role as a soldier,
the Court in Doe I has already concluded otherwise.
Id. at 48 (finding Doe’s argument that she “was not a
soldier on the battlefield, but a student attending
college” to be “both contrary to the case law and unsupported by the factual allegations in Doe’s Amended
Complaint”). As we noted previously, Doe was a member of the military, id. at 45, subject to military

7a
command “‘at all times,’” id. at 48 (quoting 10 U.S.C.
§ 7446(d)), who was at West Point “‘for the purpose of
military instruction,’” id. at 48–49 (quoting 10 U.S.C.
§ 7449(a)). Her education was “inextricably intertwined”
with her “military pursuits.” Id. at 49. We see no
reason to depart from these findings now. Accordingly,
we affirm the district court’s dismissal of Doe’s FTCA
claims for lack of subject matter jurisdiction. See Wake
v. United States, 89 F.3d 53, 57 (2d Cir. 1996) (“[T]he
proper vehicle for dismissing a Feres-barred FTCA
claim is a dismissal for lack of subject-matter jurisdiction.”). We therefore do not reach the question of
whether the district court erred in dismissing her
claims under the FTCA’s discretionary function exception. See Mitchell v. City of New York, 841 F.3d 72, 77
(2d Cir. 2016) (“It is well-settled that this court may
affirm on any grounds for which there is a record
sufficient to permit conclusions of law, including
grounds no[t] relied upon by the district court.”)
(internal quotation marks and alterations omitted)).
III. Doe’s LTA Claim
Doe next contends that the district court erred in
dismissing her LTA claim, and that that we should
reconsider our prior ruling regarding our jurisdiction
over this claim. We disagree. The LTA vests district
courts with concurrent jurisdiction for “civil action[s]
or claim[s] against the United States, not exceeding
$10,000 in amount, founded . . . upon any express or
implied contract with the United States . . . in cases
not sounding in tort.” 28 U.S.C. § 1346(a)(2). Section
1295(a)(2) grants “exclusive jurisdiction” to the Federal Circuit over nontax appeals from decisions of the
district courts when “the jurisdiction of that court was
based, in whole or in part,” on the LTA. United States
v. Hohri, 482 U.S. 64, 68–69, 75–76 (1987) (quoting 28

8a
U.S.C. § 1295(a)(2)). However, 28 U.S.C. § 1346 “is
itself only a jurisdictional statute; it does not create
any substantive right enforceable against the United
States for money damages.” United States v. Testan,
424 U.S. 392, 398 (1976). As such, a plaintiff bringing
a claim under the LTA must identify some statute,
regulation, or contractual provision that provides for
payment of money damages in the event of a breach.
See id.
Before we decided Doe I, Doe moved to transfer the
government’s appeal to the Federal Circuit, arguing
that it had exclusive jurisdiction because the district
court’s jurisdiction was based in part on the LTA. A
motions panel of this Court denied that motion,
finding that “the district court’s jurisdiction was not
based on the [LTA], since [Doe’s] contract claim failed
to present a substantial federal question.” J. App’x 98
(the “Motions Panel’s Order”). After the district court’s
final judgment following Doe I, Doe appealed to the
Federal Circuit, which granted the government’s subsequent motion to transfer the appeal to the Second
Circuit. The Federal Circuit concluded that the
Motions Panel’s jurisdictional determination was
“law of the case,” and that the Federal Circuit lacked
jurisdiction to hear the appeal “[b]ecause the district
court’s jurisdiction was not based in whole or in part
on the [LTA].” J. App’x 168–71. Doe now asks us
to overturn the Motions Panel’s Order denying her
motion to transfer the government’s appeal and to
send her appeal back to the Federal Circuit. We
decline to do so.
The “law of the case” doctrine “posits that when a
court decides upon a rule of law, that decision should
continue to govern the same issues in subsequent
stages in the same case.” Christianson v. Colt Indus.

9a
Operating Corp., 486 U.S. 800, 815–16 (1988) (internal
quotation marks omitted). While a court has the
“power to revisit prior decisions of its own or of a
coordinate court in any circumstance, . . . as a rule
courts should be loathe to do so in the absence of
extraordinary circumstances such as where the initial
decision was ‘clearly erroneous and would work a
manifest injustice.’” Id. at 817 (quoting Arizona v.
California, 460 U.S. 605, 618 n.8 (1983)). The doctrine
of the law of the case is, of course, “even less binding
in the context of interlocutory orders,” as “a motions
panel’s decision is based on an abbreviated record and
made without the benefit of full briefing by the parties,
which may result in a less than thorough exploration
of the issues.” Rezzonico v. H & R Block, Inc., 182 F.3d
144, 149 (2d Cir. 1999). Nonetheless, “[t]he major
grounds justifying reconsideration” remain “an intervening change of controlling law, the availability of
new evidence, or the need to correct a clear error
or prevent manifest injustice.” Doe v. N.Y.C. Dep’t of
Soc. Servs., 709 F.2d 782, 789 (2d Cir. 1983) (internal
quotation marks omitted).
Although the record here was in a sense “abbreviated” given the interlocutory nature of the appeal,
Rezzonico, 182 F.3d at 149, the motion was nonetheless fully briefed and argued by two sophisticated
parties. Moreover, this is not a case in which the
Motions Panel “silently address[ed] the jurisdictional
question” or where a pro se litigant failed to brief a
complex jurisdictional issue. See Lora v. O’Heaney, 602
F.3d 106, 109 (2d Cir. 2010). And, as explained below,
we do not question our jurisdiction over this appeal. In
sum, as Doe points to no factual or legal development
that the Motions Panel failed to consider, and does not
otherwise point to a “clear error” or “manifest injustice” warranting reconsideration, we decline to revisit

10a
the Motions Panel’s Order, deny Doe’s implicit request
to transfer this appeal back to the Federal Circuit, and
proceed to consider the district court’s dismissal of
Doe’s claim on the merits.
In substance, Doe contends that the “Oath of
Allegiance” that she signed when she agreed to attend
West Point carried an “implied covenant of good faith
and fair dealing” that the United States breached by
failing to address the hostile culture toward women
that existed at the institution. But the Oath of
Allegiance did not create a binding contract with the
United States for the purposes of the LTA. West Point
cadets are appointed, see 10 U.S.C. §§ 7441a, 7442,
7446, and the Supreme Court has emphasized that
an appointment does not create a “contract” for the
purposes of LTA jurisdiction, see Army & Air Force
Exch. Serv. v. Sheehan, 456 U.S. 728, 735–38 (1982);
see also United States v. Hopkins, 427 U.S. 123, 128
(1976) (“[A]bsent specific command of statute or authorized regulation, an appointed employee subjected
to unwarranted personnel action does not have a cause
of action against the United States.”); Chu v. United
States, 773 F.2d 1226, 1229 (Fed. Cir. 1985). Accordingly, Doe’s claim simply “sound[s] in tort,” and therefore did not give rise to a claim under the LTA. 28
U.S.C. § 1346(a)(2); Bembenista v. United States, 866
F.2d 493, 496 (D.C. Cir. 1989). We therefore affirm the
dismissal of Doe’s LTA claim.
We have reviewed the remainder of Doe’s arguments and find them to be without merit. For the
foregoing reasons, the order of the district court is
AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

11a
APPENDIX B
Second Circuit Order Denying
Respondents’ Motion for Summary Affirmance
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
18-185
S.D.N.Y.-N.Y.C. 13-cv-2802
Hellerstein, J.
————
JANE DOE,
Plaintiff-Appellant,
v.
LIEUTENANT GENERAL FRANKLIN LEE
HAGENBECK, et al.,
Defendants-Appellees.
————
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 26th day of June, two
thousand nineteen.
Present:
John M. Walker, Jr.,
Richard J. Sullivan,
Circuit Judges,
William H. Pauley, III,*
District Judge.
*

Judge William H. Pauley, III, of the United States District
Court for the Southern District of New York, sitting by designation.

12a
Appellees move for summary affirmance of the district court’s judgment dismissing Appellant’s complaint. Upon due consideration, it is hereby ORDERED
that the motion is DENIED because the Appellees
have not demonstrated that the appeal “is truly frivolous.” United States v. Davis, 598 F.3d 10, 13 (2d Cir.
2010). The appeal shall proceed in the ordinary course.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

13a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
[Filed January 18, 2018]
————
2018-1246
————
JANE DOE,
Plaintiff-Appellant
v.
FRANKLIN LEE HAGENBECK, WILLIAM E. RAPP,
UNITED STATES,
Defendants-Appellees
————
Appeal from the United States District Court
for the Southern District of New York in
No. 1:13-cv-02802-AKH, Judge Alvin K. Hellerstein.
————
ON MOTION
————
ORDER
Before REYNA, LINN, and HUGHES, Circuit Judges.
LINN, Circuit Judge.
Franklin Lee Hagenbeck, William E. Rapp, and the
United States (“appellees”) move to transfer this
appeal to the United States Court of Appeals for the
Second Circuit. Jane Doe opposes the motion.
Jane Doe sued the appellees,* alleging hostility
toward and discrimination against women at the
*

Lieutenant General Franklin Lee Hagenbeck was the Superintendent of the United States Military Academy at West Point

14a
United States Military Academy at West Point. Ms.
Doe’s complaint alleged Fifth Amendment due process
and equal protection claims, as well as claims under
the Federal Tort Claims Act and the Little Tucker Act
(28 U.S.C. § 1346(a)(2)). The United States District
Court for the Southern District of New York granted
in part the appellees’ motion to dismiss, dismissing
Ms. Doe’s due process, Federal Tort Claims Act, and
Little Tucker Act claims. The appellees appealed the
district court’s denial of their motion to dismiss with
respect to the equal protection claim to the United
States Court of Appeals for the Second Circuit.
Before the Second Circuit, Ms. Doe filed a motion to
transfer the appeal to this court on the grounds that
the Second Circuit lacked jurisdiction over an appeal
when the district court’s jurisdiction was based at
least in part on the Little Tucker Act. The Second
Circuit denied the motion to transfer “because the
district court’s jurisdiction was not based on the Little
Tucker Act, since [Ms. Doe]’s contract claim failed
to present a substantial federal question.” Doe v.
Hagenbeck, No. 15-1890-cv, ECF No. 65 at 1.
The Second Circuit then reversed the district court’s
denial of the appellees’ motion to dismiss the equal
protection claim. Based on that ruling, the district
court then dismissed all of Ms. Doe’s claims with
prejudice. Ms. Doe filed an appeal to this court.
This is a court of limited jurisdiction. 28 U.S.C.
§ 1295. That jurisdiction includes claims in which the
district court had jurisdiction based in whole or in part
on the Little Tucker Act. See 28 U.S.C. § 1295(a)(2).
Here, however, the Second Circuit held that the
and Brigadier General William E. Rapp was the Commandant of
Cadets when the facts underlying Ms. Doe’s appeal took place.

15a
district court’s jurisdiction over Ms. Doe’s complaint
was not based on the Little Tucker Act. That determination is now law of the case. See Christianson v.
Colt Indus. Operating Corp., 486 U.S. 800, 816 (1988)
(explaining that “when a court decides upon a rule of
law, that decision should continue to govern the same
issues in subsequent stages in the same case)”
(internal quotation marks and citation omitted)). And,
“as a rule, courts should be loathe” to “revisit prior
decisions of its own or of a coordinate court in any
circumstance” “in the absence of extraordinary circumstances such as where the initial decision was ‘clearly
erroneous and would work a manifest injustice.’” Id. at
817 (citation omitted). Such extraordinary circumstances do not exist here.
Because the district court’s jurisdiction was not
based in whole or in part on the Little Tucker Act, this
court lacks jurisdiction to hear Ms. Doe’s appeal.
Pursuant to 28 U.S.C. § 1631, this court may transfer
a case to another “court in which the action or appeal
could have been brought at the time it was filed,” in
this case the Second Circuit.
Accordingly,
IT IS ORDERED THAT:
The motion is granted. This appeal and all filings
are transferred pursuant to 28 U.S.C. § 1631 to the
United States Court of Appeals for the Second Circuit.
FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
s25
ISSUED AS A MANDATE:

January 18, 2018

16a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term 2015
(Argued: June 16, 2016 Decided: August 30, 2017)
————
No. 15-1890-cv
————
JANE DOE,
Plaintiff-Appellee,
v.
LT. GEN. FRANKLIN LEE HAGENBECK,
BRIG. GEN. WILLIAM E. RAPP,
Defendants-Appellants,
UNITED STATES OF AMERICA,
————

Defendant.

Before: WESLEY, LIVINGSTON, and CHIN, Circuit
Judges.
Appeal from an April 13, 2015 order of the United
States District Court for the Southern District of New
York (Hellerstein, J.), granting in part and denying in
part Defendants’ motion to dismiss. Plaintiff-Appellee
Jane Doe — a former West Point cadet who alleges
that she was sexually assaulted by another cadet —
brought a Bivens action against two superior officers
at West Point, Defendants-Appellants Lieutenant
General Franklin Lee Hagenbeck and Brigadier
General William E. Rapp, in their personal capacities,
for alleged violation of her Fifth Amendment right to
equal protection. Because adjudicating Doe’s claim

17a
would require judicial interference into a wide range
of military functions (including the training, supervision, discipline, education, and command of service
personnel at West Point), triggering the incident-toservice rule, we conclude that there is no Bivens
remedy available in this context. Accordingly, the
order of the district court is REVERSED, and the case
is REMANDED with instructions to dismiss.
JUDGE CHIN dissents in a separate opinion.
FOR PLAINTIFF-APPELLEE:
REBECCA OJSERKIS, JONAS WANG,
Erin Baldwin, Kathryn Wynbrandt,
Bethany Li, Michael J. Wishnie, Veteran
Legal Services Clinic, Jerome M. Frank
Legal Services Organization, Yale Law
School, New Haven, CT, for Jane Doe.
FOR DEFENDANTS-APPELLANTS:
CHRISTOPHER CONNOLLY, Benjamin
H. Torrance, Assistant United States
Attorneys, New York, NY, for Joon H.
Kim, Acting United States Attorney for
the Southern District of New York, for Lt.
Gen. Franklin Lee Hagenbeck and Brig.
Gen. William E. Rapp.
AMICI CURIAE:
Caitlin J. Halligan, Joel M. Cohen, Casey
K. Lee, Kathryn M. Cherry, Gibson,
Dunn & Crutcher LLP, New York, NY,
for Amici Curiae Federal Courts and
Constitutional Law Professors, in
support of Jane Doe.
Paul W. Hughes, Travis Crum, Mayer
Brown LLP, Washington, D.C., for Amici

18a
Curiae University Administrators, in
support of Jane Doe.
Penelope A. Preovolos, Ben Patterson,
Morrison & Foerster LLP, San Francisco,
CA, for Amici Curiae Former Military
Officers, in support of Jane Doe.
John D. Niles, James Anglin Flynn,
Covington & Burling LLP, Washington,
D.C., for Amici Curiae National Veterans
Legal Services Program, Protect Our
Defenders, Service Women’s Action
Network, in support of Jane Doe.
Sandra S. Park, Steven Watt, Lenora M.
Lapidus, American Civil Liberties Union
Foundation, New York, NY, for Amici
Curiae American Civil Liberties Union,
American Association of University
Women, Human Rights and Gender
Justice Clinic at the City University of
New York School of Law, Human Rights
Watch, National Alliance to End Sexual
Violence, National Center on Domestic
and Sexual Violence, National Women’s
Law Center, in support of Jane Doe.
DEBRA ANN LIVINGSTON, Circuit Judge:
Jane Doe is a former United States Military
Academy (“West Point”) cadet who alleges that during
her second year at West Point, she was sexually
assaulted by a fellow cadet. She filed this lawsuit not
against the cadet, but against two superior officers,
Lieutenant General Franklin Lee Hagenbeck and
Brigadier General William E. Rapp, in their personal
capacities. Lieutenant General Hagenbeck was
Superintendent of West Point from approximately

19a
July 2006 to July 2010, and in that role he chaired the
Sexual Assault Review Board, which is the “primary
means of oversight” of the sexual assault prevention
and response program at West Point. Joint App’x 12.
Brigadier General Rapp was Commandant of Cadets
at West Point from 2009 to 2011 and was in charge of
the administration and training of cadets. Doe alleges,
in substance, that Lieutenant General Hagenbeck and
Brigadier General Rapp “perpetrat[ed] a sexually
aggressive culture” at West Point that “discriminated
against female cadets,” “put female cadets at risk of
violent harm,” and resulted, inter alia, in her sexual
assault. Id. at 29.
In 2013, Doe filed suit against the United States,
Lieutenant General Hagenbeck, and Brigadier
General Rapp. She pleaded four causes of action, but
the district court dismissed all but one: a claim against
Lieutenant General Hagenbeck and Brigadier General
Rapp brought pursuant to Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403
U.S. 388 (1971), on the basis of their alleged violation
of equal protection rights protected by the Fifth
Amendment. For the reasons stated below, we conclude that the district court erred in permitting this
Bivens claim to proceed. We therefore REVERSE the
order of the district court as to this claim and
REMAND the case to the district court with
instructions to dismiss it.

20a
BACKGROUND
I. Factual Allegations1
Doe, who graduated from high school in 2008,
received an offer of admission to West Point during her
senior year, which she accepted. As a West Point
cadet, Doe was a member of the Army. 10 U.S.C.
§ 3075(b)(2). The expectation upon enrollment was
that, following her military training and education at
West Point — which, together with room and board,
Doe received without charge — she would serve at
least five years of active duty. The West Point
curriculum, as Doe alleges in her Amended Complaint,
“is designed to train ‘officer‐leaders of character to
serve the Army and the Nation.’” Joint App’x 13.
Upon arrival at West Point, Doe, who was one of
about 200 women among the approximately 1,300
cadets in her class, alleges that she encountered what
she describes as a “male” and “misogynistic culture.”
Id. at 14, 15. Cadets, for example, sang sexually
explicit and offensive chants while marching on campus, “in view and earshot of faculty and administrators.” Id. at 16. Doe contends that she “observed her
cadet classmates making misogynistic and sexually
aggressive comments on a regular basis,” while “[t]he
West Point administration frequently ignored and
sometimes condoned these comments.” Id. at 15. Doe
does not allege that Lieutenant General Hagenbeck or
Brigadier General Rapp engaged in any such conduct,
but she does contend that they “created” the culture
1

The factual background presented here is derived from the
allegations in Doe’s Amended Complaint, which we accept as true
and view in the light most favorable to her in reviewing the
district court’s decision on the motion to dismiss. See Starr Int’l
Co. v. Fed. Reserve Bank, 742 F.3d 37, 40 (2d Cir. 2014).

21a
there, which “marginalized” Doe and other female
cadets and “caused them to be subjected to routine
harassment, [to] suffer emotional distress and other
harms, and [to] be pressured to conform to male
norms.” Id. Doe also maintains that West Point’s
training on sexual assault and harassment was
inadequate “and did little to combat the overwhelmingly misogynistic culture of the school.” Id. at 17.
In the early morning of May 9, 2010, during her
second year at West Point, Doe alleges that she was
raped by a fellow cadet with whom she had gone
walking after hours. In particular, Doe asserts that
after taking a prescribed sedative as she was preparing for bed, she agreed at about 1:00 a.m. to leave her
dormitory with this cadet (identified by Doe in her
Amended Complaint only as “Mr. Smith” (“Smith”)) in
violation of West Point rules. Doe alleges that she
accepted only a few sips of alcohol from Smith but that,
as a result of the combined effects of the sedative and
the alcohol, she “began to lose awareness of her surroundings and consciousness of what she was doing.”
Id. at 22. Doe contends that Smith “was aware that
[she] had lost consciousness and took advantage,”
attacking her and having “forcible, non-consensual
intercourse with her.” Id. She also maintains that she
does not remember the details of the attack.
Doe sought care from West Point’s cadet health
clinic the next day, which provided her with emergency contraception and, on a subsequent visit on or
about May 11, tested her for sexually-transmitted
diseases. Although the treating nurse allegedly
informed Doe that she had signs of vaginal tearing,
and the medical record indicates Doe reported that she
“was sexually assaulted by a friend,” Doe states that
the clinic “did not perform any forensic collection or

22a
preservation of evidence of the sexual assault.” Id. at
23. During a regular appointment with her psychiatrist that day (a psychiatrist Doe began consulting, she
alleges, because of the significant stress she suffered
due to West Point’s oppressive atmosphere), Doe
reported “nonconsensual sexual relations with a friend,”
and was referred to West Point’s Sexual Assault
Response Counselor, Major Maria Burger. Id.
Doe met only once with Major Burger. During that
meeting, the major explained to Doe that she could file
either an “unrestricted” or a “restricted” report about
the incident. Id. An unrestricted report would have
included both Doe’s and her alleged assailant’s names
and would have been given to commanders for potential disciplinary action. A restricted report would
preserve their anonymity, but would not result in a
referral. Doe filed a restricted report. She alleges in
her Amended Complaint that she feared reputational
harm or even retaliation from other cadets if she filed
an unrestricted report. She also worried that she
would be punished for having been out after hours and
for consuming alcohol with her alleged assailant, and
that an unrestricted report would damage her career
prospects because “[i]t was common knowledge among
the cadets that successful women in the military did
not report incidents of sexual assault.” Id.
Doe contends that in the aftermath of the sexual
assault, her anxiety grew intolerable. Doe informed
West Point that she would resign, and on August 13,
2010, she was honorably discharged. Doe thereafter
enrolled in a civilian college from which she earned a
degree.

23a
II. Procedural History
On April 26, 2013, Doe filed a complaint in the
United States District Court for the Southern District
of New York (Hellerstein, J.).2 On September 4, 2013,
she filed an Amended Complaint. Therein, Doe pleaded four independent causes of action: (1) a Bivens
claim based on an alleged Fifth Amendment due process violation against Lieutenant General Hagenbeck
and Brigadier General Rapp; (2) a Bivens claim
premised on an alleged Fifth Amendment equal protection violation against Lieutenant General Hagenbeck
and Brigadier General Rapp; (3) a claim for breach of
2

A redacted version of the Complaint was docketed, and an
unredacted version was filed under seal. The district court
ordered the parties to show cause why the Complaint should
remain under seal, and Doe then filed a motion to seal the case.
At a hearing, the district court granted the motion in part, and
denied it in part. It granted Doe permission to proceed under a
pseudonym, and it also ruled that she could continue to redact
from public filings the name of “Mr. Smith,” the man she alleged
had assaulted her. The district court decided that the names of
the individual defendants and the facts and circumstances of the
alleged assault, however, should be disclosed. No challenge has
been presented on appeal to this manner of proceeding and we
are without the benefit of briefing on the question. We assume,
arguendo, that the district court did not abuse its discretion in
determining to proceed in this manner and do not address the
matter further. But see, e.g., Doe v. Public Citizen, 749 F.3d 246,
275 (4th Cir. 2014) (holding that the district court’s sealing order
“violated the public’s right of access under the First Amendment
and that the [district] court abused its discretion in allowing
Company Doe to proceed under a pseudonym”); Sealed Plaintiff
v. Sealed Defendant, 537 F.3d 185, 189 (2d Cir. 2008) (indicating
that “‘[t]he people have a right to know who is using their courts,’”
and describing “the relevant inquiry as a balancing test that
weighs the plaintiff’s need for anonymity against countervailing
interests in full disclosure” (quoting Doe v. Blue Cross & Blue
Shield United, 112 F.3d 869, 872 (7th Cir. 1997))).

24a
the covenant of good faith and fair dealing under 28
U.S.C. § 1346(a)(2) (the “Little Tucker Act”) against
the United States; and (4) a Federal Tort Claims Act
(“FTCA”), 28 U.S.C. §§ 1346(b), 2671– 2680, claim
against the United States alleging negligent supervision, negligent training, negligence, negligent infliction of emotional distress, and abuse of process.
On September 20, 2013, defendants filed a motion to
dismiss the Amended Complaint, which Doe opposed.
On April 13, 2015, the district court issued an opinion
and order granting in part and denying in part
defendants’ motion. The district court granted defendants’ motion as to the two claims against the United
States: the Little Tucker Act claim and the FTCA
claim. The district court also dismissed Doe’s Bivens
claim asserting a violation of her due process rights.
These claims are not at issue in this interlocutory
appeal.
The district court denied the motion to dismiss as to
the Bivens claim in which Doe asserted that
Lieutenant General Hagenbeck and Brigadier General
Rapp violated her equal protection rights. The district
court acknowledged that a Bivens remedy is not
available “when ‘special factors counselling hesitation’
are present,” Chappell v. Wallace, 462 U.S. 296, 298
(1983) (quoting Bivens, 403 U.S. at 396). It recognized
that absent Congressional authorization for a money
damages claim, “[t]he need to insulate the military’s
disciplinary structure from judicial inquiry” constitutes a special factor. Doe v. Hagenbeck, 98 F. Supp.
3d 672, 684 (S.D.N.Y. 2015). Further, the court
acknowledged the Supreme Court’s instruction, in
United States v. Stanley, that in the military context,
the special factors requiring abstention “extend [even]
beyond the situation in which an officer‐subordinate

25a
relationship exists, and require abstention in the inferring of Bivens actions as extensive as the exception
to the FTCA” established in Feres v. United States, 340
U.S. 135 (1950), Stanley, 483 U.S. 669, 683–84 (1987).
In the district court’s view, however, “the primary
reason for exercising judicial restraint with cases
concerning the military is ‘the need to preserve the
military disciplinary structure and prevent judicial
involvement in sensitive military matters.’” Doe, 98 F.
Supp. 3d at 688 (quoting Wake v. United States, 89
F.3d 53, 57 (2d Cir. 1996)). The district court concluded that Doe’s claim, at least at the motion to
dismiss stage, did not implicate such concerns.
Following the district court’s opinion, Lieutenant
General Hagenbeck and Brigadier General Rapp filed
a notice of interlocutory appeal and moved for a stay
pending the appeal. In response, Doe argued that any
appeal should be pursued in the Federal Circuit
instead of in the Second Circuit. The district court
granted the stay until August 7, 2015, “and such
further period as the U.S. Court of Appeals shall
determine.” Joint App’x 9. The district court also
“note[d] Plaintiff’s position that any appeal should be
pursued in the Federal Circuit[] instead of the Second
Circuit” and “le[ft] that determination for the appellate courts.” Id. A panel of this Court thereafter
granted defendants’ motion to stay the proceedings
before the district court and denied Doe’s motion to
transfer venue.
DISCUSSION
Doe’s equal protection claim is based on the
proposition that Lieutenant General Hagenbeck
and Brigadier General Rapp, her superior officers at
the time, “knowingly and intentionally created and
enforced a policy and practice” at West Point that

26a
“discriminated against female cadets,” “tolerated
attacks against [them] and discouraged reporting,”
and promoted a “sexually aggressive culture” there
that caused Doe to suffer, inter alia, a sexual assault.
Joint App’x 29. The district court denied defendants’
motion to dismiss this claim, concluding it should be
permitted to proceed “unless it is evident from the
complaint, or shown by an answer and subsequent
proofs, that military discipline or its command structure is compromised.” Doe, 98 F. Supp. 3d at 689. We
review the district court’s determination de novo.
Warney v. Monroe Cty., 587 F.3d 113, 120 (2d Cir.
2009).
In reviewing the denial of a motion to dismiss, we
assume that the allegations in Doe’s Amended Complaint are true and draw all reasonable inferences
from those allegations in her favor. Starr Int’l Co. v.
Fed. Reserve Bank, 742 F.3d 37, 40 (2d Cir. 2014).
Assuming their truth, Doe’s allegations of harassment
and abuse are no credit to West Point, an institution
founded, as Doe alleges, “to train ‘officer‐leaders of
character to serve the Army and the Nation.’” Joint
App’x 13. But this neither does nor should end the
judicial inquiry into whether Doe’s Bivens claim may
proceed.
Doe seeks to hold her superior officers personally
liable for money damages in connection with their
decisions regarding the training, supervision, discipline, education, and command of service personnel at
West Point, an officer training school and military
base. But Congress, “the constitutionally authorized
source of authority over the military system of justice,
has not provided a damages remedy” for the constitutional claim that Doe asserts. Chappell, 462 U.S. at
304. The Supreme Court, citing the “inescapable

27a
demands of military discipline . . . [that] cannot be
taught on battlefields,” id. at 300, has held, unanimously, that absent Congressional authorization, “it
would be inappropriate [for courts] to provide enlisted
military personnel a Bivens‐type remedy against their
superior officers.” Id. at 304; see also id. at 305 (holding that “enlisted military personnel may not maintain a suit to recover damages from a superior officer
for alleged constitutional violations”). We conclude
that Chappell and its progeny are dispositive of Doe’s
Bivens claim and, accordingly, that the district court
erred in determining that Doe’s Bivens claim may
proceed.
I
We start with Bivens itself. In Bivens, the Supreme
Court permitted the plaintiff, who alleged that he had
been subjected to an unlawful, warrantless search of
his home and to an unlawful arrest, to proceed with a
Fourth Amendment damages claim against allegedly
errant federal law enforcement agents, despite the fact
that Congress had not provided for such a remedy.
403 U.S. at 389, 395–97. Although the Bivens Court
permitted this damages claim to proceed, it signaled,
as the Court has repeatedly cautioned since, that
“such a remedy will not be available when ‘special
factors counselling hesitation’ are present.”3 Chappell,
3

The Court has in recent years prescribed a two-step process
for determining whether a Bivens remedy is available in which
we consider, first, whether an alternative remedial scheme exists.
See Wilkie v. Robbins, 551 U.S. 537, 550 (2007). In Stanley, the
Court suggested that traditional forms of redress, “designed to
halt or prevent” a constitutional violation “rather than [for] the
award of money damages,” might sometimes be available in
the military context. 483 U.S. at 683. We nonetheless assume
arguendo that there is no alternative remedy here and address
our analysis to the Supreme Court’s admonition that “even in the

28a
462 U.S. at 298 (quoting Bivens, 403 U.S. at 396). The
Court has since made clear that it is “reluctant to
extend Bivens liability ‘to any new context or new
category of defendants.’” Ashcroft v. Iqbal, 556 U.S.
662, 675 (2009) (quoting Corr. Servs. Corp. v. Malesko,
534 U.S. 61, 68 (2001)). In the forty‐six years since
Bivens was decided, the Supreme Court has extended
the precedent’s reach only twice,4 and it has otherwise
consistently declined to broaden Bivens to permit new
claims.5 See Ziglar v. Abbasi, 137 S. Ct. 1843, 1857
(2017) (observing that “the Court has made clear that
expanding the Bivens remedy is now a ‘disfavored’
judicial activity,” and collecting cases in which the
Supreme Court has refused to do so (quoting Iqbal, 556
U.S. at 675)). Indeed, noting that “it is a significant
step under separation-of-powers principles for a court
absence of an alternative,” Wilkie, 551 U.S. at 550, courts must
pay “particular heed” to “special factors counselling hesitation
before authorizing a new kind of federal litigation,” id. (quoting
Bush v. Lucas, 462 U.S. 367, 378 (1983)); see also Stanley, 483
U.S. at 683 (noting that availability of alternative remedy is
“irrelevant” to special factors analysis).
4

See Carlson v. Green, 446 U.S. 14, 18–23 (1980) (finding an
implied private cause of action for a prisoner’s Eighth Amendment claim); Davis v. Passman, 442 U.S. 228, 230–34 (1979)
(finding an implied private cause of action for a congressional
employee’s employment discrimination claim under the Fifth
Amendment).
5

See Minneci v. Pollard, 565 U.S. 118, 124–25 (2012) (collecting cases); see also, e.g., Malesko, 534 U.S. at 70–73 (no Bivens
action for prisoner’s Eighth Amendment-based suit against a
private corporation that managed a federal prison); Schweiker v.
Chilicky, 487 U.S. 412, 414, 425–27 (1988) (no Bivens action for
claim by recipients of Social Security disability benefits that
benefits had been denied in violation of the Fifth Amendment);
Bush, 462 U.S. at 386–90 (no Bivens action for claim that federal
employer demoted federal employee in violation of the First
Amendment).

29a
to determine that it has the authority,” in effect, “to
create and enforce a cause of action for [money]
damages against federal officials,” the Court only
recently observed that “it is possible that the analysis
in the Court’s three Bivens cases might have been
different if they were decided today.” Id. at 1856.
The Supreme Court’s separation-of-powers concern
with implied causes of action under the Constitution,
present in all cases in which plaintiffs have sought to
extend Bivens’s reach, is particularly acute in the
military context. In Chappell, the Supreme Court held
that special factors counselled against permitting
the plaintiffs — enlisted Navy sailors who alleged that
superior officers had discriminated against them on
the basis of race — to maintain Bivens money damage
claims. 462 U.S. at 297, 304. Referencing the “centuries of experience” reflected in the military’s “hierarchical structure of discipline and obedience to command,” a structure “wholly different from civilian
patterns,” id. at 300, the Court concluded that civilian
courts, not responsible for the lives of soldiers and “ill‐
equipped to determine the impact upon discipline” of
their intrusions, id. at 305 (quoting Earl Warren, The
Bill of Rights and the Military, 37 N.Y.U. L. Rev. 181,
187 (1962)), must “hesitate long” before entertaining
suits which ask courts to “tamper with the established
relationship between enlisted military personnel and
their superior officers,” id. at 300. Congress, the Court
unanimously said, has “plenary control over rights,
duties, and responsibilities in the framework of the
[m]ilitary [e]stablishment, including regulations, procedures and remedies related to military discipline.”
Id. at 301. In the absence of Congressional action, the
Court concluded, “enlisted military personnel may not
maintain a suit to recover damages from a superior
officer for alleged constitutional violations.” Id. at 305.

30a
The Supreme Court was, if anything, even more
emphatic in Stanley. The Court ruled there that the
plaintiff — a former soldier alleging that the Army had
secretly given him doses of LSD to study the drug’s
effects — could not maintain a Bivens action, even
though at least some of the defendants in the case
were not Stanley’s superior military officers (thus not
directly implicating Chappell’s chain-of-command
concerns) and “may well have been civilian personnel.”
483 U.S. at 679; see id. at 671, 680–84. Citing by way
of analogy to its decision in Feres, which established
that “the Government is not liable under the Federal
Tort Claims Act for injuries to servicemen where the
injuries arise out of or are in the course of activity
incident to service,” 340 U.S. at 146, the Stanley Court
explained that there is no “reason why [its] judgment
in the Bivens context should be any less protective
of military concerns than it has been with respect
to FTCA suits, where [it] adopted [the] ‘incident to
service’ rule,” 483 U.S. at 681. The Court thus
concluded — in sweeping language — that in the
military context, even where no “officer-subordinate
relationship exists,” the reach of the special factors
counselling “abstention in the inferring of Bivens
actions” is “as extensive as the exception to the FTCA
established by Feres.” Id. at 683–84. Accordingly,
pursuant to the incident-to-service rule, “no Bivens
remedy is available for injuries that ‘arise out of or are
in the course of activity incident to service.’” Id. at 684
(quoting Feres, 340 U.S. at 146).
II
This Supreme Court precedent frames our inquiry
and leads ineluctably to the conclusion that Doe
cannot maintain her Bivens claim. Doe was a member
of the military at the time the events giving rise to her

31a
claim occurred, and the claim concerns superior officers. Further, her claim calls into question “basic
choices about the discipline, supervision, and control”
of service personnel and would “require[ ] the civilian
court to second-guess military decisions,” thus triggering the incident-to-service rule.6 United States v.
Shearer, 473 U.S. 52, 57–58 (1985) (noting that allegations “go[ing] directly to the ‘management’ of the
military” that “might impair essential military discipline” lie at the “core” of rule’s concerns). In such
circumstances, her Bivens claim must be dismissed.
At the start, by statute, a West Point cadet is a
member of the military. “The Regular Army is [a]
component of the Army” and “includes . . . cadets of the
United States Military Academy,” 10 U.S.C. § 3075,
who swear an oath to “at all times obey the legal orders
of [their] superior officers, and the Uniform Code of
Military Justice,” id. § 4346(d). For this reason, in the
context of the FTCA, courts citing Feres have reliably
applied the doctrine of intramilitary immunity to bar
suits brought by service academy cadets whenever
such suits implicate the incident-to-service rule. See,
6

Given that the Chappell Court squarely held that “military
personnel may not maintain a suit to recover damages from a
superior officer for alleged constitutional violations” (although
the question presented in that case concerned violations “in the
course of military service”), 462 U.S. at 297, 305, and the Stanley
Court only broadened Chappell’s holding, see 483 U.S. at 683
(explaining that Chappell’s reasoning “extend[s] beyond the
situation in which an officer-subordinate relationship exists”),
resolution of this case may not require an incident-to-service
inquiry at all. Nonetheless, consistent with the approach of our
sister circuits, see Klay v. Panetta, 758 F.3d 369, 374 (D.C. Cir.
2014); Cioca v. Rumsfeld, 720 F.3d 505, 512–14 (4th Cir. 2013),
we apply the incident-to-service rule here and reach the same
result we would have reached under Chappell alone.

32a
e.g., Miller v. United States, 42 F.3d 297, 301, 308 (5th
Cir. 1995); Collins v. United States, 642 F.2d 217, 218
(7th Cir. 1981). This Circuit, moreover, has recognized
that the rule also applies in the context of suits
brought by students who are part of the Reserve
Officer Training Corps at nonmilitary schools. See
Wake, 89 F.3d at 55, 58–59, 62.
Next, Doe’s alleged injuries clearly are covered by
the Supreme Court’s holding in Stanley that “no
Bivens remedy is available for injuries that ‘arise out
of or are in the course of activity incident to service.’”
483 U.S. at 684 (quoting Feres, 340 U.S. at 146). As the
Supreme Court recognized in Shearer when applying
the incident-to-service rule, when a claim on its face
“requires the civilian court to second-guess military
decisions,” and when the complaint, fairly read, calls
into question “the ‘management’ of the military” —
that is, “basic choices about the discipline, supervision,
and control” of service personnel — we are “at the core”
of the rule’s concerns. 473 U.S. at 57–58. In such
circumstances, we do not inquire into “the extent to
which particular suits would call into question
military discipline and decisionmaking.” Stanley, 483
U.S. at 682. Instead, such cases “require abstention,”
id. at 683, so as to avoid interference with “the necessarily unique structure of the military establishment”
and to defer to the Framers who, “well aware of the
differences between [military] and civilian life” and
cognizant of the issues that might in future arise,
granted “plenary authority to Congress . . . ‘[t]o make
Rules for the Government and Regulation of the land
and naval Forces,’” Chappell, 462 U.S. at 300–01 (emphasis added) (quoting U.S. Const. art. 1, § 8, cl. 14).
Here, in considering whether Doe’s injuries occurred
“incident to service,” we examine the specific factual

33a
allegations that underlie her equal protection claim.7
See Klay v. Panetta, 758 F.3d 369, 375 (D.C. Cir. 2014)
(noting that the incident-to-service rule bars Bivens
claims when litigating “the plaintiff’s theory of the
case” would, in effect, “require military leaders to
defend their professional management choices”). The
allegations in Doe’s Amended Complaint do not merely
invite, but require a most wide-ranging inquiry into
the commands of Lieutenant General Hagenbeck and
Brigadier General Rapp. Specifically, as they relate to
these defendants’ conduct, Doe’s allegations center on
the implementation and supervision of allegedly
inadequate and harmful training and education
programs relating to sexual assault and harassment;
on the alleged failure to provide properly both for the
report and investigation of sexual assault claims, and
for the support of cadets who are assaulted; on the
7

We have suggested that in some circumstances — for
instance, where an issue exists for FTCA purposes as to whether
a given automobile accident occurred “within a distinctly military
sphere of activity,” see Wake, 89 F.3d at 58 — the incident-toservice inquiry may require the analysis of potentially relevant
factors, such as the relationship of the activity at issue to membership in the service or the location of the conduct giving rise to
the tort claim. Id. No such close analysis is necessary here,
however, given the clear relationship between Doe’s Bivens claim
and management and discipline at West Point. In any event, we
note that the balance of the relevant factors we identified in Wake
are clearly present here. Doe was a member of the Army; her
tuition-free presence at West Point (and access to the facilities
therein) was a benefit conferred as a result of that membership;
and her constitutional claim arises from her treatment at West
Point, where she resided and was training to become an officer.
See id. at 57 (identifying “status as a member of the military,”
“the location of the conduct giving rise to the underlying tort
claim,” and “whether the service member was taking advantage
of a privilege or enjoying a benefit conferred as a result of military
service” as among relevant factors).

34a
alleged lack of sufficient numbers of female faculty
and administrators at West Point and on the failure to
recruit female cadets; on the allegedly inadequate
punishment meted out not only to perpetrators of
sexual violence but also to those who engage in
misogynistic chants, slurs and comments; and, most
broadly, on the assertedly culpable tolerance of a
hostile culture toward women at West Point. Adjudicating such a money damages claim would require a
civilian court to engage in searching fact‐finding about
Lieutenant General Hagenbeck and Brigadier General
Rapp’s “basic choices about the discipline, supervision,
and control” of the cadets that they were responsible
for training as future officers. Shearer, 473 U.S. at 58.
In such circumstances, we conclude that Chappell and
Stanley squarely foreclose Doe’s Bivens claim.
This conclusion, we note, is consistent with the
recent decisions of at least two other circuits. The D.C.
Circuit rejected as “patently deficient” a Bivens claim
pressed by current and former sailors and Marines
who alleged they were the victims of sexual assault or
harassment resulting from a military culture attributable to their superiors: “If adjudicating the case would
require military leaders to defend their professional
management choices — ‘to convince a civilian court of
the wisdom of a wide range of military and disciplinary
decisions’ — then the claim is barred by the ‘incident
to service’ test.” Klay, 758 F.3d at 370, 375 (citation
omitted) (quoting Shearer, 473 U.S. at 58). The Fourth
Circuit, addressing a similar claim, was equally clear:
“Bivens suits are never permitted for constitutional
violations arising from military service, no matter how
severe the injury or how egregious the rights infringement.” Cioca v. Rumsfeld, 720 F.3d 505, 512 (4th Cir.
2013) (quoting Erwin Chemerinsky, Federal Jurisdiction 621–22 (5th ed. 2007)). This result, the Fourth

35a
Circuit said, implies no tolerance for the misconduct
alleged in a plaintiff’s pleading, but rather reflects “the
judicial deference to Congress and the Executive
Branch in matters of military oversight required by
the Constitution and our fidelity to the Supreme
Court’s consistent refusal to create new implied causes
of action in this context.” Id. at 518; see also id. at 514
(noting that “the Chappell, Stanley, Feres and Shearer
precedents mandate that courts not permit a Bivens
action that challenges military decisionmaking”).
Doe argues, relying principally on United States v.
Virginia (VMI), 518 U.S. 515 (1996), that the failure to
afford her a Bivens claim against Lieutenant General
Hagenbeck and Brigadier General Rapp “contradict[s]
VMI,” Doe’s Br. at 15, specifically the Supreme Court’s
merits determination therein that the State of
Virginia could not preclude women from attending the
Virginia Military Institute, a public college that styles
itself as providing a military education.8 VMI, 518 U.S.
at 519. But this argument misses the point. Lieutenant
General Hagenbeck and Brigadier General Rapp
do not seek dismissal based on the scope of equal
protection guarantees — a subject to which VMI could
be pertinent. Instead, they invoke binding Supreme
Court precedent standing for the proposition that
whatever the scope of the particular constitutional
rights at issue, the remedy of money damages is
unavailable to members of the armed services for
8

The Institute is not affiliated with the U.S. armed forces, nor
are its students, by virtue of their enrollment there, members of
the United States military. Cf. id. at 520–22 (describing the
Institute as a state military college both financially supported by,
and subject to control by, the Virginia General Assembly, and
noting that it differs from federal service academies because it
prepares students for both military and civilian life).

36a
violations of those rights where Congress has not acted
and the incident-to-service rule is satisfied.
Chappell itself involved an equal protection claim by
African American enlisted personnel who alleged that
their superior officers “failed to assign them desirable
duties, threatened them, gave them low performance
evaluations, and imposed penalties of unusual severity,” all on account of their race. 462 U.S. at 297; see
Wallace v. Chappell, 661 F.2d 729, 730 (9th Cir. 1981).
Despite the gravity of these allegations, and with
no disparagement of the right at stake, the Court,
noting that Congress “has established a comprehensive internal system of justice to regulate military life”
and “has not provided a damages remedy for claims
by military personnel that constitutional rights have
been violated by superior officers,” determined that a
Bivens remedy was unavailable. Id. at 302–04. As the
Court unanimously recognized, “[j]udges are not given
the task of running the Army. The responsibility for
setting up channels through which . . . grievances can
be considered and fairly settled rests upon the
Congress and upon the President of the United States
and his subordinates.” Id. at 301 (second alteration in
original) (quoting Orloff v. Willoughby, 345 U.S. 83,
93–94 (1953)). VMI is simply not germane to the
remedial inquiry mandated by Chappell, Stanley, and
other Bivens cases.
Doe next contends, and the dissent agrees, that
pursuant to this Court’s decision in Taber v. Maine, 67
F.3d 1029 (2d Cir. 1995), her injuries did not arise
incident to military service. This is also incorrect.
Taber involved an FTCA claim brought by an off-duty
Navy Seabee who was injured in an automobile
accident by another off-duty Navy serviceman. Id. at
1032. This Court concluded in Taber that the question

37a
whether Feres barred the plaintiff’s FTCA claim
turned, in the circumstances of that case, on whether a
person in Taber’s position would be entitled to
workers’ compensation benefits on the theory that
when injured he was engaged in activities that “fell
within the scope of [his] military employment.” Id. at
1050. Whatever Taber’s significance to this Circuit’s
FTCA case law, the Taber panel had no occasion to
address either Chappell or Stanley, or the scope of
“abstention in the inferring of Bivens actions” more
generally.9 Stanley, 483 U.S. at 683. Moreover, even in
the FTCA context, Taber itself noted, citing Supreme
Court precedent, that the incident-to-service rule
(regardless of workers’ compensation considerations)
is properly invoked when adjudicating the claim of
a service member would require “‘commanding officers
. . . to stand prepared to convince a civilian court of the
wisdom of a wide range of military and disciplinary
9

As a matter of this Circuit’s FTCA precedent, moreover, it is
noteworthy that only some nine months after the amended
decision in Taber, this Court in Wake suggested that to the extent
the appellant there argued that Taber had created a new “scope
of employment” test for determining the applicability of the Feres
doctrine, Taber could not be read to alter the reach of Feres, which
was then and remains binding precedent. 89 F.3d at 61. This
Circuit has not relied on Taber’s holding in the intervening
twenty‐plus years, and at least one other circuit has declined to
employ its approach. See Skees v. United States, 107 F.3d 421,
425 n.3 (6th Cir. 1997) (declining to adopt Taber). In such circumstances, Taber is a thin reed, indeed, to support the dissent’s
position that we may properly entertain a Bivens claim here,
despite the broad inquiry that Doe’s allegations demand into the
discipline, supervision, and control of cadets at West Point, on the
theory that Doe, when allegedly assaulted while out after hours,
was not “‘engaged in activities that fell within the scope of [her]
military employment,’” Dissenting Op. at 21 (citing Taber, 67
F.3d at 1050).

38a
decisions.’” 67 F.3d at 1049 (quoting Shearer, 473 U.S.
at 58). This is precisely the problem with Doe’s claim
here.
Doe attempts to avoid this conclusion by arguing
that her damages claim “does not interfere with
military discipline or management . . . because she
only questions school management” — the decisions of
Lieutenant General Hagenbeck and Brigadier General
Rapp “made in their roles as school administrators —
not as military officials.” Doe’s Br. at 36. The dissent,
too, takes this tack.10 Observing, dismissively, that
West Point serves a military purpose “to some extent,”
Dissenting Op. at 23 (emphasis added), the dissent
claims that the “incident to service” rule does not apply
because at the time that Doe was allegedly assaulted,
she was “out for an evening walk on a college campus,”
id. at 22, and because, more broadly, Doe while at
West Point was not a soldier on the battlefield, but a
student attending college. Id. at 22–23. “West Point
10

The dissent in addition urges that defendants allegedly
violated military regulations in connection with Doe’s tenure at
West Point and that “[j]udicial review of . . . allegations that the
individual defendants failed to follow mandatory military . . .
regulations would not unduly interfere” with the military’s
proper operation. Dissenting Op. at 27. Suffice it to say that the
dissent cites no case law supporting the proposition that the
availability of a Bivens damages suit turns on this contingency,
and unsurprisingly, since such an approach would be inconsistent
with courts’ traditional reluctance “to intrude upon the authority
of the Executive in military and national security affairs’ unless
‘Congress specifically has provided otherwise.’” Ziglar, 137 S. Ct.
at 1861 (quoting Dep’t of Navy v. Egan, 484 U.S. 518, 530 (1988));
see also id. at 1858 (citing Chappell and Stanley in suggesting
that Congress’s exercise of regulatory authority “in a guarded
way” constitutes a special factor counselling against recognition
of a Bivens claim on the ground that it is “less likely that
Congress would want the Judiciary to interfere”).

39a
functions principally as a school,” the dissent urges,
and “Doe was primarily a student.” Id. at 24.
With respect, this analysis is both contrary to the
case law and unsupported by the factual allegations in
Doe’s Amended Complaint. As Doe has acknowledged,
the United States Military Academy at West Point has
a single, unitary mission: to “train ‘officer‐leaders of
character to serve the Army and the Nation.’” Joint
App’x 13. Its cadets swear an oath to “at all times
obey the legal orders of . . . superior officers, and the
Uniform Code of Military Justice,” 10 U.S.C. § 4346(d)
(emphasis added), and are subject to military discipline pursuant to the Code, id. § 802(a)(2). Cadets are
divided into companies, each commanded by an Army
officer, “for the purpose of military instruction,” id.
§ 4349(a), and are “trained in the duties of members of
the Army,” id. § 4349(e), and even paid as members of
the Army, 37 U.S.C. § 203(c). Doe’s contention that
this Court might disaggregate those aspects of cadets’
lives that concern “education” from those involving
their training to be future officers — a contention
entirely unsupported by allegations in the Amended
Complaint — is thus fanciful, at best, because academic and military pursuits are inextricably intertwined at the United States Military Academy, which
exists for “the instruction and preparation for military
service” of Army members.11 10 U.S.C. § 4331(a).
11

Moreover, even assuming such disaggregation could be
done, it is directly contrary to Stanley’s admonition against
inquiring whether “particular suits,” examined case by case,
“would call into question military discipline and decisionmaking.”
483 U.S. at 682–83. Such inquiries, the Stanley Court concluded,
“raising the prospect of compelled depositions and trial testimony
by military officers concerning the details of their military
commands,” would themselves “disrupt the military regime.” Id.

40a
As Chappell recognized, “[t]he inescapable demands
of military discipline and obedience to orders cannot
be taught on battlefields,” and “conduct in combat
inevitably reflects the training that precedes combat.”
462 U.S. at 300. Doe was not “a soldier on a battlefield”
at the time of the events challenged here, as the
dissent points out. Dissenting Op. at 23. This observation, however, is beside the point. As a member of
the Army, Doe was training at West Point to lead
battlefield soldiers. Adjudicating the claim she brings
against her superior officers, moreover, which charges
them with “creat[ing] a dangerous and sexually hostile
environment,” Joint App’x 28, and challenges matters
ranging from the alleged “underrepresentation of
women in the school administration” and among the
cadet classes, id. at 14, to the alleged tolerance of
“sexually aggressive language and conduct by faculty,
officials and male cadets,” id. at 28, would require a
civilian court to examine a host of military decisions
regarding aspects of West Point’s culture, as well as
the supervision of West Point cadets, their training
and education, and their discipline by superior
officers. Doe’s claim thus “strikes at the core” of the
concerns implicated by the incident-to-service rule:
that civilian courts are ill-equipped “to second-guess
military decisions” regarding “basic choices about
the discipline, supervision, and control” of service
members, Shearer, 473 U.S. at 57–58, that doing so
could impair “military discipline and effectiveness” in
unintended and unforeseen ways, id. at 59, and that
the “explicit constitutional authorization for Congress
‘[t]o make Rules for the Government and Regulation of
the land and naval Forces,’” counsels hesitation as
to the wisdom of money damages litigation, where
Congress has not authorized it, Stanley, 483 U.S. at
681–82 (quoting U.S. Const. art. I, § 8, cl. 14).

41a
In sum, West Point is part of the Department of the
Army. Its cadets are service members. Lieutenant
General Hagenbeck was the commanding officer of a
military base during his time at West Point, and
Brigadier General Rapp commanded the cadets. The
future officers who study and train at West Point, like
the enlisted men and women they are trained to
command, may not invoke Bivens to recover damages
for injuries that “arise out of or are in the course of
activity incident to service.” Stanley, 483 U.S. at 684.
Doe’s Bivens claim against her superior officers,
implicating Army training, supervision, discipline,
education, and command, triggers the incident-toservice rule and cannot proceed.
CONCLUSION
We note, as did the D.C. Circuit, that Congress “has
been ‘no idle bystander to th[e] debate’ about sexual
assault in the military.” Klay, 758 F.3d at 376
(alteration in original) (quoting Lebron v. Rumsfeld,
670 F.3d 540, 551 (4th Cir. 2012)). In reversing the
district court’s determination as to the viability of
Doe’s Bivens claim, we do not discount the seriousness
of her allegations, nor their potential significance to
West Point’s administration. As the Supreme Court
has made clear, however, it is for Congress to determine whether affording a money damages remedy is
appropriate for a claim of the sort that Doe asserts. We
therefore join the D.C. Circuit and the Fourth Circuit
in concluding that no Bivens remedy is available here.
We accordingly need not reach the question whether
Lieutenant General Hagenbeck and Brigadier General
Rapp are entitled to qualified immunity.
For the foregoing reasons, we REVERSE the order
of the district court, and REMAND to the district court
with instructions to dismiss Doe’s equal protection claim.

42a
DENNY CHIN, Circuit Judge:
I respectfully dissent.
Assuming, as we must at this juncture of the case,
that the allegations of the amended complaint are
true, plaintiff-appellee Jane Doe was subjected to
pervasive and serious sexual harassment, including
rape, at the United States Military Academy at West
Point (“West Point”). The harassment resulted from
practices and policies that the individual defendants
permitted to proliferate and, indeed, implemented or
encouraged, depriving Doe of an equal education
because of her gender. The amended complaint alleges
that the individual defendants created, promoted, and
tolerated a misogynistic culture, including by, for
example, setting separate curriculum requirements
for women and men (self-defense for first-year female
cadets and boxing for first-year male cadets), requiring sexually transmitted disease testing for female but
not male cadets, warning female cadets that it was
their burden to spurn sexual advances from male
cadets while openly speaking to male cadets about
sexual exploits and encouraging them to take
advantage of any opportunity to have sex, imposing
inadequate punishment for offenders, and permitting
sexually explicit, violent, and degrading group chants
during team building exercises, with verses such as
the following:
I wish that all the ladies / were bricks in a
pile / and I was a mason/ I’d lay them all in
style. . . .
I wish that all the ladies / were holes in the
road / and I was a dump truck / I’d fill ‘em
with my load. . . .

43a
I wish that all the ladies / were statues of
Venus / and I was a sculptor / I’d break ‘em
with my penis.
App’x 15.
If West Point were a private college receiving federal
funding or another public educational institution and
allegations such as these were proven, there clearly
would be a violation of Doe’s rights and she could seek
recourse for her injuries. The Government argues,
however, that the individual defendants are immune
from suit because they are military officers. And while
it acknowledges that “[s]exual assault in the military
and at service academies cannot be tolerated,” it
argues that Doe is a service member and that “service
members may not sue their superiors for injuries that
arise incident to military service,” Appellants’ Br. at 2,
relying on the concept of intramilitary immunity as set
forth in Feres v. United States, 340 U.S. 135 (1950),
and its progeny. The majority accepts the argument.
I do not agree that the Feres doctrine applies, for in
my view Doe’s injuries did not arise “incident to
military service.” When she was subjected to a pattern
of discrimination, and when she was raped, she was
not in military combat or acting as a soldier or
performing military service. Rather, she was simply a
student, and her injuries were incident only to her
status as a student. When she was raped, she was
taking a walk on a college campus with another student, someone she thought was a friend. The actions
and decisions she now challenges had nothing to
do with military discipline and command; instead,
she seeks recourse for injuries caused by purported
failures on the part of school administrators acting in
an academic capacity overseeing a learning environment for students.

44a
While West Point is indeed a military facility, it is
quintessentially an educational institution. As its
website proclaims, it is “one of the nation’s top-ranked
colleges,” and it provides its “students with a top-notch
education.”1 In my view, the Feres doctrine does not
bar Doe’s equal protection claims. For these and other
reasons discussed below, I would affirm the district
court’s decision denying the individual defendants’
motion to dismiss the equal protection claim. Accordingly, I dissent.
I.
As alleged in the amended complaint, the facts are
summarized as follows:
Doe is a former cadet who resigned from West Point
in 2010 after completing two years. She grew up in a
military family and graduated near the top of her class
in high school. At West Point she “thrived academically, participated in extracurricular activities, and
ranked high in her class.” App’x 14. Because she left
West Point before the start of her third year, she never
assumed active status and had no obligation to enlist
as a soldier. See 32 C.F.R. § 217.6(f)(6)(ii)(A).2 Her
1

Letter from Col. Deborah J. McDonald, West Point Director
of Admissions, to High School Seniors, http://www.usma.edu/
admissions/Shared%20Documents/COL-web-letter.pdf; see also
United States Military Academy, http://www.westpoint.edu/ (last
visited Aug. 29, 2017) (“The Academy provides a superb four-year
education, which focuses on the leader development of cadets in
the academic, military, and physical domains, all underwritten
by adherence to a code of honor.”).
2

“Fourth and Third Classmen (First and Second Years). A
fourth or third classman disenrolled will retain their MSO
[Military Service obligation] in accordance with 10 U.S.C. chapter
47 and DoD Instruction 1304.25 but have no active duty service
obligation (ADSO).” 32 C.F.R. § 217.6(f)(6)(ii)(A) (emphasis

45a
obligations to the military did not vest, and she was
not contractually required to repay the cost of her
education.
West Point has an enrollment of approximately
4,600 cadets and a faculty of some 600 individuals, of
whom three‐quarters are military personnel and one‐
quarter are civilian employees. Cadets live on‐campus
in dormitories all four years and eat in dining halls.
The curriculum ʺis designed to train ‘officer‐ leaders of
character to serve the Army and the Nation,’” App’x 3,
and thirty‐six majors are offered, including Politics,
Art, Philosophy and Literature, Engineering, History,
Physics and Sociology.3 West Point is accredited by the
Middle States Commission on Higher Education, the
accreditation unit for the Middle States Association of
Colleges and Schools.4 Cadets may participate in numerous extracurricular activities, including athletics,
honor societies, academic competitions, and musical
groups. West Point fields athletic teams in twenty‐
four NCAA Division I sports and twenty‐one club
sports. Upon graduation, West Point cadets earn a
added). See also 32 C.F.R. § 217.4(d) (“Cadets and midshipmen
disenrolling or those disenrolled after the beginning of the third
academic year from a Service academy normally will be called to
active duty in enlisted status, if fit for service.”) (emphasis
added).
3

West Point Curriculum, http://www.usma.edu/curriculum/
SitePages/Home.aspx.
4

The Middle States Commission on Higher Education conducts accreditation activities for institutions of higher education
in states in the mid‐Atlantic region, including New York. Middle
States Commission on Higher Education, http://www.msche.org/
(last visited Aug. 29, 2017). West Point is one of many institutions
accredited by the organization. See Institution Directory, Middle
States Commission on Higher Education, http://www.msche.org/
institutions_directory.asp (last visited Aug. 29, 2017).

46a
Bachelor of Science degree and become commissioned
as second lieutenants in the U.S. Army.
Approximately 200 of the 1,300 cadets in Doe’s
entering class were women. Doe was often the only
woman in a squad of approximately ten cadets. During
her time at West Point, she was subjected to pervasive
sexual harassment and a culture of sexual violence.
Her classmates regularly made misogynistic and sexually aggressive comments, which were frequently
ignored and sometimes condoned by West Point
administrators. During team-building exercises, cadets
would march and sing “sexual, misogynistic chants,”
such as the one quoted above, in view and earshot of
faculty and administrators. App’x 16. Male cadets
often used derogatory terms to describe women and
frequently made contemptuous comments about the
physical appearance of women. West Point officials
ignored or endorsed these comments, and openly joked
with male cadets about sexual exploits. Male faculty
members routinely expressed sympathy with male
cadets over the lack of opportunities to have sex,
and suggested that they seize any chance they could to
do so.
There were other disparities in the treatment of
male and female cadets. West Point officials required
mandatory annual sexually transmitted disease
(“STD”) testing for female cadets, but not male cadets,
explaining that STDs were more harmful to women
than to men and therefore it was the responsibility of
women to prevent the spread of these diseases. In the
Physical Education program in the first year at West
Point, male cadets were required to take boxing while
female cadets were required to take self-defense.
While West Point provided training for the prevention of sexual assault and harassment, the training

47a
was inadequate. West Point officials provided only
limited training on the concepts of respect and consent, while sending the message to female cadets that
it was “a woman’s responsibility” to prevent sexual
assault and that “it was their job to say ‘no,’ when
faced with inevitable advances from their male colleagues.” App’x 18. West Point officials failed to punish
cadets who perpetrated sexual assaults and created
an environment in which male cadets understood that
they could sexually assault female colleagues with
“near impunity,” while female cadets understood
“that they risked their own reputations and military
careers” by reporting sexual assaults against them.
App’x 18. The vast majority of faculty members and
administrators were male.
A 2010 Department of Defense (“DoD”) survey found
that fifty-one percent of female cadets and nine
percent of male cadets reported that they had experienced sexual harassment at West Point.5 The survey
found that more than nine percent of the female cadets
at West Point experienced unwanted sexual contact in
2010, and some eighty-six percent of these women did
not report the incident6 Of the female cadets who did
not report unwanted sexual contact, seventy-one percent feared “people gossiping about them” and seventy
percent “felt uncomfortable” making a report.7 In
5

See Paul J. Cook & Rachel N. Lipari, Defense Manpower
Data Center, 2010 Service Academy Gender Relations Survey, at
iv-v (2010), http://www.sapr.mil/public/docs/research/FINAL_SA
GR_2010_Overview_Report.pdf.
6
Id. at iv-v.
7
Id. at v. Underreporting of sexual violence on college
campuses is a significant issue. See Laura L. Dunn, Addressing
Sexual Violence in Higher Education: Ensuring Compliance with
the Clery Act, Title IX and VAWA, 15 Geo. J. Gender & L. 563,
566 (2014).

48a
2011, DoD found that West Point was only “partially
in compliance” with sexual harassment and assault
policies, and that West Point’s prevention training was
“deficient,” did not meet the minimum standard of
annual training for cadets, lacked an institutionalized
comprehensive sexual assault prevention and response curriculum, and failed to comply with DoD
directives intended to reduce rape and sexual assault.8
Defendants-appellants Lieutenant General Franklin
Lee Hagenbeck, the Superintendent of West Point
from July 2006 to July 2010, and Brigadier General
William E. Rapp, Commander of Cadets at West Point
from 2009 to 2011, were responsible for administering
the sexual assault prevention and response program
and the training of cadets on campus during the
relevant time period. According to the amended complaint, however, instead of implementing programs
and policies to educate and protect students, defendants created, promulgated, implemented, and administered the policies, practices, and customs at issue.
The 2009-2010 DoD Annual Report on Sexual Harass8

The statistics at West Point are representative of a largescale epidemic of sexual assault and harassment of women on
college campuses around the country. A 2006 study concluded
that “[o]ne in five women is sexually assaulted while in college.”
See White House Task Force To Protect Students from Sexual
Assault, Not Alone: The First Report of the White House Task
Force to Protect Students from Sexual Assault 6 (2014), https://
www.justice.gov/ovw/page/file/905942/download. A 2015 survey
of 27 U.S. universities by the Association of American Universities found that approximately one-third of female undergraduates reported experiencing non-consensual sexual contact at least
once. David Cantor et al., Westat, Report on the Association of
American Universities Campus Climate Survey on Sexual Assault
and Sexual Misconduct, at xi (2015), http://www.aau.edu/
uploadedFiles/AAU_Publications/AAU_Reports/Sexual_Assault_
Campus_Survey/AAU_Campus_Climate_Survey_12_14_15.pdf.

49a
ment and Violence at Military Service Academies
found that trends of unwanted sexual contact experienced by female cadets increased during the time
Hagenbeck and Rapp were, respectively, Superintendent and Commander of Cadets.
On May 8, 2010, around 1 a.m., a male cadet stopped
by Doe’s dormitory room and invited her for a walk. It
was after curfew, and Doe had earlier taken a sedative
prescribed to help her sleep because she had been
suffering from anxiety and stress. Nonetheless, she
agreed to go with him. They eventually walked into an
administrative building and the male cadet began
drinking alcohol, offering Doe a few sips. She took
them, and then lost consciousness as the alcohol mixed
with her medication. The male cadet then took advantage, attacking Doe and having “forcible, nonconsensual intercourse with her,” on the concrete floor
of a boiler room. App’x 22. She woke up in her own bed
a few hours later, with dirt on her clothes and hair,
bruises on her lower back, and blood between her legs.
Three days later, when she went for a vaginal examination at West Point’s health clinic, there were signs
of vaginal tearing. She eventually left West Point,
enrolling at a four-year college from which she earned
a degree.
Doe brought this action below against the United
States under the Federal Tort Claims Act (the
“FTCA”), 28 U.S.C. §§ 1346(b), 2671 et seq., and the
Little Tucker Act, 28 U.S.C. § 1346(a)(2), as well as
against Hagenbeck and Rapp in their individual
capacities under Bivens v. Six Unknown Named
Agents of Federal Bureau of Narcotics, 403 U.S. 388
(1971), for due process and equal protection violations.
The district court dismissed the claims against the
United States as well as the due process claim, and

50a
permitted Doe to pursue only her equal protection
claim against the individual defendants. The district
court held that the Feres doctrine did not bar the equal
protection claim and that the individual defendants
were not entitled to qualified immunity. Only the
district court’s denial of defendants’ motion to dismiss
the equal protection claim is before us on this interlocutory appeal.9
II.
A. Equal Protection
Since 1971, the Supreme Court “has repeatedly
recognized that neither federal nor state government
acts compatibly with the equal protection principle
when a law or official policy denies to women, simply
because they are women, full citizenship stature —
equal opportunity to aspire, achieve, participate in
and contribute to society based on their individual
talents and capacities.” United States v. Virginia, 518
U.S. 515, 532 (1996) (“VMI”) (citing, inter alia, Reed v.
Reed, 404 U.S. 71 (1971)). In VMI, the Court held that
Virginia’s policy of excluding women from enrolling in
its historically single-sex military college violated the
Equal Protection Clause of the Fourteenth Amendment. 518 U.S. at 534. Similarly, in Mississippi
University for Women v. Hogan, 458 U.S. 718, 733
(1982), the Court held that a state university’s policy
of admitting only women to its nursing programs
violated the Equal Protection Clause.
9

Because the majority holds that Doe’s equal protection
claims are barred by the Feres doctrine, it does not reach the
Government’s alternative argument that the individual defendants are entitled to qualified immunity. Accordingly, I do not
discuss the qualified immunity issue, but simply note that I
believe the district court correctly rejected the defense at the
motion-to-dismiss stage.

51a
These principles apply not just to gender discrimination in admissions to educational institutions but to
the continued treatment of students after they have
been admitted. See, e.g., Fitzgerald v. Barnstable Sch.
Comm., 555 U.S. 246, 258 (2009) (holding plaintiffs
could pursue claims against school system and
superintendent for “unconstitutional gender discrimination in schools” under § 1983, where defendants
purportedly failed to address sexually harassing
conduct by another student). Courts have thus recognized equal protection claims where gender discrimination created a hostile educational environment.
See, e.g., Hayut v. State Univ. of New York, 352 F.3d
733, 743-46 (2d Cir. 2003) (allowing § 1983 equal
protection claim by student against professor for
hostile educational environment created by “derogatory and sexually-charged comments”). Moreover, the
Supreme Court has recognized a Bivens claim for
gender discrimination, holding that the Equal
Protection Clause of the Fifth Amendment confers “a
federal constitutional right to be free from gender
discrimination.” Davis v. Passman, 442 U.S. 228, 235
(1979) (holding that former congressional staff member could sue U.S. Congressman for damages under
Fifth Amendment for discriminating against her on
basis of sex).
Equal protection and other constitutional principles
have been applied to the military and military
institutions. In Frontiero v. Richardson, the Court
held that a statutory scheme for housing allowances
and spousal medical and dental benefits that applied
different standards for male and female active service
members was “constitutionally invalid.” 411 U.S. 677,
688 (1973). See also Fitzgerald, 555 U.S. at 257
(observing that students at “military service schools
and traditionally single-sex public colleges,” which are

52a
exempt from Title IX of Educational Amendments of
1972, 20 U.S.C. § 1681(a), could bring § 1983 claims
for violation of equal protection clause); VMI, 518 U.S.
at 535-36, 547-54; Schlesinger v. Ballard, 419 U.S. 498
(1975) (rejecting, but reaching merits, of claim challenging different discharge policies for male and
female officers, based on then-existing exclusion of
women from combat roles). In Crawford v. Cushman,
we observed that “a succession of cases in this circuit
and others had reiterated the proposition that the
military is subject to the Bill of Rights and its
constitutional implications.” 531 F.2d 1114, 1120 (2d
Cir. 1976); see also Dibble v. Fenimore, 339 F.3d 120,
128 (2d Cir. 2003) (“We decline to adopt a categorical
rule on the justiciability of intramilitary suits.”).
The military has itself adopted regulations to
address the issue of gender discrimination and sexual
harassment. Army regulations unambiguously prohibit sexual harassment, and commanders and supervisors are obliged to ensure that sexual harassment is
not tolerated.10 All military academies (including West

10

See, e.g., U.S. Army Reg. 600-20, Ch. 7-3(a) (Mar. 18, 2008)
(“The policy of the Army is that sexual harassment is unacceptable conduct and will not be tolerated.”); id. Ch. 7-3(b) (“The POSH
[Prevention of Sexual Harassment] is the responsibility of every
Soldier. . . . Leaders set the standard for Soldiers . . . to follow.”);
id. Ch. 7-2(a) (“Commanders and supervisors will . . . [e]nsure
that assigned personnel . . . are familiar with the Army policy on
sexual harassment.”); id. Ch. 7-2(d) (“Commanders and supervisors will . . . [s]et the standard.”); id. Ch. 7-4(a) (defining “sexual
harassment” to include physical or verbal conduct); id. Ch. 7-6(b)
(“A hostile environment occurs when Soldiers or civilians are
subjected to offensive, unwanted and unsolicited comments, or
behaviors of a sexual nature [including] for example, the use of
derogatory gender-biased terms, comments about body parts,
suggestive pictures, explicit jokes, and unwanted touching.”).

53a
Point) must comply with regulations promulgated by
DoD as part of its Sexual Assault Prevention and
Response Program.11
Hence, Doe was entitled, under the Fifth Amendment and the Army’s own regulations, to an environment free from gender discrimination and sexual
harassment.
B. The Feres Doctrine
In 1950, the Supreme Court held in Feres v. United
States that “the Government is not liable under the
[FTCA] for injuries to servicemen where the injuries
arise out of or are in the course of activity incident to
service.” 340 U.S. at 146. Feres involved three cases,
brought by or on behalf of servicemen against the
United States for personal injuries, sustained ʺwhile
on active duty and not on furlough,” purportedly
caused by the “negligence of others in the armed
forces.” Id. at 137‐38. In two of the cases, death
resulted. Id. at 137. The Court held that Congress did
not intend to subject the Government to tort claims “by
a member of the armed services.” Chappell v. Wallace,
462 U.S. 296, 299 (1963) (interpreting Feres).
The Court later extended the concept of intramilitary immunity to Bivens claims. A Bivens remedy is
not available when “special factors counseling hesitation” are present. Bivens, 403 U.S. at 396; see Ziglar v.
Abbasi, 137 S. Ct. 1843, 1857 (2017) (“The Court’s
precedents now make clear that a Bivens remedy will
not be available if there are ‘special factors counseling
Army regulations expressly acknowledge that “[s]exual harassment is a form of gender discrimination.” Id. Ch. 7-4.
11

See 32 C.F.R. § 103.5; U.S. Dep’t of Def. Dir. 6495.01 (Jan.
23, 2012), https://www.hsdl.org/?abstract&did=761622.

54a
hesitation in the absence of affirmative action by
Congress.’” (citation omitted)). In Chappell, the Court
recognized that “the unique disciplinary structure of
the military establishment and Congress’ activity in
the field constitute ‘special factors’ which dictate that
it would be inappropriate to provide enlisted military
personnel a Bivens‐type remedy against their superior
officers.” Chappell, 462 U.S. at 304; see also United
States v. Stanley, 483 U.S. 669, 683‐84 (1987) (recognizing that rationales for intramilitary immunity as
explained in Feres are “special factors” counseling
against Bivens relief, and “holding that no Bivens
remedy is available for injuries that arise out of or are
in the course of activity incident to service’”) (quoting
Feres, 340 U.S. at 146).
At the same time, however, “our citizens in uniform
may not be stripped of basic civil rights simply because
they have doffed their civilian clothes.” Earl Warren,
The Bill of Rights and the Military, 37 N.Y.U. L. Rev.
181, 188 (1962) (quoted in Chappell, 462 U.S. at 304).
As the Court noted in Chappell: “This Court has never
held, nor do we now hold, that military personnel are
barred from all redress in civilian courts for constitutional wrongs suffered in the course of military
service.” 462 U.S. at 304‐05. Indeed, members of the
military have been permitted, after Feres, to bring
constitutional challenges against the Government
with respect to matters relating to the military. See
Frontiero, 411 U.S. at 688; accord Regan v. Starcraft
Marine, LLC, 524 F.3d 627, 640‐41 (5th Cir. 2008)
(Feres did not bar suit brought by service member
“engaged in purely recreational activity” “not related
to any tactical or field training,” even where recreational facility was provided “to improve the morale and
welfare” of service members); Crawford, 531 F.2d
at 1125‐27 (holding, where servicewoman was dis-

55a
charged from Marines because she was pregnant, that
her rights to equal protection and due process were
violated, and ordering award of damages). See also
Schlesinger, 419 U.S. at 508‐10; Parker v. Levy, 417
U.S. 733, 758‐60 (1974) (rejecting, but reaching merits
of, First Amendment challenge brought by Army
captain convicted by general court‐martial of violations of Uniform Code of Military Justice, and
observing that “the members of the military are not
excluded from the protection granted by the First
Amendment”).
In cases decided after Feres, the Court has explained
the ʺbroad rationalesʺ underlying its determination
that soldiers may not maintain tort suits against the
Government or members of the military for injuries
arising incident to military service. United States v.
Johnson, 481 U.S. 681, 688 (1987). First, there is a
“unique relationship between the Government and
military personnel,ʺ Chappell, 462 U.S. at 299, that is
“‘distinctively federal in character.’” Johnson, 481 U.S.
at 689 (quoting Feres, 340 U.S. at 143). The military
function is performed “ in diverse parts of the country
and the world,” and when a service member is injured
“incident to service — that is, because of his military
relationship with the Government” — a uniform
federal remedy should be available, and “the fortuity
of the situs of the alleged negligence” should not
dictate whether the Government is liable. Id.
Second, Congress has established alternative, statutory means of compensation for military personnel
injured incident to service. As the Court observed in
Johnson, “the existence of these generous statutory
disability and death benefits is an independent reason
why the Feres doctrine bars suit for service‐related
injuries.” Id. It is not likely, the Court has concluded,

56a
that Congress would have created “‘systems of simple,
certain, and uniform compensation for injuries or
death of those in the armed services’” while intending
at the same time to permit lawsuits for service‐related
injuries under the FTCA. Chappell, 462 U.S. at 299
(quoting Feres, 340 U.S. at 144).12
Third, suits based upon service‐related activity
“‘would involve the judiciary in sensitive military
affairs at the expense of military discipline and
effectiveness.’” Johnson, 481 U.S. at 691 (quoting
Shearer, 473 U.S. at 57). Courts should not intrude in
military matters, the Court has explained, because “a
suit based upon service‐related activity necessarily
implicates the military judgments and decisions that
are inextricably intertwined with the conduct of the
military mission.” Johnson, 481 U.S. at 691; see United
States v. Shearer, 473 U.S. 52, 59 (1985) (“Feres seems
best explained by the peculiar and special relationship
of the soldier to his superiors, the effect of the maintenance of such suits on discipline, and the extreme
results that might obtain if suits . . . were allowed for
negligent orders given or negligent acts committed in
the course of military duty.”) (internal quotation
marks omitted).

12

In subsequent cases, the courts have recognized that “the
presence of a compensation system, persuasive in Feres, does not
of necessity preclude a suit for negligence.” United States v.
Muniz, 374 U.S. 150, 160 (1963) (citing United States v. Brown,
348 U.S. 110 (1954)); see also Taber v. Maine, 67 F.3d 1029, 1039
(2d Cir. 1995) (“Indeed, the Supreme Court and several circuit
courts (without reproof from the Supreme Court) have subsequently . . . allowed FTCA claims in a significant number of cases
in which the injured plaintiffs were fully covered by the government’s compensation scheme.”).

57a
In Taber v. Maine, after reviewing the Supreme
Court case law, we summarized the various considerations and held that:
an appropriate test for applying the Feres
doctrine must respect: (1) the Supreme
Court’s stated concern for keeping courts
away from delicate questions involving military discipline; (2) Feres’s clear intention to
replace the contingencies of local tort law
with a uniform federal scheme; and (3) Feres’s
original desire that this uniformity is to be
achieved through exclusive recourse to the
federal system of military death and disability benefits.
67 F.3d 1029, 1049 (2d Cir. 1995).
In Taber, the plaintiff Taber was a Navy “Seabee” —
a construction worker — who was injured in Guam
when his car was struck by a car driven by another
Navy serviceman, Maine. Id. Both were on active duty
but on liberty, and the accident occurred on a public
road. Id. Taber had spent the day with his companion
and they were driving back to her home for the
weekend when the accident occurred. Id. He sued the
United States and Maine for his injuries, which he
alleged were caused by Maine’s negligent driving. Id.
The Government defended in part by relying on the
Feres doctrine, and the district court agreed, dismissing the claims. Id. at 1033.
On appeal, the Second Circuit reversed, holding that
“the link between Taber’s activity when he was injured
and his military status is too frail to support a Feres
bar.” Id. at 1050. The Court explained that “[t]here is
nothing characteristically military about an employee
who, after working-hours are done, goes off to spend a

58a
romantic weekend with a companion. . . . The accident
that followed, on the open road and on the way to [the
companion]’s house[,] had ‘nothing to do with’ Taber’s
military career and was ‘not caused by service except
in the sense that all human events depend upon what
has already transpired.ʹʺ Id. at 1051 (quoting Brooks
v. United States, 337 U.S. 49, 52, 69 (1949)).
Taber teaches us that military status does not
automatically trigger Feres immunity. Rather, we
apply the incident to service test by asking whether,
at the time the plaintiff was injured, she was ʺengaged
in activities that fell within the scope of [her] military
employment.” 67 F.3d at 1050. In Wake v. United
States, we reiterated that we must look at “the totality
of the germane facts,” and noted that “[i]n examining
whether a service member’s injuries were incurred
‘incident to service,’ the courts consider various
factors, with no single factor being dispositive.” 89
F.3d at 57‐58. In addition to “[t]he individual’s status
as a member of the military at the time of the
incident,” those factors include: “the relationship of
the activity to the individual’s membership in the
service”; “the location of the conduct giving rise to the
underlying tort claim”; “whether the activity is limited
to military personnel and whether the service member
was taking advantage of a privilege or enjoying a
benefit conferred as a result of military service.” Id. at
58.13
13

In Wake, we applied Feres to bar claims brought by a student
in the Reserve Officers Training Corps at a nonmilitary college.
89 F.3d at 55. The student was an enlisted inactive member of
the Navy Reserves who was assigned to “temporary duty” to
travel to a military clinic for a physical examination required to
qualify as a flight navigator. Id. at 56. On the way back, while
traveling in a military vehicle driven by a Marine Corps sergeant,
she was injured. Id. at 55-56. We concluded, not surprisingly, that

59a
C. Application of the Feres Doctrine to this Case
In my view, the Feres doctrine does not bar Doe’s
Bivens claim that she was denied her constitutional
right to equal access to education, for her injuries did
not arise “incident to service.” First, as to the activities
immediately preceding Doe’s rape, her ultimate injury,
she was engaged in purely recreational activity: she
was out for an evening walk on a college campus, after
curfew, with another student who was a friend.
Second, as to her broader activities at West Point, she
was a student attending college: she was taking
classes, participating in extracurricular activities,
and learning to grow up and to be a self‐sufficient
and healthy individual. She was not a soldier on a
battlefield or military base. She was not traveling in a
military car or boat or plane or pursuant to military
orders. She was not being treated by military doctors.
She was not on duty or in active service or on active
status, and she was not yet obliged to enter into
military service. There was “nothing characteristically
military” about what she was doing, and her injuries
did not arise out of military employment.
To be sure, West Point serves, to some extent, a
military purpose, and its cadets are indeed being
trained to be soldiers and officers. As the Government
and the majority note, West Point cadets are considered members of the military. Appellants’ Br. at 14;
the student’s injuries were sustained incident to service. See id.
at 58-61. While Wake was indeed a student, she was on a “temporary duty” assignment and was traveling in a military vehicle
driven by an active service member. Moreover, she received
military benefits for her injury — she “was assigned a 100%
disability rating from the [Veterans Administration] on January
5, 1993, resulting in monthly VA service-connected compensation
benefits of approximately $2,000 per month.” Id. at 62.

60a
Maj. Op. at 18-19 (citing 10 U.S.C. § 3075(a)- (b)(2)
(including “cadets of the United States Military
Academy” in the “Regular Army,” “a component of the
Army”)). But Doe’s status as a member of the military
is not, by itself, dispositive. See Wake, 89 F.3d at 58-61
(declining to attribute dispositive weight to plaintiff’s
status as a cadet but looking at all germane circumstances); Taber, 67 F.3d at 1053 (holding that Feres
was not a bar where “[o]ther than the naked fact that
Taber was in the Navy at the time of his injury, there
is no government/plaintiff relationship of any significance in this case”). Rather, West Point functions
principally as a school and Doe was primarily a
student; the concerns underlying the Supreme Court’s
decision in Feres and the “special factors counseling
hesitation” in the intramilitary immunity cases simply
are not implicated here.
First, Doe’s claims do not implicate “delicate questions involving military discipline.” Taber, 67 F.3d at
1049. Her claims do not call into question “the military
judgments and decisions that are inextricably intertwined with the conduct of the military mission.”
Johnson, 481 U.S. at 691. The actions and decisions of
the individual defendants being challenged here do
not implicate, except perhaps in the most abstract
sense, military discipline or military judgment or
military preparation.14 Instead, Doe’s claims challenge
14

The Government argues that Doe’s claims “call[] into question the management of the military,” “specifically their decisions
concerning the discipline, supervision, and control of West Point
cadets.” Appellants’ Br. at 10. I suppose that may be so to a
degree, but our observation in Taber applies here: “Arguably,
there is some government/tortfeasor relationship that might
entail minimal disciplinary concerns even in this case, but these
are both qualitatively and quantitatively different from those
that concerned us in [other cases implicating Feres], let alone

61a
academic decisions and policies, and the individual
defendants were acting as educators and school
administrators, tasked with providing their students
with a positive learning environment, one free from
sexual discrimination and harassment. See VMI, 518
U.S. at 532 (recognizing right to equal protection in
education, including at a military educational institution); Hagopian v. Knowlton, 470 F.2d 201, 210 (2d
Cir. 1972) (comparing West Point’s responsibility for
instilling discipline in cadets “to the responsibilities of
public school teachers to educate their students”).
Second, the “federal system of military death and
disability benefits” established by Congress for injuries sustained by military personnel incident to service, Taber, 67 F.3d at 1049, apparently is not available to Doe. Indeed, now that her claims against the
United States have been dismissed, it appears that her
Bivens claim is her only means of seeking relief for her
injuries. The Government has not suggested that Doe
is eligible for any benefits akin to workers’ com-

those that troubled the Supreme Court in Shearer.” 67 F.3d at
1053. Moreover, as amici point out, many graduates of military
academies use their degrees to pursue other professional, nonmilitary endeavors immediately after meeting minimum service
requirements. See Amicus Br. of Former Military Officers at 10
(citing Government Accountability Office study reporting that
32% and 38% of academy graduate officers in, respectively, 2001
and 2005 left in their fifth year, the first year officers were eligible
to leave military). While a four-year college degree is required to
be commissioned as an Army officer, admission to West Point is
not; in fact, in Fiscal Year 2011, only 14.6% of Army officers were
commissioned by attending West Point. See Amicus Br. of Former
Military Officers at 11 (citing Table B-31: Active Component
Commissioned Officer Corps, FY 11, http://prhome.defense.gov/
Portals/52/Documents/POPREP/poprep2011/appendixb/b_31.html
(last visited Aug. 29, 2017).

62a
pensation benefits for injuries arising out of activities
within the scope of her military duties.
Third, the district court’s decision to permit Doe to
proceed with her federal constitutional claim does not
implicate the Court’s concern that a “uniform federal
scheme” not be displaced by “the contingencies of local
tort law.” Taber, 67 F.3d at 1049. Federal constitutional rights are at stake, and “the fortuity of the situs
of the alleged [wrongdoing]” will not dictate whether
the individual defendants will be liable. Johnson, 481
U.S. at 688. Rather, Doe’s equal protection claim is a
federal claim, based on federal constitutional law: the
Equal Protection Clause of the Fifth Amendment.
Moreover, there are federal regulations that also
apply here, and Doe alleges that defendants failed to
abide by them. The concern identified in Feres and its
progeny that courts not interfere with military discipline and structure carries little weight when the
military is violating its own rules and regulations. See
Crawford, 531 F.2d at 1120 (noting that “[a] line of
cases in our court holds that actions by the armed
services that are violative of their own regulations are
within the reach of the courts”) (collecting cases);
Hammond v. Lenfest, 398 F.2d 705, 715 (2d Cir. 1968)
(permitting review of petition for writ of habeas corpus
where naval reservist claimed he was denied discharge by Navy in violation of its own regulations).
Judicial review of Doe’s allegations that the individual
defendants failed to follow mandatory military directives and regulations would not unduly interfere with
“the proper and efficient operation of our military
forces.” Smith v. Resor, 406 F.2d 141, 146 (2d Cir.
1969).
The Government cites three cases that have applied
the Feres doctrine to dismiss claims brought by service

63a
academy cadets. See Appellants’ Br. at 14 (citing
Miller v. United States, 42 F.3d 297, 301 (5th Cir.
1995); Collins v. United States, 642 F.2d 217, 218 (7th
Cir. 1981); Archer v. United States, 217 F.2d 548, 552
(9th Cir. 1954)). These out-of-circuit cases, of course,
are not controlling, and they are in any event distinguishable. In Miller, a freshman midshipman at the
Naval Academy was hit in the head by the boom of a
sailboat while training to learn, inter alia, seamanship
and the handling of a small vessel. 42 F.3d at 299. In
Collins, an Air Force cadet alleged that he was injured
by medical malpractice on the part of Air Force
medical personnel. 642 F.2d at 218. In Archer, a West
Point cadet was aboard a United States Army plane
returning to West Point from a leave. He was being
transported as “a soldier in military service in line of
duty” and was killed when the plane crashed. His
parents brought a wrongful death action against the
United States, alleging negligence in the operation of
the plane. 217 F.2d at 549, 551.
These factual scenarios are significantly different
from the circumstances before us now. Injuries resulting from training aboard a Navy boat or flying on
an Army plane or being treated by military doctors
clearly are injuries incident to service. None of the
cases involved a claim for the violation of constitutional rights, see Harlow v. Fitzgerald, 457 U.S. 800,
814 (1982) (damages suits “may offer the only realistic
avenue for vindication of constitutional guarantees”),
and none involved a claim for the deprivation of the
opportunity for an equal education, or a claim of an
injury sustained while socializing with a classmate.
Moreover, in all three cases, the armed forces provided
disability or death benefits or other compensation.
Miller, 42 F.3d at 299-300, 306, 307; Collins, 642 F.2d
at 221; Archer, 217 F.2d at 550.

64a
Finally, the majority and the Government rely on
two recent decisions of other Circuits rejecting Bivens
claims brought by current and former service members alleging they had been raped and sexually
assaulted by other service members. The plaintiffs in
these cases contended that the actions and omissions
of current and former Secretaries of Defense had
created a military culture of tolerance for sexual
assault and misconduct. See Klay v. Panetta, 758 F.3d
369, 371-72 (D.C. Cir. 2014); Cioca v. Rumsfeld, 720
F.3d 505, 513-14 (4th Cir. 2013). The cases, however,
are distinguishable, for they involved active duty
service members who brought broad challenges to
policies of high-ranking government officials, raising
questions as to military discipline and command for
those in active duty. The cases did not involve students
or an educational institution or the deprivation of
meaningful access to an education because of discriminatory academic policies or school administrators
tasked with running an educational institution. The
Feres concerns — particularly the question of interfering with military command and discipline — play out
very differently in this scenario.15 As Justice Brennan
wrote in Stanley:
In Chappell, the Court did not create an
inflexible rule, requiring a blind application
of Feres in soldiers’ cases raising constitutional claims. Given the significant interests
protected by Bivens actions, the Court must
consider a constitutional claim in light of the
15

Klay and Cioca are also distinguishable because they do not
employ the fact-specific, totality-of-circumstances approach our
Circuit applied in Taber and Wake. Instead, they rely primarily
on one consideration: military discipline and decision-making.
See Klay, 758 F.3d at 374-75; Cioca, 720 F.3d at 512-15.

65a
concerns underlying Feres. If those concerns
are not implicated by a soldier’s constitutional claim, Feres should not thoughtlessly
be imposed to prevent redress of an intentional constitutional violation.
483 U.S. at 705 (Brennan, J., concurring in part and
dissenting in part, with Marshall, J., joining, and
Stevens, J., joining in relevant part).
III.
The Feres doctrine has been criticized wide and far,
and many have called for the Supreme Court to
reconsider it.16 While we do not, of course, have the
authority to overrule Feres, we should not be
extending the doctrine. See Lombard v. United States,
690 F.2d 215, 233 (D.C. Cir. 1982) (Ginsburg, J.,
16

See, e.g., Lanus v. United States, 133 S. Ct. 2731, 2732
(Thomas, J., dissenting from denial of certiorari) (“I would grant
the petition to reconsider Feres . . . .”); Ortiz v. United States, 786
F.3d 817, 818 (10th Cir. 2015) (“[T]he facts here exemplify the
overbreadth (and unfairness) of the doctrine, but Feres is not ours
to overrule.”); France v. United States, 225 F.3d 658, (6th Cir.
2000) (per curiam) (“[M]any courts and commentators have
strongly criticized the Feres decision.”); Day v. Mass. Air. Natʹl
Guard, 167 F.3d 678, 683 (1st Cir. 1999) (“Possibly Feres . . .
deserves reexamination by the Supreme Court.”); Bozeman v.
United States, 780 F.2d 198, 200 (2d Cir. 1985) (“The Feres
doctrine is a blunt instrument; courts and commentators have
often been critical of it.”); Taber, 67 F.3d at 1044 n.11 (“The fact
that the doctrine can be made workable does not suggest that the
Supreme Court ought not abandon the doctrine completely for
reasons akin to those given by Justice Scalia in his Johnson
dissent.”); 14 Charles Alan Wright et al., Federal Practice &
Procedure § 3658 (4th ed. 2015) (ʺThe Feres doctrine has
been called ‘much‐criticized’ and ‘controversial.’”); Erwin
Chemerinsky, Federal Courts Jurisdiction 674 (6th ed. 2012)
(noting that many commentators and courts have “sharply
criticized” the Feres doctrine for causing ʺmanifest injustice”).

66a
concurring in part and dissenting in part) (“While
lower courts are bound by the Supreme Court’s
decision in Feres, they are hardly obliged to extend the
limitation . . . .”). By holding that Doe’s injuries sustained as a cadet incident to being a student are
barred as injuries incident to military service, the
majority does precisely that.
I would affirm the district court’s determination
that the Feres doctrine does not bar Doe’s equal
protection claim. Accordingly, I dissent.

67a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
15-1890
————
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 10th day of September,
two thousand fifteen.
Present: Gerard E. Lynch,
Raymond J. Lohier, Jr.,
Circuit Judges.*
————
JANE DOE,
Plaintiff-Appellee,
v.
LT. GEN. FRANKLIN LEE HAGENBECK,
BRIG. GEN. WILLIAM E. RAPP,
Defendants-Appellants,
UNITED STATES OF AMERICA,
Defendants.**
————
*

The Honorable Susan L. Carney, who was originally a
member of the panel, recused herself. The appeal is being decided
by the remaining two members of the panel, who are in agreement. See Local Rule § 0.14.
**

The Clerk of Court is respectfully directed to amend the
official caption in this case to conform with the caption above. See
Fed. R. App. P. 43(c)(2).

68a
Appellants, through counsel, move pursuant to Federal Rule of Appellate Procedure 8(a) for a stay of
district court proceedings pending disposition of their
appeal of the district court’s order denying qualified
immunity. Appellee moves to transfer the case to the
Federal Circuit on the grounds that this Court lacks
jurisdiction over an appeal when the district court’s
jurisdiction was based at least in part on the Little
Tucker Act. Upon due consideration, it is hereby
ORDERED that Appellee’s motion is DENIED because
the district court’s jurisdiction was not based on the
Little Tucker Act, since Appellee’s contract claim
failed to present a substantial federal question. See
28 U.S.C. §§ 1295(a)(2), 1346(a)(2). It is further
ORDERED that the Appellants’ stay motion is
GRANTED. See In re World Trade Ctr. Disaster Site
Litig., 503 F.3d 167, 169-71 (2d Cir. 2007). The
Appellants are directed to file a scheduling notification
within 14 days of the date of entry of this order
pursuant to Second Circuit Local Rule 31.2.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

69a
APPENDIX F
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
[Filed April 13, 2015]
————
13 Civ. 2802 (AKH)
————
JANE DOE,
Plaintiff,
-againstLT. GEN. FRANKLIN LEE HAGENBECK,
BRIG. GEN. WILLIAM E. RAPP, and the
UNITED STATES OF AMERICA,
Defendants.
————
ORDER AND OPINION GRANTING IN PART
AND DENYING IN PART DEFENDANTS’
MOTION TO DISMISS COMPLAINT
————
ALVIN K. HELLERSTEIN, U.S.D.J.:
This case presents a novel legal question: whether
the federal judiciary must refrain from issuing remedial
relief and damages for the constitutional deprivation
of a woman’s equal protection right to a West Point
education free of discrimination and hostility, on the
ground that doing so would interfere with the right
and power of the Executive Branch to command, and
the Legislature’s right and power to legislate, with
respect to the nation’s military forces.

70a
Plaintiff Jane Doe (“Plaintiff’) alleges in her complaint that rampant sexual hostility at the United
States Military Academy at West Point (“West Point”)
forced her to resign as a cadet and be honorably
discharged in August 2010, before entering her
third year. She sues the Superintendent of West
Point, Lieutenant General Franklin Lee Hagenbeck
(“Hagenbeck”), and the Commandant of Cadets at
West Point, Brigadier General William E. Rapp (“Rapp”)
(collectively, the “Individual Defendants”), the two
officers in command of West Point at the time of the
violations alleged in her complaint, for violating her
constitutional rights. She also sues the United States
on contract and tort claims.
1

Defendants Hagenbeck, Rapp, and the United States
of America (the “United States”) (collectively, “Defendants”) move, pursuant to Fed. Rs. Civ. P. 12(b)(1) & (6),
to dismiss Plaintiff’s claims for lack of subject-matter
jurisdiction and for failure to state legally sufficient
claims for relief.
I hold in this opinion that Plaintiff has sufficiently
alleged rampant hostility toward, and discrimination
against, women at West Point; that the Individual
Defendants knowingly allowed such practices to continue in violation of statutory obligations requiring
them to put them to an end; that judicially-ordered
remedies would not compromise the legislative or
executive functions of government, including the
disciplinary role of the Executive Branch over the
nation’s military; and that it would be inappropriate
at this stage of the case for this Court to refrain from
1

By order dated August 15, 2013, I granted Plaintiffs motion,
without objection, to proceed under the fictitious name Jane Doe.
See Dkt. No. 13.

71a
hearing and considering the merits with respect to
Plaintiffs equal protection claim. For the reasons discussed in this opinion, I sustain the complaint against
Hagenbeck and Rapp on Plaintiffs equal protection
claim. However, I find that Plaintiffs due process
claim does not sufficiently plead causality to survive a
motion to dismiss. I dismiss also the counts against the
United States under the Federal Tort Claims Act and
the Little Tucker Act.
I. The Allegations of the Complaint
A. The Alleged Facts
Hagenbeck was West Point’s Superintendent between July 2006 and July 2010, and served as Chair
of its Sexual Assault Review Board (the “Board”). The
Board served as the primary oversight of West Point’s
sexual assault prevention program. As West Point’s
Commandant of Cadets, Rapp was in charge of the
administration and training of cadets from 2009 to
2011. Doe alleges that Hagenbeck and Rapp furthered
the pervasive culture of sexual violence and gender
discrimination at West Point.
Doe alleges that Hagenbeck and Rapp disregarded
statutory commands to eliminate sexual violence and
gender discrimination. 10 U.S.C. § 4361 provides that
the Secretary of Defense and the Superintendent of
West Point are to “prescribe a policy on sexual harassment and sexual violence applicable to the cadets and
other personnel of the Academy”, and provide “required
training on the policy for all cadets and other Academy
personnel”. Further, the Superintendent of West Point
is given a statutory responsibility to conduct yearly
assessments of the effectiveness of policies, training,
and procedures intended to reduce sexual harassment
and sexual violence. 10 U.S.C. § 4361(c). The Super-

72a
intendent of West Point is also required to conduct an
annual evaluation of the number of sexual assaults,
rapes, and other offenses involving cadets or West
Point faculty and report these statistics to the Department of Defense (“DOD”). 10 U.S.C. § 4361(d).
Doe alleges that Hagenbeck and Rapp failed to carry
out their statutory responsibilities. Doe alleges numerous examples of sexual assaults, sexual harassments,
and failures to punish perpetrators. In one instance,
despite repeated complaints by female cadets that
male supervisors inappropriately touched them and
made unsolicited offensive and sexual comments,
Hagenbeck and Rapp simply relieved the supervisors
of supervisory duties over the particular female cadets
making the complaints, without punishing the offending officers. In another example, a guest speaker on
the subject of military ethics concluded his speech by
hugging a woman and commenting that he liked hugging women because he liked their “bumps”. Despite
multiple complaints, West Point failed to respond to
correct such offensive conduct.
The West Point administration and faculty openly
joked with male cadets about having sex with female
cadets, lamenting the lack of “sexual opportunities” at
West Point, and advising male cadets to “seize any
chance to have sex”. Cadets marched through campus
shouting offensive lyrics in earshot of faculty and
administration who were aware that male cadets
sang these songs during “team building” exercises.
One example of this aggressive, violent language is
excerpted below:
I wish that all the ladies / were bricks in a pile
/ and I was a mason / I’d lay them all in style.

73a
I wish that all the ladies were holes in the
road / and I was a dump truck / I’d fill ‘em
with my load.
I wish that all the ladies / were statues of
Venus / and I was a sculptor / I’d break ‘em
with my penis.
Many West Point policies and practices pertaining
to sexual health, prevention of assault, and reporting
of incidents facially discriminated against women.
Female cadets, but not male cadets, were required to
submit to annual testing for sexually transmitted
diseases (“STDs”). In response to complaints about the
policy, West Point’s health administrators explained
that “it was the Army’s opinion that STDs were more
harmful to women than men and it was the responsibility of women to prevent their spread”. The sexual
assault prevention programs taught that the prevention of sexual assault was “a woman’s responsibility”
and it was the women’s job to say “no” when faced
with inevitable advances from their male colleagues.
Female cadets were informally advised either by other
cadets or by West Point personnel that their military
careers would suffer if they reported sexual assaults,
and they were made to understand that male cadets
would not face similarly adverse consequences. During
Doe’s first year at West Point, male cadets were
required to take boxing, and as the only difference in
curriculum, female cadets were required to take selfdefense classes.
Doe alleges that the annual reports required by
10 U.S.C. § 4361(d) show that the instances of sexual
assault and rape—including rapes by multiple
offenders—were actually increasing during the
Individual Defendants’ tenures, and that Hagenbeck
and Rapp failed to implement policies and practices to

74a
decrease—or at minimum halt the increase of—sexual
assault. A 2010 DOD survey stated that 51 percent of
female cadets (more than 100 women) and 9 percent of
male cadets had been sexually assaulted that year.
Yet, only 11 official reports of sexual assault had been
filed and only one cadet had been dismissed. The
survey stated that approximately 90 percent of sexual
assaults at West Point were not reported, and that 61
percent of female cadets chose not to report assaults,
believing that doing so would hurt their reputation
and expose them to retaliation.
The 2011 DOD Report (the “Report”) stated that
West Point was only “partially in compliance” with
DOD regulations mandating sexual assault training
and prevention. The Report concluded that West
Point’s sexual assault prevention training was “deficient” and failed to meet the minimum standard of
annual training for cadets. The Report stated that
West Point lacked an institutionalized comprehensive
Sexual Assault Prevention Response (“SAPR”) curriculum as required by statute, and failed to comply with
DOD directives intended to reduce rapes and sexual
assaults. Doe alleges that Hagenbeck and Rapp had
personal knowledge of these deficiencies, as under
the statute it was their responsibility to compile the
information for, and compose the substance of, these
reports. Despite this knowledge of pervasive sexual
violence and harassment, Hagenbeck and Rapp failed
to take the appropriate actions to implement their
statutory obligations.
Doe alleges she suffered from the culture of sexual
harassment and sexual assault while at West Point,
including from male cadets who pressured her to go
on dates with them. As a first-year cadet, Doe was
allowed only very limited opportunities to leave campus,

75a
and thus could not escape the discriminatory atmosphere she alleges pervaded West Point. As a result
of this environment, Doe developed stress and saw
a psychiatrist who prescribed a sedative, which had
undisclosed side effects of impaired awareness and
reactions, as well as memory loss. Doe alleges that
due to the sexually hostile environment she began to
consider transferring out of West Point in approximately April 2009, less than a year after she signed
the Oath of Allegiance, but her commitment to the
military and a desire to pursue a career in the Army
motivated her to attempt to complete her studies at
West Point.
Doe further alleges her own experience of rape and
inadequate administrative response. She alleges that
during the end-of-term examination period, on or
about May 8, 2010, she took a prescribed sedative to
help her sleep. A male cadet friend tapped on the
window to Doe’s room, after midnight, and invited her
to come outside and walk with him. In violation of
curfew, they went for a walk, entered an unoccupied
academic building, and sipped from a bottle of liquor
that Doe’s friend had brought with him. Doe lost
consciousness, but remembers “lying on the concrete
floor of a boiler room, not understanding what was
going on, and waking in her bed with dirt on her
clothes and in her hair, bruises on her lower back, and
blood between her legs”. Doe alleges that her friend
“had forcible, non-consensual intercourse” with her.
Doe visited the health clinic the same day, and was
given emergency contraception. The next day, Doe
confronted her friend, who admitted that they had
intercourse, stated that he thought it was consensual,
but apologized “that he had no control over his actions
because of the alcohol”.

76a
Doe returned to the clinic the next day to seek
medical treatment for her injuries. The nurse performed a vaginal examination, informed her that she
had signs of vaginal tearing, noted a possible sexual
assault on Doe’s medical records, but did not conduct
a forensic examination to collect evidence (as is
required by DOD regulations).
West Point had two types of sexual assault reporting: A “restricted” report does not lead to disciplinary
action; an “unrestricted” report identifies the perpetrator and the victim, informs the perpetrator’s
superiors, and initiates an investigation. Doe filed a
“restricted” report, fearing that an unrestricted report
would damage her career prospects, place her reputation in jeopardy, and cause her to be punished
for violations of curfew and drinking regulations.
Doe alleges that the 2010 DOD survey found that a
majority of female West Point cadets who declined to
file unrestricted reports of sexual assault declined
because of fears consistent with those held by Doe.
Doe alleges that she could not endure the emotional
effect and isolation produced by her experience and
the absence of consequences to her rapist, and that she
could not risk continuing at West Point into her third
year because of the financial consequence of a later
resignation.2 On August 10, 2010, she resigned. And,
on August 13, 2010, she was honorably discharged.
Doe then enrolled and graduated from a civilian
college, but hopes to enroll in Army Corps Officer
Candidate School.
2

West Point classifies its cadets in reverse chronological order,
so that a “fourth year cadet” is a cadet in his first year of schooling. In the interest of common understanding, this opinion refers
to a cadet in his first year of schooling as a “first year cadet.”

77a
Doe alleges that she signed an Oath of Allegiance
upon her enrollment at West Point, equivalent to an
educational services contract. By this contract, she
alleges, she had a reasonable expectation of receiving
a West Point education free of tuition, room, and board
from West Point in exchange for her commitment to
enter military service upon graduation as a commissioned officer.
B. The Alleged Claims
Doe’s complaint alleges four claims for relief. First,
Doe alleges that the Individual Defendants are liable
for violation of her Fifth Amendment Due Process
right as proximate causes of her rape by a fellow cadet.
Doe alleges that Hagenbeck and Rapp created and
maintained a dangerous environment at West Point,
culminating in her rape and resignation from West
Point.
Second, Doe alleges that the Individual Defendants
are liable to her for violation of her Fifth Amendment
Equal Protection right. Doe alleges that the sexually
hostile environment created and perpetuated by the
Individual Defendants at West Point placed her at
high risk of harm because of her gender, and denied
her the right to be free of gender-based discrimination.
Third, Doe alleges that the United States is liable to
her pursuant to 28 U.S.C. § 1346(a)(2) (the “Little
Tucker Act”)3 for breach of the covenant of good faith
3

District Courts have concurrent jurisdiction with the United
States Court of Federal Claims to hear claims for less than
$10,000 against the United States under the Tucker Act of 1887.
See 28 U.S.C. § 1346(a)(2). This is known as the “Little Tucker
Act”. The United States Court of Federal Claims has exclusive
jurisdiction for claims in excess of $10,000 against the United
States under the Tucker Act of 1887. See 28 U.S.C. § 1491.

78a
and fair dealing. Upon acceptance to West Point, Doe
signed an Oath of Allegiance, which she alleges is
an educational contract and service agreement. Doe
alleges that the United States acted in bad faith
by engaging in conduct that was designed to oppress
women at West Point, after inducing them to enter
into contractual obligations, and that she was therefore deprived of her reasonable expectation of contractual education benefits.
Last, Doe alleges that the United States is liable
to her under the Federal Tort Claims Act (“FTCA”)
for negligent supervision of male cadets and staff
members, negligent training of male cadets and staff
members, the negligence of the Individual Defendants
and other staff members, negligent infliction of
emotional distress, and abuse of process.
II. Discussion
A. The Standards Governing Motions to Dismiss
When considering a motion to dismiss, I accept all
well-pled factual allegations in the complaint as true,
and draw all reasonable inferences in plaintiff’s favor.
McCarthy v. Dun & Bradstreet Corp., 482 F.3d 184,
191 (2d Cir. 2007). If, however, the complaint does not
plead facts that “plausibly give rise to an entitlement
for relief’, I must dismiss it. Ashcroft v. Iqbal, 556 U.S.
662, 679 (2009). “A claim has facial plausibility when
the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Id. at 678.
B. The Right to Equal Protection of the Laws
In 1996, the Supreme Court held that state policies
denying women admission to military colleges violated
their right to equal protection of the laws, in violation

79a
of the federal Constitution. U.S. Const., Amend. V;
United States v. Virginia, 518 U.S. 515 (1996).
Virginia Military Institute (“VMI”) was a public state
institution intending to produce “citizen-soldiers”, but
offered admission only to men. The Supreme Court
ruled that the categorical exclusion of women denied
them equal protection of the laws, and that “neither
federal nor state government acts compatibly with the
equal protection principle when a law or official policy
denies women, simply because they are women, full
citizenship stature — equal opportunity to aspire,
achieve, participate in and contribute to society based
on their individual talents and capacities.” Id. at 532.
The Equal Protection Clause of the Fifth and.
Fourteenth Amendments of the United States Constitution confers a “federal constitutional right to be
free from gender discrimination”. Davis v. Passman,
442 U.S. 228 (1979). Doe sues based on this fundamental and clear constitutional protection. See also
Fitzgerald v. Barnstable School Committee, 555 U.S.
246 (2009); United States v. Virginia, 518 U.S. 515
(1996). “When—as alleged here—sexual harassment
includes conduct evidently calculated to drive someone
out of the workplace, the harassment is tantamount
to sex discrimination.” Annis v. Westchester, 36 F.3d
251, 254 (2d Cir. 1994); cf. Saulpaugh v. Monroe
Community Hospital, 4 F.3d 134 (2d Cir. 1993)
(“Sexual harassment of women constitutes disparate
treatment because of gender, and is actionable under
Section 1983.”); Hayut v. State University of New York,
352 F.3d 733 (2d Cir. 2003); Gierlinger v. New York
State Police, 15 F.3d 32 (2d Cir. 1994).
Doe claims in this case that at West Point one law
exists for men and another law exists for women. Doe’s
allegations, if proven, clearly demonstrate that the

80a
policies and procedures at West Point violate the
Equal Protection Clause. The United States Constitution is not an aspirational document called upon only
when convenient to implement; it is the highest law of
the land and it commands obedience.
Doe’s claim echoes the concerns so forcefully identified in VMI. In VMI, women were denied admission
into a state-financed university preparing individuals
for military service, simply because they were women.
Just as state-financed schools preparing applicants for
the military have a constitutional obligation to treat
gender alike, a federally-financed academic institution
like West Point cannot have one law for men and
another law for women, or, as Doe alleges, policies that
favor men while subjecting women to hostile and
discriminatory treatment.
C. Implied Rights of Action for Constitutional
Violations
Private citizens may sue individual tortfeasors for
money damages if, under color of law, they violate a
plaintiff’s constitutional rights, even in the absence
of specific statutory authorization. “Where federally
protected rights have been invaded, it has been the
rule from the beginning that courts will be alert to
adjust their remedies so as to grant the necessary
relief.” Bivens v. Six Unknown Agents of Federal
Bureau of Narcotics, 403 U.S. 388, 392 (1971), quoting
Bell v. Hood, 327 U.S. 678, 684 (1946). See also Butz v.
Economou, 438 U.S. 478, 504 (1978) (“[T]he decision in
Bivens established that a citizen suffering a compensable injury to a constitutionally protected interest
could invoke the general federal-question jurisdiction
of the district courts to obtain an award of monetary
damages against the responsible federal official.”).

81a
In 1979, the Supreme Court extended Bivens claims
to cover the equal protection component of the Fifth
Amendment’s due process clause, allowing private
citizens to sue under Bivens for gender discrimination.
Davis v. Passman, 442 U.S. 228 (1979). In Davis v.
Passman, a former congressional staffer sued a United
States Congressman for gender discrimination. Davis
was hired by then-Congressman Otto E. Passman as
a deputy administrative assistant. After a short
five-month tenure, Passman terminated Davis via a
written letter. The letter explained that while Davis
was clearly “able, energetic, and a very hard worker,”
she could not perform the job any longer because “it
was essential that the understudy to my Administrative Assistant be a man”. Id at 230. Davis sued
Passman, alleging that terminating her because of her
gender violated the Fifth Amendment equal protection
component.
The Supreme Court agreed with Davis, holding that
“a cause of action and a damages remedy can also be
implied directly under the Constitution when the Due
Process Clause of the Fifth Amendment is violated”.
Id. The Court found that “first . . . petitioner asserts a
constitutionally protected right; second, that petitioner has stated a cause of action which asserts this
right; and third, that relief in damages constitutes
an appropriate form of remedy.” Id. at 234. Davis,
therefore, provides the Bivens-type remedy for gender
discrimination under which Doe brings her claim. A
Bivens claim is brought, not against the government,
but against individuals who, under color of law, violate
a plaintiff’s constitutional rights.
Doe alleges that Hagenbeck and Rapp were responsible for failing to implement the sexual assault
prevention policies that DOD mandated for West

82a
Point. She alleges that as part of this responsibility,
they compiled the DOD reports which documented
pervasive gender discrimination and disturbingly
high levels of sexual assaults and violence. Doe has
provided concrete examples of such gender discrimination, including, inter alia, the pervasive frequent
sexual assaults and rapes; mandatory annual STD
testing for female cadets but not for male cadets
because women are “responsible” for stopping the
spread of STDs; the fact that male cadets regularly
march through the campus shouting their desire to
break women with their penises; and the comprehensive reports showing that over half of female cadets at
West Point were sexually assaulted, and that West
Point’s sexual assault prevention programs and reporting
mechanisms were “deficient,” with no—or inadequate—
steps being taken to repair the deficiency.
Doe has also sufficiently shown Hagenbeck and
Rapp’s personal responsibility for the discriminatory
policies and practices. Doe’s pleading satisfies Ashcroft
v. Iqbal, which held that plaintiff in a Bivens or § 1983
action must plead that each defendant purposefully
violated the constitution through his own individual
actions. 556 U.S. 662, 666-67 (2009). To satisfy Iqbal
in this circuit, “[t]he personal involvement of a supervisory defendant may be shown by evidence that . . .
the defendant created a policy or custom under which
unconstitutional practices occurred, or allowed the
continuance of such a policy or custom.” Scott v.
Fischer, 616 F.3d 100, 109-10 (2d Cir. 2010); Colon v.
Coughlin, 58 F.3d 865, 873 (2d Cir. 1995). See also Alli
v. City of New York, 2012 WL 4887745, at *5 (S.D.N.Y.
Oct. 12, 2012); Bellamy v. Mount Vernon Hosp., 2009
WL 1835939, at *6 (S.D.N.Y. June 26, 2009). Doe’s
complaint sufficiently shows personal responsibility
on the part of Hagenbeck and Rapp. Iqbal, 556 U.S.

83a
662 (2009). A claim is facially plausible when the
factual allegations, not the legal conclusions, “allo[w]
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Iqbal,
556 U.S. at 678. The “plausibility standard is not akin
to a probability requirement but it asks for more than
a sheer possibility that a defendant has acted
unlawfully”. Id. Doe’s complaint meets this standard.
C. Defendants are not Entitled to Qualified
Immunity
Hagenbeck and Rapp are not entitled to qualified
immunity. A public official is entitled to qualified
immunity if his actions do not violate clearly established rights of which a reasonable person, at the time,
would have known, or if it was objectively reasonable
for the public official to believe that his actions were
lawful. Field Day, LLC v. County of Suffolk, 463 F.3d
167, 191-92 (2d Cir. 2006).
A right is clearly established at the time of infringement if the Second Circuit and Supreme Court cases
have held that the right exists, and have defined it
with reasonable specificity. Scott v. Fischer, 616 F.3d
100, 105 (2d. Cir. 2010), The right to be free from
gender discrimination under the Equal Protection
Clause of the United States Constitution clearly was
established at the time, and both the Supreme Court
and Second Circuit had said as much. See, e.g., Davis
v. Passman, 442 U.S. 228 (1979); United States v.
Virginia, 518 U.S. 515 (1996); Fitzgerald v. Barnstable
School Committee, 555 U.S. 246 (2009). The government argues that Hagenbeck and Rapp should have
qualified immunity because their implementation of
constitutional and statutory commands to end gender
discriminated reflected discretionary conduct, and

84a
they are entitled to qualified immunity for discretionary conduct.
The government’s argument fails. Although some
discretionary actions are protected by qualified immunity,
this protection does not extend to excuse discretionary
acts that violate the federal Constitution. “[G]overnment officials performing discretionary functions generally are shielded from liability for civil damages
insofar as their conduct does not violate clearly established statutory or constitutional rights of which a
reasonable person would have known.” Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982). Hagenbeck and
Rapp cannot argue that (i) equal treatment of men and
women was not a clearly established constitutional
right; (ii) they did not know of that right, or (iii) they
were not obliged to confer such equal treatment. At
this stage, in opposition to a motion to dismiss, “the
plaintiff is entitled to all reasonable inferences from
the facts alleged, not only those that support his claim,
but also those that defeat the immunity defense”.
McKenna v. Wright, 386 F.3d 432, 436 (2d Cir. 2004).
Flagenbeck and Rapp’s motion to dismiss, based on
their allegedly having exercised discretion, must be
denied.
D. Exceptions to Rights of Action When Injuries
Are Incurred Incident to Military Service
U.S. courts have developed a strong policy against
judicial involvement in military matters, even where
constitutional rights have been compromised. See, e.g.,
Feres v. United States, 340 U.S. 135 (1950); Chappell
v. Wallace, 462 U.S. 296 (1983). The cases generally
are in the context of suits against the Government
under the FTCA, but the doctrine is applied also to
actions against superior officers for violations of the
Constitution and statutes of the United States under

85a
color of law. See, e.g., Chappell, 462 U.S. at 303-04.
This section discusses whether, in light of this policy,
the facts that Doe alleges in her complaint may be
reviewed by this Court.
1. The Feres Doctrine
In Feres v. United States, 340 U.S. 135 (1950), the
United States Supreme Court reviewed three cases
where enlisted service men on active duty suffered
deaths or injuries from the negligence of others in
the military, and they or their next of kin sued the
Government under the FTCA to recover money damages. In two cases, there had been medical malpractice
by U.S. Army surgeons; in the third case, a soldier died
when an army barracks caught fire from a defective
heating plant. The “common fact underlying the
three cases [was] that each claimant, while on active
duty and not on furlough, sustained injury due to
negligence of others in the armed forces”. Id. at 137.
The Supreme Court held that “service-connected
injuries” could not be made the basis of lawsuits under
the FTCA. Id. at 139.
In Chappell v. Wallace, the U.S. Supreme Court
extended Feres to “Bivens-type claims”. 462 U.S. 296,
304 (1983). In Chappell, five enlisted men serving on
a combat ship sued their officers alleging that they
were assigned to undesirable duties and were given
low performance evaluations because of their race, in
violation of the Constitution and laws of the United
States. Bivens, the Supreme Court held, should not be
applied if there were “special factors counseling
hesitation”. Chappell, 426 U.S. at 298, quoting Bush v.
Lucas, 103 S. Ct. 2404, 2411 (1983). The Supreme
Court ruled that it understood Feres as denying a right
to sue based on the “peculiar and special relationship
of the solider to his superior, [and] the effects on the

86a
maintenance of such suits on discipline . . .”. Chappell,
462 U.S. at 299, quoting United States v. Muniz, 374
U.S. 150, 162 (1963). As the Court stated, “[c]ivilian
courts must, at the very least, hesitate long before
entertaining a suit which asks the court to tamper
with the established relationship between enlisted
military personnel and their superior officers; that
relationship is at the heart of the necessarily unique
structure of the military establishment.” Chappell,
462 U.S. at 300. The need to insulate the military’s
disciplinary structure from judicial inquiry constituted a “special factor counseling hesitation” against
affording a Bivens remedy to plaintiffs. Chappell, 462
U.S. at 304.
In United States v. Stanley, 483 U.S. 669 (1987), an
Army sergeant on active duty, having volunteered to
join a test of the effectiveness of protective clothing
and equipment against chemical warfare, was also
subjected to a test of the effects of LSD (lysergic acid
diethylamide) on military personnel. Without Sergeant
Stanley’s consent or knowledge, the Army gave him
four doses of LSD in the course of a month, and then
asked him for consent. Stanley refused, and began to
suffer hallucinations, incoherence, and memory loss
from the LSD administered to him. The drug caused
him to awaken at night and, without knowing it,
violently to beat his wife and children. The Army
discharged Stanley, and his marriage dissolved. He
sued to recover damages, under both the FTCA and
Bivens.
The U.S. Supreme Court, reversing the court of
appeals, dismissed the lawsuit and both of Stanley’s
claims. The Supreme Court reasoned that the Constitution had given Congress “plenary control over
rights, duties, and responsibilities in the framework

87a
of the Military Establishment”. Thus, the “unique
disciplinary structure” of the military and the “comprehensive internal system of justice to regulate
military life” that Congress had established were
“special factors counseling hesitation” before implying
a right to bring a Bivens action. Id. at 679, quoting
Chappell, 462 U.S. at 301-02, 304. Under Feres, that
“hesitation” applies, not only to instances where the
plaintiff may have been following the orders of a
military superior, but whenever the injury complained
of was “incident to service”. Id. at 681-82.
The Supreme Court acknowledged that its rule of
“special factors counseling hesitation” reflected “a policy
judgment” that was “protective of military concerns”,
and that there was no clear “right answer” in balancing the special status of the military and the rights of
persons in the military. Stanley, 483 U.S. at 681. The
Court expressed concern about fashioning a less protective rule that might permit suits calling “military
discipline and decisionmaking” into question, or intruding upon “military matters”—for example, “compelled
depositions and trial testimony by military officers
concerning the details of their military commands”—
and favored “a line that is relatively clear and that can
be discerned with less extensive inquiry into military
matters”. Id. at 682-83. The Supreme Court held that
Stanley’s suit could not proceed, neither under the
FTCA, nor under Bivens.
In Wake v. United States, 89 F.3d 53 (2d Cir. 1996),
the plaintiff was in her third year of schooling
at Norwich University.4 The plaintiff had served in
4

Norwich University is a private college designated by Title 10
as “a senior military college” whose cadets may be ordered to
active duty upon graduation. See 10 U.S.C. § 2111(a).

88a
the Navy before admission and was “enlisted as an
inactive member” in the Navy Reserves and in the
Navy Reserve Officers Training Corp (“NROTC”),
subject to reactivation in the event that she withdrew
from the NROTC. She sustained permanent injuries
in a car accident while riding in a vehicle owned by the
NROTC, en route to a pre-commissioning physical
examination required by the NROTC. She sued the
United States and various military personnel under
the FTCA and Bivens for, among other things, violations of her Fifth Amendment right to due process, the
car driver’s negligence, and negligence in advising her
how to pursue compensation for her injuries. Id. at 56.
The Second Circuit affirmed the dismissal of Wake’s
claims because it determined that, as an enlisted
service member, her injuries were “incident to service”
and thus barred by Feres. Id. at 62. In Wake, the court
stated that to determine whether an injury occurs
“incident to service”, “the courts consider various
factors, with no single factor being dispositive”. Id. at
58. Such factors include, but are not limited to: the
individual’s status and relationship to the military at
the time of the injury; the relationship of the activity
which created the injury to the individual’s service in
the military; the location in which the injury occurred;
whether the activity is limited to military personnel;
and whether the service member was taking advantage of a privilege or enjoying a benefit conferred
as a result of military service. Id. at 57-58.
In applying the factors to the plaintiff, the Second
Circuit focused on her membership in NROTC
and that she was an enlisted member of the Naval
Reserves. Id. The Second Circuit noted that “numerous circuits have found that individuals on reserve
status fall within the Feres bar”. Id. at 59. See also

89a
Collins v. United States, 642 F.2d 217, 220 (7th Cir.
1981) (FTCA suit by cadet at Air Force Academy for
medical malpractice dismissed because under Feres
injuries occurred “incident to service”); Cioca v.
Rumsfeld, 720 F.3d 505 (4th Cir. 2013) (suits for
sexual assault incurred while on active duty in the
military dismissed); Klay v. Panetta, 785 F.3d 369
(D.C. Cir. 2014) (same); Marquet v. Gates, No. 12 Civ.
3117, (S.D.N.Y. Sept. 11, 2013) (suit by fourth year
cadet that West Point’s indifference to rape by upper
classman dismissed).
The Second Circuit found that the facts in the
record, viewed in light of the rationales underlying the
Feres doctrine, showed that Wake’s injuries occurred
“incident to service”. The court noted that Wake was
travelling in a Navy-owned vehicle at the time of
her injuries; the driver of the vehicle was a noncommissioned officer acting within the scope of his
employment; Wake was with other ROTC cadets at
the time of her injuries, being transported back to
Norwich University from a flight physical examination
conducted at a Navy base; the purpose of the trip was
for a military physical examination; and Wake was
issued a travel order assigning her to temporary duty
and authorizing her travel. Id.
Importantly, the Second Circuit further emphasized
that courts should consider the three broad rationales
underlying Feres when determining whether an injury
occurred “incident to service”: “(1) the ‘distinctly
federal’ relationship between the Government and
members of its armed forces; (2) the existence of a
uniform system of ‘generous statutory disability and
death benefits’ for members of the military; and (3) the
need to preserve the military disciplinary structure
and prevent judicial involvement in sensitive military

90a
matters.” Id. at 57, 61-62. With respect to the first
rationale, the court held that due to the federal nature
of the relationship, Wake should be barred from
pursuing state tort law claims. Secondly, the court
found that Wake had already received generous
benefits from her 100% disability rating from the
Department of Veteran Affairs. Finally, the court
found the third rationale also weighed in favor of
invoking the Feres doctrine, “to avoid civilian court
scrutiny of military discipline and policies such as
those necessarily implicated by an accident in a
military vehicle driven by a military officer” and “to
avoid disruption of military order”. Id. at 62.
1. The Status of Plaintiff Jane Doe
Doe brings two claims against Hagenbeck and Rapp
under Bivens: for violation of her due process rights,
and for violation of her right to equal protection of the
laws.
A. Due Process Claim
Doe’s due process claim alleges that the actions of
the Individual Defendants, in failing properly to train,
supervise, and punish cadets concerning sexual assaults,
were a proximate cause of her rape by a fellow cadet.
I hold, however, that these allegations fail to show
a plausible and sufficient factual nexus to show
proximate cause for the relief she seeks, and that this
portion of her complaint should be dismissed. See
Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009).
An action to vindicate a constitutional right, such as
a Bivens claim, employs the tort principle of proximate
causation. Higazy v. Templeton, 505 F.3d 161, 175 (2d
Cir. 2007). “Proximate or legal cause is defined as that
‘which in a natural sequence, unbroken by any new
cause, produces that event and without which that

91a
event would not have occurred.” Caraballo v. U.S., 830
F.2d 19, 22 (2d Cir. 1987) (quoting Rider v. Syracuse
Rapid Transit Ry. Co., 171 N.Y. 139, 147 (1902)). In
order for Doe’s complaint to survive a motion to
dismiss her Bivens claim against Hagenbeck and Rapp
for violation of her due process rights, she must
adequately plead that their acts proximately caused
her rape.
Doe’s complaint on its face shows that the actions
taken by Hagenbeck and Rapp were too attenuated
from Doe’s rape to be a proximate cause of her injuries.
Doe alleges that the Individual Defendants fostered
an environment of sexual hostility and toleration of
violence against women by creating a culture of
blaming the victim, discouraging female cadets from
reporting sexual assault, ineffectively punishing
cadets who perpetrated sexual assault, providing
inadequate resources for sexual assault victims, and
marginalizing women by failing to recruit female
cadets and faculty. Doe further alleges that the
Individual Defendants turned a blind eye to the
inappropriately high number of sexual assault
statistics which had repeatedly been brought to their
attention, reflecting a deliberate indifference to Doe’s
due process rights.
However, the nexus between the acts, or failures to
act, that Doe alleges and her rape are too tangential.
The complaint does not show that without the policies
implemented by Hagenbeck and Rapp, Smith (Doe’s
fellow cadet) would not have taken the actions he did
on the night of May 8, 2010, or that she would not
willingly have accompanied him. Doe alleges that
Smith came to her room after hours, invited her to
take a walk with him in violation of curfew, took her
to an academic building, drank alcohol, and then had

92a
sex with her, without her consent, when she was
unconscious due to drinking alcohol after taking a
prescribed sedative. As the complaint fails adequately
to plead that actions of Hagenbeck and Rapp proximately caused the events of that night, this count of
Doe’s Bivens claim fails.
B. Equal Protection Claim
Doe’s equal protection claim is different. The cognizable injury in Doe’s equal protection claim is that
she was denied her constitutionally-protected right to
an “equal opportunity to aspire, achieve, participate in
and contribute to society based on [her] individual
talents and capacities”. VMI, 518 U.S. at 532. As the
line of cases descending from Feres demonstrate, the
primary reason for exercising judicial restraint with
cases concerning the military is “the need to preserve
the military disciplinary structure and prevent
judicial involvement in sensitive military matters”.
Wake, 89 F.3d at 57. As the Supreme Court stated in
United States v. Shearer, “Feres seems best explained
by the ‘peculiar and special relationship of the soldier
to his superiors, the effects of the maintenance of such
suits on discipline, and the extreme results that might
obtain if suits under the [FTCA] were allowed for
negligent orders given or negligent acts committed in
the course of military duty.’” 473 U.S. 52, 57 (1985)
(quoting U.S. v. Muniz, 374 U.S. 150, 162 (1963)
(quoting U.S. v. Brown, 348 U.S. 110, 112 (1954))). It
is “the unique disciplinary structure of the Military
Establishment and Congress’ activity in the field
[which] constitute ‘special factors’ which dictate that it
would be inappropriate to provide enlisted military
personnel a Bivens-type remedy against their superior
officers.” Stanley, 483 U.S. at 679 (quoting Chappell,
462 U.S. at 304).

93a
However, Doe’s complaint does not take issue with
the “military disciplining structure”. Wake, 89 F.3d at
57. She asks for no special rule for, or review of, her
status as a West Point cadet. Cf., Chappell, 462 U.S.
at 303. She asks for no dispensation regarding her
duties and responsibilities. Cf., Stanley, 483 U.S. at
679-680. All she asks for is the dignity of equality –
that there be no special rules, or practices, at West
Point that favor male cadets over female cadets, or
vice-versa, or that tend to degrade one sex as a means
to raise or motivate another.
Doe’s complaint alleges rampant hostility manifested against females in numerous aspects of life at
West Point, depriving women of equal opportunity to
receive and benefit from a West Point education. Only
female cadets were required to be tested for STDs, and
were told that it was their responsibility to prevent the
spread of STDs. Women were taught self-defense and
discouraged from reporting rapes, as if it was they
who were responsible for male transgressions, and to
bear such events as mild mishaps if they were not
successful in warding them off. The marching chants
of cadets degraded women while they amused or
motivated men. And, as the complaint alleges, defendants Hagenbeck and Rapp were indifferent to their
constitutional and statutory obligations to foster equal
conditions and equal protection between male and
female cadets.
Doe’s complaint accuses the Individual Defendants
of fostering policies and practices perpetuating the
nation’s “long and unfortunate history of sex discrimination”. VMI, 518 U.S. at 531 (1996) (quoting Frontiero
v. Richardson, 411 U.S. 677, 684 (1973)). The complaint alleges that defendants Hagenbeck and Rapp,
even while knowing that DoD found West Point to be

94a
only ‘partially in compliance’ with sexual assault and
harassment policies, and that West Point’s prevention
training was ‘deficient’, and that West Point failed to
comply with numerous DoD directives to reduce rape
and sexual assaults, failed to act to ensure that female
cadets had equal protection of the laws. “[G]ender
classifications are invalid,” the Supreme Court held,
and a reviewing court must strike them down unless a
“proffered justification is ‘exceedingly persuasive.’”
VMI, 518 U.S. at 532-33. Unless the government shows
that a challenged classification “serves ‘important
governmental objectives and that the discriminatory
means employed’ are ‘substantially related to the
achievement of those objectives,’” the classifications
violate the constitutional guarantee of equal protection of the laws. Id. at 533 (quoting Wengler v.
Druggists Mut. Ins. Co., 446 U.S. 142, 150 (1980)).
Defendants have not yet made that showing; perhaps,
after this aspect of their “12(b)(6) motion” is denied,
their answer and proofs may rectify this deficiency.
But, without such a showing, Defendants’ motion to
dismiss Plaintiffs equal protection claim should not be
granted.
In VMI, the Supreme Court was faced with a policy
that facially excluded women — a policy of clear
gender discrimination. Women were not excluded from
West Point, but the burdens foisted upon them were
almost as insidious, with direct effects to their morale,
mental and physical stability, and ability to persevere.
The “factors counseling hesitation” stated in Stanley,
483 U.S. at 681, cannot become factors commanding
paralysis without doing violence to VMI, and the
right of female cadets to Equal Protection of the laws.
Federal courts not only have the jurisdiction, but the
obligation, to uphold constitutional rights, at least
until a showing is made that good order and discipline

95a
in the military are likely to be compromised. If women
constitutionally must be admitted to military colleges,
and courts have jurisdiction to enforce such rights of
entry, the courts may not abstain from jurisdiction if
women thereafter are deprived of their constitutional
rights. The law demanding a woman’s entry through
the schoolhouse gates must not abandon its protection
beyond the gates if a woman’s right to equal protection
continues to be violated. Hagenbeck and Rapp cannot
rely on Feres if, as alleged, their conduct caused gender
discrimination against women, unless it is evident
from the complaint, or shown by an answer and
subsequent proofs, that military discipline or its
command structure is compromised.
At this point in the litigation, Doe’s equal protection
claim of her complaint against Hagenbeck and Rapp
has sufficient legal basis to withstand Defendants’
motion to dismiss.5
5

Not every complaint by a female service person against her
commander gives rise to an equal protection argument to invoke
the jurisdiction of the district courts. In the instant case, Plaintiff
was a second-year cadet at a military college. A cadet may resign
from West Point during her first two years without incurring
financial obligations to the United States. 10 U.S.C. § 4348. If,
however, a cadet resigns during her third or fourth year, she may
be required either to enlist as a soldier in the armed forces, and/or
to reimburse the military “in an amount that bears the same ratio
to the total cost of advanced education provided [the cadet] as the
unserved portion of active duty.” See Cadet Oath, 10 U.S.C.
§ 4348. Since Doe resigned before entering her third year at West
Point, she had no obligation to enlist as a soldier or enter into any
military status, or to pay any money. She was a student, entitled
as much to equal protection of the laws as the plaintiff who was
denied entrance into VMI. See United States v. Virginia, 518 U.S.
515 (1996). Plaintiff has adequately pled plausible facts showing
discriminatory treatment to females as a class, and that the allegations will not affect the command structure of the military or

96a
B. Doe’s Claims against the United States
Under The Federal Tort Claims Act
Doe sues the United States under the FTCA for the
existence of the sexually hostile environment at West
Point, which she alleges led to her rape. Specifically,
Doe sues the United States for negligent supervision
of male cadets and staff members, negligent training
of male cadets and staff members, the negligence of
the Individual Defendants and other staff members,
negligent infliction of emotional distress, and abuse of
process for failure to investigate and punish incidents
of sexual assault.
Under the FTCA, the United States waives sovereign immunity and authorizes claimants to sue for
money damages in the federal district courts for injuries caused by its employees’ negligence or wrongful
acts or omissions. The FTCA gives federal district
courts jurisdiction over:
civil actions on claims against the United
States, for money damages, accruing on and
after January 1, 1945, for injury or loss of
property, or personal injury or death caused
by the negligent or wrongful act or omission
of any employee of the Government while
acting within the scope of his office or employment, under circumstances where the United
States, if a private person, would be liable to
the claimant in accordance with the law of the
place where the act or omission occurred.
28 U.S.C. § 1346(b)(1). There are several statutory
exceptions, including:
the disciplinary authority of commanding officers. Cf. with Stanley,
483 U.S. at 681.

97a
Any claim based upon an act or omission of an
employee of the Government, exercising due
care, in the execution of a statute or regulation, whether or not such regulation may be
valid, or based upon the exercise of performance or the failure to exercise or perform a
discretionary function or duty on the part of
a federal agency or an employee of the
Government, whether or not the discretion
involved be abused.
28 U.S.C. § 2680(a). Defendants’ motion to dismiss
argues that Doe’s claim for recovery under the FTCA
is legally insufficient because Hagenbeck and Rapp
were employees of the government performing discretionary functions.
Hagenbeck and Rapp had the responsibility under
applicable statutes and regulations to implement
policies and practices to reduce and eliminate discrimination based on gender. How they did it, and
the extent to which they did it, were discretionary
functions, barring an FTCA claim against the United
States.
The exception to FTCA liability, based upon the
performance of discretionary duties, covers acts that
“involve an element of judgment or choice”. United
States v. Gaubert, 499 U.S. 315, 322 (1991) (internal
quotations and citations omitted). An action is considered discretionary for purposes of the exception when
implementation of a statute or regulation allows for,
or requires, that the official balance competing needs
and make choices based on public policy considerations. See generally Berkovitz by Berkovitz v. United
States, 486 U.S. 531, 535-40 (1988); Coulthurst v.
United States, 214 F.3d 106, 108-10 (2d Cir. 2000).

98a
Doe claims that Hagenbeck and Rapp were responsible for policies and practices creating pervasive
gender discrimination and violence to women, including the rape of Doe, and that failure to punish the
perpetrator or remedy the policies and practices demonstrated their tolerance of sexual assaults of female
cadets. However, Hagenbeck’s and Rapp’s policies and
practices implemented 10 U.S.C. § 4361 and 32
C.F.R. § 103.5. Pursuant to 32 C.F.R. § 103.5(f)(1), the
Secretaries of the Military Departments are required
to “[e]stablish departmental policies and procedures to
implement the SAPR [Sexual Assault Prevention and
Response] Program” consistent with the provisions of
this part and DoDI [United States Department of
Defense Instructions] 6495.02”, which is the SAPR
Program Procedures (“DOD Directive 6495.02”). The
regulation directed the Secretary to do things like,
“influenc[e] policy; chang[e] organizational practices;
foste[r] coalitions and networks, educat[e] providers,
promot[e] community education, and strengthen] individual knowledge and skills”. 32 C.F.R. § 103.5(f)(5).
DOD Directive 6495.02 ordered each commander to
“implement a SAPR prevention program” that, among
other things: (1) “[e]stablishes a command climate of
sexual assault prevention predicated on mutual respect
and trust, recognizes and embraces diversity, and
values the contributions of all its Service members”;
(2)”[e]mphasizes DOD and Military Service policies on
sexual assault and on the potential legal consequences
for those who commit such crimes”; and (3) that
“[i]dentifies and remedies environmental factors specific
to the location that may facilitate the commission of
sexual assaults”. (See DOD Directive 6495.02, at pp.
43-44, available at http://www.dtic.mil/whs/directives/
corres/pdf/649502p.pdf.)

99a
Defendants correctly argue that the implementation
of the sexual assault and harassment prevention
programs and the institution of reporting mechanisms
for sexual assault involved a large amount of discretion by Hagenbeck and Rapp. Gaubert, 499 U.S. at
322. The directives at issue here identified large,
amorphous objectives and goals and did not provide
concrete clear ministerial orders. Furthermore, there
is no doubt that the issue of sexual assault in the
military, and at West Point, is a public policy issue
that requires Hagenbeck and Rapp to balance
competing needs and make choices based on public
policy considerations.6
Doe’s FTCA claims criticize these discretionary
actions and decisions and base her claims on the
way the Individual Defendants performed their
responsibilities. However, in implementing the policies
and procedures at issue in this case, Hagenbeck and
Rapp exercised a large amount of discretion which
they used to balance and weigh issues of public
importance. These claims are therefore excepted from
6

The issue of sexual assault in the military was spotlighted in
United States Congressional hearings after a 2013 Pentagon
Report estimated that 26,000 sexual assaults took place in the
armed services in 2012. President Obama spoke on the issue,
expressing his disapproval and affirming the need to end discrimiantion. See Lusita Lopez Torregrosa, “Women in Congress
Confront the Military on Sexual Assault,” N.Y. Times, May 28,
2013, available at http://rendezvous.blogs.nytimes.com/2013/05/
28/women-in-congress-confront-the-military-on-sexual-assault/?_
phprtrue&_type=blogs&_r=0. There was a public outcry and
debate, bills were drafted, and legislation ultimately passed. See
Jonathan Weisman and Jennifer Steinhauer, “Negotiators Reach
Compromise on Defense Bill,” N.Y. Times. Dec. 9, 2013, available
at http://www.nytimes.com/2013/12/10/us/politics/house-and-senatereach-compromise-on-pentagon-bíll.html.

100a
the FTCA’s reach and not available to Doe in this
lawsuit and, accordingly, are dismissed.
C. Doe’s Breach of Contract Claim against the
United States
Lastly, Doe sues the United States for a breach of
contract. She claims that her enrollment at West Point
created an educational services contract with the
United States.
The U.S. District Courts and the Court of Claims
have coordinate jurisdiction over any “civil action
or claim against the United States, not exceeding
$10,000 in amount . . . upon any express or implied
contract with the United States.” See 28 U.S.C.
§ 1346(a)(2) (the “Little Tucker Act”). This permission
to sue the United States waives sovereign immunity.
Doe alleges that when she signed an Oath of
Allegiance on June 30, 2008, she and the United
States effectively entered into an educational services
contract. She alleges that she promised to serve in the
Army for eight years, including five in active duty, and
the United States promised to give her a free four-year
education at West Point, and room and board.
“[A]ny agreement can be a contract within the
meaning of the Tucker Act, provided that it meets
the requirements for a contract with the Government,
specifically: mutual intent to contract including an
offer and acceptance, consideration, and a Government
representative who had actual authority to bind
the Government.” Massie v. U.S., 166 F.3d 1184, 1188
(Fed. Cir. 1988) (quoting Trauma Serv. Group v. U.S.,
104 F.3d 1321, 1326 (Fed. Cir. 1997)). An educational
services contract can be the basis of such a claim. The
United States, itself, has sued prior cadets successfully when they failed to reimburse the United States

101a
in accordance with the contract’s terms. See, e.g.,
United States v. China, 2007 WL 775615 (D.S.C. Mar.
8, 2007); United States v. Chrzanowski, 358 F. Supp.
2d 693 (N.D. Ill. 2005); O’Rourke v. Dep’t of Air Force,
2005 WL 3088611 (N.D. Ohio Nov. 16, 2005).
However, Doe’s contract claim fails because the
United States performed the services it agreed to
perform. If Doe is correct and is able to prove that the
pervasive sexual violence and gender discrimination
at West Point constituted a failure to provide her equal
protection of the laws, she may be entitled to recovery
under Bivens, but not recovery for breach of contract.
The government did not stop providing Doe with an
education, room, and board. The government is not
suing Doe for an alleged failure to reimburse it. Doe’s
claim of constitutional violations is a claim sounding
in tort, and the Little Tucker Act specifically excludes
from jurisdiction cases “sounding in tort.” 28 U.S.C.
§ 1346(a)(2).
III. Conclusion
Doe’s claim, that the policies and procedures created
and implemented by Hagenbeck and Rapp violated her
constitutional right to equal protection of the laws,
is legally sufficient to proceed at this stage of the
proceedings. Defendants’ motion to dismiss Doe’s
Bivens claims is GRANTED with respect to Doe’s Due
Process claim (Count one), and DENIED as to Doe’s
Equal Protection claim (Count two). Defendants’
motion to dismiss Doe’s claims under the FTCA and
the Little Tucker Act are GRANTED (Counts three
and four).
Accordingly, Counts one, three and four of the
Amended Complaint are dismissed. Defendant the
United States of America is also dismissed from the
case.

102a
Plaintiff shall amend the caption and the allegations
of her complaint to conform to this decision by
Monday, May 11, 2015. The individual defendants
shall have until Monday, June 8, 2015, to answer. I
shall meet with the parties, through counsel, on
Friday, July 10, 2015, at 10:00 a.m. to agree to a case
management plan.
SO ORDERED.
Dated: April 13, 2015
New York, New York
/s/ Alvin K. Hellerstein
ALVIN K. HELLERSTEIN
United States District Judge

103a
APPENDIX G
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK
————
Civil No.: 13 CIV. 2802 (AKH)
————
JANE DOE,
v.

Plaintiff,

LT. GEN. FRANKLIN LEE HAGENBECK,
BRIG. GEN. WILLIAM E. RAPP, and the
UNITED STATES OF AMERICA,
Defendants.
————
August 30, 2013
————
AMENDED COMPLAINT
Plaintiff Jane Doe, through counsel, alleges the
following upon information and belief:
1. The leaders of the United States Military Academy
(“West Point”) have failed to take necessary steps to
protect women cadets from a pervasive and wellknown culture of sexual violence. Jane Doe, a cadet at
West Point, suffered the consequence of these senseless policies when she was raped by a fellow cadet. She
brings this suit seeking declaratory relief and monetary damages, and hopes that this action will deter
Defendants and their successors from perpetuating
the practices that caused her suffering, protect future
female cadets, and better ensure that West Point
realizes the noble ideals it represents.

104a
JURISDICTION AND VENUE
2. This Court has jurisdiction under 28 U.S.C.
§ 1331. This action arises under the U.S. Constitution;
the Little Tucker Act, 28 U.S.C. § 1491; Federal Torts
Claims Act (“FTCA”), 28 U.S.C. §§ 1346(b), 2671
etseq.; and the Declaratory Judgment Act, 28 U.S.C.
§§ 2201-02.
3. Venue lies in this district pursuant to 28 U.S.C.
§ 1391(b) in that all events complained of and giving
rise to Plaintiff’s claims arose in this district.
PARTIES
4. Plaintiff Jane Doe (a pseudonym) is a former
West Point cadet.
5. Defendant Lt. Gen. Franklin Lee Hagenbeck is
sued in his personal capacity. He was Superintendent
of West Point from approximately July 2006 to July
2010, and among other duties, he chaired the Sexual
Assault Review Board, which is the “primary means
of oversight” of the sexual assault prevention and
response program at West Point.
6. Defendant Brigadier General William E. Rapp is
sued in his personal capacity. He was Commandant of
Cadets at West Point from 2009 to 2011 and was in
charge of the administration and training of cadets.
7. Defendant United States of America is sued
under the FTCA for the tortious acts of its agents or
employees and under the Little Tucker Act for breach
of contractual obligations.
FACTS AND PROCEEDINGS
8. Ms. Doe grew up in a military family. During
high school, she received a West Point mailing displaying women in uniform demonstrating leadership,

105a
honor, and dignity. She began to imagine studying at
West Point. In her senior year, Ms. Doe applied to
West Point. After years of balancing studies, extracurricular activities, and jobs to help support her
family, she hoped to take advantage of West Point’s
offerings without incurring the debt that attendance
at another college would have imposed.
9. Ms. Doe was convinced that West Point would
provide the academic, physical, and mental rigor that
she desired. She also viewed West Point as an honorable and meritocratic institution where she would have
an opportunity to excel based on her abilities and hard
work.
10. Ms. Doe was nominated by her U.S. Representative. One of her Senators identified her as the top
candidate in her state. Ms. Doe was thrilled when she
learned that she had been offered admission to West
Point.
11. Ms. Doe graduated from high school in June
2008, near the top of her class. She accepted West
Point’s offer of admission and on June 30, 2008 signed
an Oath of Allegiance, an educational services contract
with the United States, which committed Ms. Doe to
serving in the Army for eight years, including five on
active duty. In consideration for this promise of
service, Ms. Doe was to receive her tuition, room, and
board from West Point without charge.
12. The oath explained that if Ms. Doe failed to
complete her contractual military service, she would
be required to “reimburse the United States in an
amount that bears the same ratio to the total cost of
advanced education provided me as the unserved
portion of active duty bears to the total period of active
duty I have agreed to serve.”

106a
13. Ms. Doe’s contract with the Army allowed her to
take advantage of the numerous educational opportunities available at West Point’s campus, located on
approximately 16,000 acres on the Hudson River. At
the time she enrolled, there were approximately 4,600
cadets and 600 faculty members at West Point. Approximately three-quarters of the faculty were military
personnel and one-quarter were civilian employees.
14. Cadets live in on-campus dormitories (“barracks”)
for all four years, eat in the dining hall (“mess hall”),
and receive a monthly stipend.
15. The curriculum at West Point is designed to
train “officer-leaders of character to serve the Army
and the Nation.” Cadets may choose from thirty-six
majors. Cadets also participate in the Physical Education Program, which includes military movement,
swimming, combatives, and boxing.
16. West Point offers a number of extracurricular
activities, including athletics, Cadet Honor Societies,
academic competitions. West Point’s athletic program
includes twenty-four National Collegiate Athletic Association Division I teams and twenty-one club sports.
Musical activities include the West Point Band, Concert
Band, Jazz Knights, Marching Band, and Hellcats
(comprised of buglers and drummers). Cadets may
also apply for merit-based scholarships, including
grants for two years of foreign language graduate
study or other educational experiences in foreign
countries. Upon graduation, West Point graduates
earn a Bachelor of Science and become commissioned
as second lieutenants in the U.S. Army.
17. At West Point, Ms. Doe flourished. She thrived
academically, participated in extracurricular activities, and ranked high in her class. A representative

107a
faculty evaluation stated, “CDT [Doe] has what it
takes . . . she is one of the most professional and
internally motivated cadets I’ve worked with . . . I am
confident that she will excel as an Army officer. I
would gladly recruit her to serve on my team,
regardless of the mission.”
18. About 200 of the approximately 1,300 cadets in
Ms. Doe’s entering class were women. Ms. Doe was
often the only woman in her squad of approximately
ten cadets, and frequently felt isolated as a result.
19. Upon information and belief, West Point has
been unwilling to increase the number of female
cadets in each entering class, despite having enough
qualified candidates to do so. Through this policy and
practice, West Point leaders seek to preserve the male
culture of West Point and the military leadership for
future generations.
20. There has never been a female Superintendent
or Commandant of Cadets at West Point. The faculty
is overwhelmingly male. The underrepresentation of
women in the school administration causes female
cadets to feel even more marginalized.
21. In their 2009-2010 Plan for Sexual Assault and
Harassment Prevention, Defendants state that one
of their priorities is the “continued effort to increase
the recruitment of military women for positions within
the Staff and Faculty at USMA, to include positions
with both the Office of the Dean and USCC Staff.”
Defendants have failed to achieve this goal, despite
acknowledging its importance in abating the culture of
sexual violence at West Point.
22. As set forth herein, Defendants Hagenbeck and
Rapp created a misogynistic culture at West Point that
marginalized Ms. Doe and other female cadets, caused

108a
them to be subjected to routine harassment, suffer
emotional distress and other harms, and be pressured
to conform to male norms.
23. The male cadets, teachers, and supervisors
constantly made Ms. Doe aware of her gender at West
Point. Ms. Doe and other female cadets felt immense
pressure to match the men’s physical capabilities and
to align themselves with their male colleagues socially
and psychologically. Women who associated themselves with men received top leadership positions and
respect; cadets perceived women who were allied with
other women as weak.
24. Ms. Doe observed her cadet classmates making
misogynistic and sexually aggressive comments on
a regular basis. The West Point administration
frequently ignored and sometimes condoned these
comments.
25. During team-building exercises, for instance,
cadets would march and sing a song that began, “I
wish that all the ladies / were bricks in a pile / and I
was a mason / I’d lay them all in style.” Later verses
stated, “I wish that all the ladies / were holes in the
road / and I was a dump truck / I’d fill’em with my load”
and “I wish that all the ladies / were statues of Venus/
and I was a sculptor / I’d break’em with my penis.”
26. Another popular song warned listeners to avoid
a steamroller. Male cadets created versions of this
song such as “I’m a cream puff, baby, and I’m going
to cream all over you,” or “I’m a skeet shooter, and
I’m going to skeet all over you,” referencing male
ejaculation.
27. West Point officials knew about the sexual,
misogynistic chants and did not stop them. The cadets

109a
sang these chants as they marched around campus, in
view and earshot of faculty and administrators.
28. Cadets often used derogatory terms to describe
women. Cadets turned the word “trou,” a term based
on the unflattering pants that Defendants required
female cadets to wear, into a slur for an unattractive
or worthless female cadet. For example, cadets referred
to pints of Ben & Jerry’s ice cream as “trou buckets”
and disparaged exercise bikes as “trou chariots.”
29. Male cadets frequently made contemptuous
comments about female civilians’ appearance and
weight. Cadets used the term “whale-watching” to
describe collectively making fun of a fat woman.
30. In addition to ignoring or endorsing the cadets’
misogynistic and sexually aggressive comments, West
Point officials openly joked with male cadets about
sexual exploits. Male cadets believed opportunities to
have sex with women at West Point were rare because
of the gender imbalance among cadets. Many faculty
members and officers, the vast majority of whom are
male, are also West Point alumni, from a time when
there were few or no women at the school. Male faculty
routinely expressed sympathy with male cadets over
the lack of sexual opportunities, and communicated
that they should seize any chance to have sex they
could.
31. Some faculty members communicated to male
cadets that heavy drinking was an understandable
response to the lack of sexual opportunities. Cadets
often engaged in irresponsible drinking as a means of
exploring other social outlets. Male cadets joked about
getting female cadets or other women drunk enough
that they would have sex.

110a
32. The administration endorsed inappropriate or
sexually aggressive comments even in some formal
West Point events. During Ms. Doe’s second year, a
guest speaker for West Point’s professional military
ethics program concluded his speech by hugging a
civilian woman and observing that he liked hugging
women because “they have bumps.” When Ms. Doe
reported the speaker’s comments, school administrators ignored her complaints.
33. West Point’s training on sexual assault and
harassment was inadequate and did little to combat
the overwhelmingly misogynistic culture of the school.
34. During the 2009-2010 academic year, the highestranking officers in the West Point sexual harassment
program were Defendants Hagenbeck and Rapp.
Superintendent Hagenbeck implemented new sexual
assault policies.
35. Under Defendants Hagenbeck and Rapp’s policies,
West Point officials failed to punish cadet perpetrators
of sexual assault and approved egregiously inadequate
punishments.
36. A 2010 Department of Defense (“DoD”) survey
found that cadets did not report approximately ninety
percent of sexual assaults. Fifty-one percent of female
cadets and nine percent of male cadets reported that
they had experienced sexual assault.
37. In academic year 2009-2010, West Point received
eleven official reports of sexual assault. These reports
were a small fraction of the assaults at West Point that
year. Of these eleven reports, five were “unrestricted”
(informing the perpetrator’s superiors and initiating
an investigation) and six were “restricted” (meaning
no action was to be taken). Defendants Hagenbeck and
Rapp approved the dismissal of only one perpetrator

111a
from West Point, after a court-martial convicted him
of rape.
38. Defendants’ punishment of perpetrators of
sexual harassment was also grossly inadequate. In one
instance, multiple female cadets complained that a
male supervisor subjected them to unwanted and
unsolicited comments that were offensive and sexual
in nature. The victims alleged that he touched them in
a manner that made them feel uncomfortable and
created a sexually hostile work environment. Defendants
Hagenbeck and Rapp did not punish or dismiss the
supervisor, but simply relieved him of his duties.
39. By failing to adequately punish perpetrators of
sexual violence, Defendants Hagenbeck and Rapp sent
the message to male cadets that they would tolerate
sexual violence at West Point. They created a system
in which male cadets understood that they could
sexually assault their female colleagues with near
impunity, while at the same time teaching female
cadets that they risked their own reputations and
military careers by reporting assault and that little or
no action would be taken against their assailants.
40. In addition, Defendants Hagenbeck and Rapp
implemented harmful training and education on sexual
assault and harassment, which further engrained a
“blame the victim” mentality in the cadet student
body.
41. At West Point, sexual assault and harassment
training is part of Defendants’ “Respect Program.”
Respect program officers simply informed cadets of the
definitions of sexual harassment and assault, the
reporting options, and points of contact for reporting.
Fourth Class (freshman) and Third Class (sophomore)
cadets received approximately four hours of Respect

112a
training in the 2009-10 academic year, only some of
which pertained directly to sexual assault.
42. West Point officials offered Sex Signals, a training program on the meaning of consent, only to Second
Class (junior) cadets.
43. The trainings that cadets did receive communicated the message that sexual assault prevention
was a woman’s responsibility. The Respect program
officers explicitly told Ms. Doe and her fellow female
cadets that it was their job to say “no,” when faced with
inevitable advances from their male colleagues.
44. West Point officials also required mandatory
annual sexually transmitted disease (STD) testing for
female cadets, but not for male cadets. During Ms.
Doe’s second year, West Point officials and health
administrators from Mologne Cadet Health Clinic
convened a briefing for the female cadets. There, they
admitted that the policy was unfair, but expressed
that it was the Army’s opinion that STDs were more
harmful to women than men and that it was the
responsibility of women to prevent their spread.
45. The school’s Physical Education Program reinforced the message that men should develop their
natural aggression, while women should focus on
protecting themselves. During Ms. Doe’s plebe (first)
year at West Point, Defendants required male cadets
to take boxing. They required female cadets to take
self-defense classes instead. Apart from this single
distinction, first-year cadets otherwise followed the
same curriculum.
46. Defendants Hagenbeck and Rapp knew or
should have known that their policies were inadequate
to protect women and discourage sexual violence on
campus. In 2011, DoD found that West Point was only

113a
“partially in compliance” with sexual harassment and
assault policies. DoD’s report found that West Point’s
prevention training was “deficient,” did not meet the
minimum standard of annual training for all cadets,
and lacked an institutionalized comprehensive Sexual
Assault Prevention and Response (SAPR) curriculum.
47. The 2011 Report also found that West Point
failed to comply with DoD directives intended to
reduce rape and sexual assault, including but not
limited to DoD Directives 6495.01 (Nov. 7, 2008),
6495.02 (Nov. 13, 2008), 1350.2 (Nov. 21, 2003) and
1020.02 (Feb. 5, 2009).
48. The DoD 2009-2010 Annual Report on Sexual
Harassment and Violence at Military Service Academies found that some alarming trends at West Point
grew worse during the time that Defendant Hagenbeck
served as Superintendent and Defendant Rapp as
Commandant of Cadets. These trends included increasing unwanted sexual contact experienced by female
cadets. The 2009-2010 Annual Report found that the
number of incidents involving multiple offenders had
more than doubled since 2008, almost half of all
women surveyed indicated that alcohol or drugs were
involved in episodes of unwanted sexual contact, and
such episodes had increased in number.
49. Total reports of sexual assault at West Point
have also increased since 2007.
50. Defendants Hagenbeck and Rapp received all
of these annual reports from DoD. They knew of
the pervasive threats facing the female cadets at
West Point and that their policies exacerbated these
dangers. Nevertheless, they failed to act or acted with
deliberate indifference to the evidence of pervasive
sexual assault and harassment.

114a
51. Defendant Hagenbeck recommended a successor, Lt. Gen. David H. Huntoon, who has also refused
to take sexual assault and gender relations seriously.
The Pentagon’s Inspector General recently censured
Lt. Gen. Huntoon for misconduct, including an alleged
improper relationship with a civilian female employee.
52. Throughout her time at West Point, Ms. Doe
experienced the effects of Defendants’ policies firsthand. She coped with regular harassment from male
cadets who pressured her to go on dates with them.
Due to the cadet gender ratio, male cadets perceived
female cadets who were not dating or in relationships
as abnormal.
53. It was impossible for Ms. Doe to escape from
these male cadets’ harassment due to strict rules
requiring cadets to stay on campus at nearly all times.
To go further than the nearest town—to which West
Point officials permitted visits only on weekends—
cadets had to obtain a pass several days in advance.
First-year cadets were entitled to only a few weekend
passes per year, and even more senior cadets could
only obtain a limited number of passes.
54. The atmosphere at West Point created significant stress for Ms. Doe. In 2010, these stresses led Ms.
Doe to seek treatment for anxiety. Her psychiatrist at
West Point prescribed a sedative to help her sleep. The
psychiatrist did not warn Ms. Doe of the sedative’s
dangerous side effects, including impaired awareness
and reactions, as well as memory loss. Ms. Doe was
unaware of the drug’s risks until one evening when
she tried to study after taking the sedative. Her vision
became blurred and she was unable to concentrate.
55. On or about April 2009, Ms. Doe began to
consider transferring out of West Point. Nonetheless,

115a
Ms. Doe’s commitment to the military and her desire
to pursue a career in the Army motivated her to try to
complete her studies at West Point.
56. On or about the evening of May 8, 2010, Ms. Doe
took a prescribed sedative as she was preparing for
bed. Around 1:00 a.m. that night, a cadet referred to
by the pseudonym “Robert Smith” came to her
bedroom and asked if she wanted to go for a walk.
57. Mr. Smith was a combat veteran who had
enrolled at West Point after serving in the Army. He
was a classmate, but having already completed a tour
of duty, he was older and more seasoned than most
other second-year cadets.
58. Mr. Smith had previously told Ms. Doe that he
suffered from nightmares and violent flashbacks,
symptoms consistent with Post-Traumatic Stress
Disorder, but that he was not seeing a psychiatrist at
West Point. Instead, he said he was self-medicating
with alcohol.
59. While alcohol was technically prohibited, West
Point officials and upperclassmen widely tolerated its
consumption by combat veterans.
60. Ms. Doe considered Mr. Smith a friend. She
knew that he was dating another cadet and believed
that there was nothing romantic about their own
friendship. Ms. Doe accepted Mr. Smith’s request that
they go for a walk, even though it was a violation of
West Point rules to be out of the dorm after Taps.
61. Ms. Doe and Mr. Smith entered an academic
building. Mr. Smith began drinking liquor that he had
brought with him. He offered Ms. Doe a few sips,
which she accepted. As the alcohol mixed with her
sedative, Ms. Doe began to lose awareness of her

116a
surroundings and consciousness of what she was
doing.
62. Mr. Smith was aware that Ms. Doe had lost
consciousness and took advantage. He attacked Ms.
Doe and had forcible, non-consensual intercourse with
her. Ms. Doe remembers lying on the concrete floor of
a boiler room, not understanding what was going on.
She does not remember the details of the attack.
63. Ms. Doe woke up a few hours later in her bed,
on or about the morning of May 9, 2010, with dirt on
her clothes and hair, bruises on her lower back, and
blood between her legs. Ms. Doe was confused and
alarmed. She confided in a friend, who advised her to
obtain emergency contraception.
64. The next day, on or about May 10, 2010, Ms. Doe
confronted Mr. Smith. With a happy, satisfied look on
his face, he said that they had slept together. Mr.
Smith said he believed it was consensual, but Ms. Doe
felt horrified and violated. She told Mr. Smith that he
had taken advantage of her. Mr. Smith apologized and
said that he was a “creep.” He said that he had had no
control of his actions because of the alcohol.
65. After this conversation, Ms. Doe went to the
Mologne Cadet Health Clinic and Center for Personal
Development. She requested and received emergency
contraception.
66. On or about May 11, 2010, Ms. Doe returned
to the Mologne Clinic to seek medical treatment for
her injuries and for the possible consequences of
unprotected sex. She requested and received tests for
HIV, syphilis, chlamydia, and gonorrhea.
67. At the health clinic, the nurse treating Ms. Doe
performed a vaginal exam and informed her that she

117a
had signs of vaginal tearing. The clinic did not perform
any forensic collection or preservation of evidence of
the sexual assault.
68. The medical record from this visit notes that Ms.
Doe “was drinking this weekend when she was
sexually assaulted by a friend. She does not remember
most of it. She has glimpses of it because of pain. She
is still sore.”
69. That same day, Ms. Doe also went to a regular
appointment with Dr. Joshua Hain, her psychiatrist.
Dr. Hain’s notes state that Ms. Doe “reported today
that over the weekend, she had nonconsensual sexual
relations with a friend.” Dr. Hain referred Ms. Doe to
West Point’s Sexual Assault Response Counselor, Maj.
Maria Burger.
70. During their only meeting, Maj. Burger
explained to Ms. Doe that under West Point rules that
Defendants Hagenbeck and Rapp established and
implemented, Ms. Doe had the option of filing either
a “restricted” or “unrestricted” report. Unlike a
restricted report, an unrestricted report would include
both Ms. Doe and Mr. Smith’s names and would be
given to commanders for potential disciplinary action.
71. Ms. Doe felt that she had no option but to file
a restricted report. In part, she believed that her
reputation would be in jeopardy if she filed an
unrestricted report, and that other cadets would
retaliate against and ostracize her. Furthermore,
because her commanding officer would receive a copy
of any unrestricted report, Ms. Doe feared that she
would be punished for having been out after Taps and
for consuming a small amount of alcohol.
72. Ms. Doe also felt that filing an unrestricted
report would have a damaging effect on her career

118a
prospects. It was common knowledge among the
cadets that successful women in the military did not
report incidents of sexual assault. Ms. Doe felt that if
she made an unrestricted report, West Point officials
and fellow cadets would label her a troublemaker and
faker, which would irreparably hurt her chances for
advancement in the military.
73. Ms. Doe was not the only female cadet who
feared the consequences of reporting sexual assault.
According to DoD’s 2010 Service Academy Gender
Relations Survey, seventy percent of female West
Point cadets who declined to report unwanted sexual
conduct “did not want people gossiping about them”
and “felt uncomfortable making a report.” Sixty-one
percent of female West Point cadets who declined to
report unwanted sexual conduct “thought it would
hurt [their] reputation and standing,” and forty-four
percent feared some form of retaliation.
74. Approximately two weeks after the rape, Ms.
Doe received a single e-mail from another counselor,
apparently a referral from Maj. Burger.
75. Ms. Doe felt isolated and did not know where to
turn for emotional support following the rape. She
began to have sensations of feeling separated from her
body.
76. Her anxiety after the sexual assault became
intolerable. Ms. Doe knew that if she left West Point
after the start of her third year, she would be contractually required to repay the cost of her education.
This was a financial risk that Ms. Doe was unable to
take. On or about August 10, 2010, Ms. Doe informed
West Point that she would be resigning from the
Academy. On August 13, 2010, she was honorably
discharged.

119a
77. Ms. Doe enrolled in a civilian college after
leaving West Point. Although she earned a degree, she
struggled emotionally as she continued to process the
experience of having been sexually assaulted at West
Point.
78. Ms. Doe remains committed to military service.
She is drawn to the constant pursuit of bettering
oneself physically and mentally and to the leadership
development opportunities that military service
affords. Ms. Doe hopes to enroll in Army Corps Officer
Candidate School this fall.
LEGAL CLAIMS
FIRST CLAIM FOR RELIEF
Fifth Amendment Due Process
(Bivens: Defendants Hagenbeck and Rapp)
79. Ms. Doe repeats and incorporates by reference
each and every allegation contained in the preceding
paragraphs as if fully set forth herein.
80. Defendants Hagenbeck and Rapp are liable in
their individual capacities as the supervisors of
Mr. Smith for his violations of Ms. Doe’s due process
rights.
81. Defendants Hagenbeck and Rapp were personally involved in and actually caused the aforementioned
violations of Ms. Doe’s due process rights by knowingly
and intentionally creating, implementing, enforcing,
encouraging, sanctioning, and/or acquiescing in a
policy, practice, and/or custom in which Mr. Smith
violated Ms. Doe’s due process rights.
82. Defendant Hagenbeck, as Superintendent of
West Point and chair of the monthly meetings of the
Sexual Assault Review Board, and Defendant Rapp, as
West Point Commandant of Cadets, were responsible

120a
for creating, promulgating, implementing, and administering the policies, practices and/or customs of the
West Point sexual harassment program.
83. Defendants Hagenbeck and Rapp were personally involved in and proximately caused the violations
of Ms. Doe’s rights by creating, promulgating, implementing, and administering policies, practices, and/or
customs that (1) taught female cadets that it was their
responsibility to ward off the advances of male cadets,
thus creating a culture of blaming the victim; (2)
discouraged female cadets from reporting sexual
assault by causing them to fear retaliation and harm
to their career; (3) rarely punished cadet perpetrators
of sexual assault or punished them only mildly,
thereby fostering an environment of sexual hostility
and toleration of violence against women; (4) provided
female cadets with inadequate, if any, support services
after their attacks; (5) tolerated a culture of hostility
towards women, including failing to punish male
cadets for the regular use of misogynistic chants and
slurs and ignoring sexist comments by West Point
faculty and speakers; and (6) fostered the marginalization of women at West Point by failing to hire female
faculty and administrators and failing to recruit
female cadets.
84. Furthermore, Defendants Hagenbeck and Rapp
knew or should have known of the high rate of sexual
assault and sexual harassment against female cadets.
In its 2009-2010 report, the DoD found that fifty-six
percent of female cadets at military service academies
experienced sexual harassment and 12.9 percent
experienced unwanted sexual contact. This report,
others by the DoD and Government Accountability
Office, and other journalistic or public accounts,
notified Defendants that female cadets at West Point

121a
faced unacceptably high levels of risk of sexual
harassment and assault.
85. Despite this knowledge, Defendants failed to
act to remedy the situation, thus acquiescing in the
widespread constitutional violations of which Ms. Doe’s
injuries were a part. Instead, Defendants Hagenbeck
and Rapp created a policy, practice, and/or custom
under which widespread due process violations continued and were exacerbated.
86. Defendants Hagenbeck and Rapp were personally involved in and proximately caused the violations
of Ms. Doe’s rights through their deliberate indifference to and actual knowledge, prior to the violation of
Ms. Doe’s constitutional rights, of the widespread rape
and sexual assault of female cadets.
87. Since the constitutional violations against female
cadets were so widespread, they became a custom of
constitutional violations in the face of which Defendants
Hagenbeck and Rapp deliberately refused to act,
despite official and unofficial reports notifying them of
this pervasive problem. Their refusal to act, despite
notice and actual knowledge, amounts to acquiescence
to violations of Ms. Doe’s constitutional rights for
which they are personally liable.
88. Defendants Hagenbeck and Rapp were personally involved in and proximately caused the violations
of Ms. Doe’s rights through their deliberate indifference to her constitutional rights. Defendants Hagenbeck
and Rapp (1) knew to a moral certainty that sexual
assault and harassment occurred frequently at West
Point and that female cadets faced a unrelentingly
sexually aggressive culture; (2) knew that effective
punishment of sexual assault perpetrators, refusal to
tolerate sexually aggressive language and conduct by

122a
West Point faculty, officials, and male cadets, and a
less misogynistic sexual education training would
have made the male cadets less likely to violate
constitutional rights; and (3) knew that under the
current disciplinary system and education program,
the male cadets at West Point were inadequately
trained, were committing widespread due process violations by continuously assaulting the female cadets,
and would continue to do so without proper discipline
and training geared towards changing the pervasive
culture of violence against women at West Point.
89. The inadequacy of the discipline and training
program and the tolerance of sexually aggressive
language and conduct by faculty, officials and male
cadets was obvious and had been reported to Defendants Hagenbeck and Rapp by internal investigations
by the DoD and the Government Accountability Office
and external criticisms by investigative journalists.
Despite this knowledge, Defendants Hagenbeck and
Rapp failed to create or implement an adequate training program or meaningfully to discipline cadets who
sexually assaulted other cadets, failed to act to end the
use and endorsement of sexually aggressive language
and conduct by faculty, officials and male cadets, and
were deliberately indifferent to Ms. Doe’s rights.
90. Defendants Hagenbeck and Rapp were personally
involved in and proximately caused the aforementioned violations of Ms. Doe’s constitutional rights and
were deliberately indifferent to the rights of Ms. Doe
in failing to adequately supervise subordinate Mr.
Smith, who proximately caused the violations of Ms.
Doe’s Fifth Amendment rights.
91. Despite the obvious need for close supervision of
male cadets due to the well-known problems of sexual
assault and sexually aggressive culture at West Point,

123a
Defendants Hagenbeck and Rapp egregiously failed to
supervise the actions of male cadets and other agents
to ensure that due process violations did not occur,
evidencing gross negligence in supervising subordinate male cadets and deliberate indifference to the
rights of Ms. Doe.
92. By failing to punish perpetrators of sexual
assault, failing to properly train male cadets, failing to
adequately protect female cadets from sexual assaults,
and tolerating sexually aggressive language and conduct by faculty, officials and male cadets, Defendants
Hagenbeck and Rapp communicated to male cadets
that they could commit sexual assaults against female
cadets with impunity. By communicating this message,
Defendants created a dangerous and sexually hostile
environment for Ms. Doe and the other women of West
Point.
93. As a result of Defendants Hagenbeck and Rapp’s
acts and/or omissions, Ms. Doe suffered damages,
including but not limited to violations of her constitutional rights, physical injury, and emotional distress.
94. When Ms. Doe was raped, she was not engaged
in activities that fell within the scope of military
employment. Ms. Doe was a student of West Point and
not an employee. Her injuries from being raped arose
outside the scope of any employment, and she would
not be eligible to receive workers’ compensation under
federal or New York law.
95. Ms. Doe fears that she will again be subjected to
such unlawful and unconstitutional actions and seeks
a judicial declaration that Defendants’ conduct has
deprived her of her rights under the constitution and
laws of the United States.

124a
SECOND CLAIM FOR RELIEF
Fifth Amendment Equal Protection
(Bivens: Defendants Hagenbeck and Rapp)
96. The Plaintiff repeats and incorporates by reference each and every allegation contained in the
preceding paragraphs as if fully set forth herein.
97. Defendants Hagenbeck and Rapp created and
enforced a policy that put female cadets at risk of
violent harm. They knowingly and intentionally created
and enforced a policy and practice that tolerated
attacks against female cadets and discouraged reporting of such attacks, perpetrating a sexually aggressive
culture at West Point.
98. In designing and implementing a policy and
practice that discriminated against female cadets,
Defendants violated the equal protection component of
the Due Process Clause of the Fifth Amendment of the
United States Constitution.
99. The above-named Defendants deprived Ms. Doe
of basic due process protections by creating and
enforcing a policy and practice that placed her at a high
risk of harm based on her gender in violation of her
right to equal protection under the Fifth Amendment.
100. As a result of above-named Defendants’ actions,
Ms. Doe suffered damages, including but not limited
to, physical injury and emotional distress.
THIRD CLAIM FOR RELIEF
Little Tucker Act: Breach of the Covenant of
Good Faith and Fair Dealing
(Defendant: United States)
101. The Plaintiff repeats and incorporates by
reference each and every allegation contained in the
preceding paragraphs as if fully set forth herein.

125a
102. In signing her Oath of Allegiance, Ms. Doe
entered into a valid educational contract and service
agreement with Defendant United States. She entered
into this contract with a reasonable expectation of
receiving educational benefits, tuition, room, and
board from West Point in exchange for her promise of
military service.
103. The contract provided that if she failed to
satisfy her obligation to serve on active duty under the
contract, the United States would have an enforceable
right to recoup the full costs of her education. This
recoupment clause confirmed the contractual nature
of Ms. Doe’s agreement with the Defendant United
States.
104. The United States has filed suit to enforce
educational contracts substantially similar to that
executed by Ms. Doe. In one such action, the United
States characterized the failure of a former West Point
cadet to complete his course of study as a “breach of
his service agreement.” The United States has
characterized the West Point Oath of Allegiance as,
variously, a “service contract,” a “cadet contract” and
the equivalent of a “military education contract.”
105. The educational contract between Ms. Doe and
the United States contained an implied covenant of
good faith and fair dealing.
106. By creating and enforcing policies and practices that fostered a sexually hostile environment
and toleration of violence against women, failing to
adequately punish perpetrators of sexual assault, failing to adequately train cadets, faculty and administrators,
and endorsing a misogynistic culture, Defendant United
States deprived Ms. Doe of her contractual right to
receive this education.

126a
107. Defendant United States acted in bad faith by
engaging in conduct that was designed to oppress
women at West Point, after inducing them to enter
into contractual obligations. By depriving Ms. Doe of
her reasonable expectation of contractual education
benefits and acting in bad faith, Defendant United
States breached the covenant of good faith and fair
dealing.
108. Ms. Doe seeks damages of less than $10,000 on
her breach of contract claim. Accordingly, jurisdiction
over her Little Tucker Act claim is proper in this
Court.
FOURTH CLAIM FOR RELIEF
Federal Tort Claims Act
(Defendant United States)
109. The Plaintiff repeats and incorporates by reference each and every allegation contained in the preceding paragraphs as if fully set forth herein.
Negligent Supervision
110. Defendants Hagenbeck and Rapp and other
West Point officials negligently failed to supervise male
cadets, including Mr. Smith. Defendants Hagenbeck
and Rapp and other West Point officials were fully
aware that cadets had committed numerous acts of
sexual violence in the past. Defendants Hagenbeck
and Rapp and other West Point officials failed to
investigate these incidents, failed to punish the cadets
for acts of sexual violence, and failed to condemn and
end the prevalence of sexually aggressive language
and conduct by faculty, officials, and male cadets.
Defendants Hagenbeck and Rapp and other West
Point officials were fully aware of these circumstances
from the DoD, Government Accountability Office,

127a
congressional hearings, internal investigations, and
various news reports.
111. Defendants Hagenbeck and Rapp and other
West Point officials also knew that there was a culture
condoning sexual harassment, sexual assault, and
rape among the cadets at West Point. Had Defendants
Hagenbeck and Rapp and other West Point officials
adequately supervised the cadets, the United States
could have avoided the harm to Ms. Doe.
112. Defendants Hagenbeck and Rapp and other
West Point officials also negligently failed to supervise
West Point staff members, including Maj. Burger, in
properly handling Ms. Doe’s sexual assault report.
Defendants Hagenbeck and Rapp and West Point
officials were fully aware that rape and sexual assault
were prevalent at West Point, that reporting and
training policies were inadequate, that punishment of
those who committed rape or sexual assault was rare,
and that there existed a culture condoning sexual
harassment, sexual assault, and rape.
113. Defendants Hagenbeck and Rapp and other
West Point officials were fully aware that staff members had inadequately handled sexual assault complaints
in the past. Had Defendants Hagenbeck and Rapp and
other West Point officials properly supervised West
Point staff members, the United States could have
avoided the harm to Ms. Doe.
Negligent Training
114. Defendants Hagenbeck and Rapp and other
West Point officials also failed to adequately train
West Point cadets, including Mr. Smith, in preventing
sexual assaults against female cadets. The United
States was fully aware that rape and sexual assault
were prevalent at West Point and that the sexual

128a
assault trainings created a culture condoning sexual
harassment, sexual assault, and rape.
115. Even when Defendants Hagenbeck, Rapp,
and other West Point officials learned of previous
instances of sexual assault among cadets, they failed
to change the ineffective cadet training. Had Defendants Hagenbeck and Rapp and other West Point
officials corrected the inadequate training, the United
States could have avoided the harm to Ms. Doe.
116. Defendants Hagenbeck and Rapp and other
West Point officials also failed to train West Point staff
members to properly respond to sexual assaults
reports by cadets.
117. The United States was fully aware that rape
and sexual assault were prevalent at West Point, that
reporting and training policies were inadequate, that
punishment of rapists and those who committed
sexual assaults were rare, and that there existed a
culture allowing and condoning sexual harassment,
sexual assault, and rape.
118. Even when Defendants Hagenbeck and Rapp
and other West Point officials learned of previous instances where West Point staff inadequately responded to sexual assault reports, they failed to
change the defective trainings and policies. Had
Defendants Hagenbeck and Rapp and other West
Point officials corrected the inadequate training, the
United States could have avoided the harm to Ms. Doe.
Negligence
119. Defendants Hagenbeck and Rapp and other
West Point officials negligently established, promulgated, and implemented the inadequate policies and
practices that caused Ms. Doe to be sexually assaulted.

129a
Defendants Hagenbeck and Rapp and other West Point
officials negligently created, condoned, and failed to
amend a culture that allowed sexual harassment, sexual
assault, and rape.
Negligent Infliction of Emotional Distress
120. Robert Smith created an unreasonable risk
of causing Ms. Doe emotional distress. Mr. Smith’s
rape of Ms. Doe unreasonably endangered Ms. Doe’s
physical safety, and it was clearly foreseeable that his
act would cause Ms. Doe emotional distress. Mr.
Smith’s conduct caused Ms. Doe’s emotional distress,
and his conduct was severe enough that it resulted in
Ms. Doe’s emotional injury and bodily harm.
121. Defendants Hagenbeck and Rapp and other
West Point officials created an unreasonable risk of
causing Ms. Doe emotional distress. Their creation
and maintenance of inadequate sexual assault prevention and reporting policies, as well as their failure to
discipline assailants and their tolerance of sexually
aggressive language and conduct by faculty, officials
and male cadets, unreasonably endangered Ms. Doe’s
physical safety. It was clearly foreseeable that these
acts would cause Ms. Doe’s emotional distress. Defendants Hagenbeck and Rapp and other West Point
officials caused Ms. Doe’s emotional distress, and their
conduct was severe enough that it resulted in Ms.
Doe’s emotional injury and bodily harm.
Abuse of process
122. Defendants Hagenbeck and Rapp and other
West Point officials abused legal process in their actions.
Defendants refused to properly investigate and punish
incidents of sexual assault. Defendants also established and operated a system that discouraged and
prevented Ms. Doe from pursuing an unrestricted

130a
report and/or criminal charges against Mr. Smith
without fear of retaliation.
123. On information and belief, Defendants
Hagenbeck and Rapp and other West Point officials
deliberately abused the investigation and reporting
process for the improper purpose of discouraging
reports so as to conceal the true extent of the sexual
violence at West Point, avoiding further investigation
or review of their constitutionally deficient sexual
assault policies, practices, and customs, and attempting
to maintain a favorable public image of West Point.
124. Defendants Hagenbeck and Rapp and other
West Point officials are, by their military rank, empowered to make arrests and are thus law enforcement
officers for the purposes of the FTCA, 28 U.S.C. § 2680(c).
125. The United States is liable pursuant to the
FTCA for the tortious acts of its employees in
“circumstances where the United States, if a private
person, would be liable to the claimant in accordance
with the law of the place where the act or omission
occurred.” 28 U.S.C. § 1346(b).
126. Defendants Hagenbeck and Rapp, as well as
other West Point officials, were acting within the
course and scope of their employment as agents of the
United States, and on behalf of the United States,
when they committed the tortious and unlawful acts
complained of here, including negligent supervision,
negligent training, negligent infliction of emotional
distress, negligence, and abuse of process.
127. In these circumstances, if the United States
were a private person, liability would be imposed in
accordance with the law of New York. When Ms. Doe
was raped, she was not engaged in activities that fell
within the scope of military employment. She was a

131a
student of West Point and not an employee, and her
injuries were in no way work-related. She would thus
be ineligible to receive workers’ compensation under
federal or New York law.
128. Ms. Doe has administratively exhausted her
claims under the FTCA. Ms. Doe timely filed an FTCA
administrative claim with DoD on or about May 3,
2012. As of August 30, 2013, DoD has not issued a
decision on her claim.
PRAYER FOR RELIEF
WHEREFORE, Ms. Doe respectfully requests that
this Court:
(1) Enter a declaratory judgment that the actions of
Defendants Hagenbeck and Rapp violated the United
States Constitution;
(2) Award Ms. Doe compensatory damages in an
amount to be proven at trial;
(3) Hold Defendants jointly and severally liable for
compensatory damages; and
(4) Grant such other relief as the Court deems just
and equitable.
Dated: August 30, 2013
New Haven, Connecticut
Respectfully Submitted,
By: /s/ Michael J. Wishnie
Michael J. Wishnie, Esq. MW 1952
Veterans Legal Services Clinic
Jerome N. Frank Legal Services Organization
Yale Law School
P.O. Box 209090
New Haven, CT 06520-9090
Tel: (203) 432-4800

132a
APPENDIX H
STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 1346:
(b)(1) Subject to the provisions of chapter 171 of this
title, the district courts, together with the United
States District Court for the District of the Canal Zone
and the District Court of the Virgin Islands, shall have
exclusive jurisdiction of civil actions on claims against
the United States, for money damages, accruing on
and after January 1, 1945, for injury or loss of property,
or personal injury or death caused by the negligent or
wrongful act or omission of any employee of the
Government while acting within the scope of his office
or employment, under circumstances where the United
States, if a private person, would be liable to the
claimant in accordance with the law of the place where
the act or omission occurred.
* * *
28 U.S.C. § 2671:
Definitions
As used in this chapter and sections 1346(b) and 2401(b)
of this title, the term “Federal agency” includes the
executive departments, the judicial and legislative
branches, the military departments, independent establishments of the United States, and corporations
primarily acting as instrumentalities or agencies of
the United States, but does not include any contractor
with the United States.
“Employee of the government” includes (1) officers or
employees of any federal agency, members of the
military or naval forces of the United States, members
of the National Guard while engaged in training or
duty under section 115, 316, 502, 503, 504, or 505 of

133a
title 32, and persons acting on behalf of a federal
agency in an official capacity, temporarily or permanently in the service of the United States, whether
with or without compensation, and (2) any officer or
employee of a Federal public defender organization,
except when such officer or employee performs professional services in the course of providing representation
under section 3006A of title 18.
“Acting within the scope of his office or employment”,
in the case of a member of the military or naval forces
of the United States or a member of the National
Guard as defined in section 101(3) of title 32, means
acting in line of duty.
* * *
28 U.S.C. § 2674:
Liability of United States
The United States shall be liable, respecting the
provisions of this title relating to tort claims, in the
same manner and to the same extent as a private
individual under like circumstances, but shall not be
liable for interest prior to judgment or for punitive
damages.
If, however, in any case wherein death was caused, the
law of the place where the act or omission complained
of occurred provides, or has been construed to provide,
for damages only punitive in nature, the United States
shall be liable for actual or compensatory damages,
measured by the pecuniary injuries resulting from
such death to the persons respectively, for whose
benefit the action was brought, in lieu thereof.
With respect to any claim under this chapter, the
United States shall be entitled to assert any defense
based upon judicial or legislative immunity which

134a
otherwise would have been available to the employee
of the United States whose act or omission gave rise to
the claim, as well as any other defenses to which the
United States is entitled.
With respect to any claim to which this section applies,
the Tennessee Valley Authority shall be entitled to
assert any defense which otherwise would have
been available to the employee based upon judicial or
legislative immunity, which otherwise would have
been available to the employee of the Tennessee Valley
Authority whose act or omission gave rise to the claim
as well as any other defenses to which the Tennessee
Valley Authority is entitled under this chapter.
* * *
28 U.S.C. § 2680:
Exceptions
The provisions of this chapter and section 1346(b) of
this title shall not apply to—
(a) Any claim based upon an act or omission of an
employee of the Government, exercising due care, in
the execution of a statute or regulation, whether or
not such statute or regulation be valid, or based
upon the exercise or performance or the failure to
exercise or perform a discretionary function or duty
on the part of a federal agency or an employee of the
Government, whether or not the discretion involved
be abused.
(b) Any claim arising out of the loss, miscarriage, or
negligent transmission of letters or postal matter.
(c) Any claim arising in respect of the assessment or
collection of any tax or customs duty, or the detention of any goods, merchandise, or other property by
any officer of customs or excise or any other law

135a
enforcement officer, except that the provisions of
this chapter and section 1346(b) of this title apply
to any claim based on injury or loss of goods,
merchandise, or other property, while in the possession of any officer of customs or excise or any other
law enforcement officer, if—
(1) the property was seized for the purpose of
forfeiture under any provision of Federal law
providing for the forfeiture of property other than
as a sentence imposed upon conviction of a
criminal offense;
(2) the interest of the claimant was not forfeited;
(3) the interest of the claimant was not remitted
or mitigated (if the property was subject to forfeiture); and
(4) the claimant was not convicted of a crime for
which the interest of the claimant in the property
was subject to forfeiture under a Federal criminal
forfeiture law.
(d) Any claim for which a remedy is provided by
chapter 309 or 311 of title 46 relating to claims or
suits in admiralty against the United States.
(e) Any claim arising out of an act or omission of any
employee of the Government in administering the
provisions of sections 1-31 of Title 50, Appendix.
(f) Any claim for damages caused by the imposition
or establishment of a quarantine by the United
States.
[(g) Repealed. Sept. 26, 1950, c. 1049, § 13(5), 64
Stat. 1043.]
(h) Any claim arising out of assault, battery, false
imprisonment, false arrest, malicious prosecution,

136a
abuse of process, libel, slander, misrepresentation,
deceit, or interference with contract rights: Provided,
That, with regard to acts or omissions of investigative or law enforcement officers of the United States
Government, the provisions of this chapter and
section 1346(b) of this title shall apply to any claim
arising, on or after the date of the enactment of this
proviso, out of assault, battery, false imprisonment,
false arrest, abuse of process, or malicious prosecution. For the purpose of this subsection, “investigative
or law enforcement officer” means any officer of the
United States who is empowered by law to execute
searches, to seize evidence, or to make arrests for
violations of Federal law.
(i) Any claim for damages caused by the fiscal
operations of the Treasury or by the regulation of
the monetary system.
(j) Any claim arising out of the combatant activities
of the military or naval forces, or the Coast Guard,
during time of war.
(k) Any claim arising in a foreign country.
(l) Any claim arising from the activities of the
Tennessee Valley Authority.
(m) Any claim arising from the activities of the
Panama Canal Company.
(n) Any claim arising from the activities of a
Federal land bank, a Federal intermediate credit
bank, or a bank for cooperatives.

